Audit Report




OIG-09-026
Audit of the Office of the Comptroller of the Currency’s
Fiscal Years 2008 and 2007 Financial Statements


January 8, 2009




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                January 8, 2009


            MEMORANDUM FOR JOHN C. DUGAN
                           COMPTROLLER OF THE CURRENCY

            FROM:                   Michael Fitzgerald /s/
                                    Director, Financial Audits

            SUBJECT:                Audit of the Office of the Comptroller of the Currency’s
                                    Fiscal Years 2008 and 2007 Financial Statements


            I am pleased to transmit the attached audited Office of the Comptroller of the
            Currency (OCC) financial statements for fiscal years 2008 and 2007. Under a
            contract monitored by the Office of Inspector General, GKA, P.C. (GKA), an
            independent certified public accounting firm, performed an audit of the financial
            statements of OCC as of September 30, 2008 and 2007 and for the years then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by GKA, are incorporated in the attachment:

                •   Independent Auditor’s Report on Financial Statements;
                •   Independent Auditor’s Report on Internal Control over Financial Reporting;
                    and
                •   Independent Auditor’s Report on Compliance with Laws and Regulations

            In its audit of OCC’s financial statements, GKA found:

                •   that the financial statements were fairly presented, in all material respects, in
                    conformity with accounting principles generally accepted in the United
                    States of America,

                •   no matters involving internal control and its operations that are considered
                    material weaknesses, and

                •   no instances of reportable noncompliance with laws and regulations tested.
GKA also issued a management letter dated October 31, 2008, discussing certain
matters involving internal control over financial reporting and its operation that
were identified during the audit but were not required to be included in the
auditor’s reports. This letter will be transmitted separately.

In connection with the contract, we reviewed GKA’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. GKA is responsible for the
attached auditor’s reports dated October 31, 2008 and the conclusions expressed
in the reports. However, our review disclosed no instances where GKA did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789 or a member
of your staff may contact Ade Bankole, Manager, Financial Audits at
(202) 927-5329.

Attachment
                                                                                                                        Comptroller of the Currency
                                                                                                                        Administrator of National Banks




                                                                            Office of the Comptroller of the Currency
                                                                                                                        US Department of the Treasury




                                                                            ANNUAL REPORT FY 2008
                                                                                                                         Office of the Comptroller of the Currency

                                                                                                                                                          ANNUAL REPORT
The seal depicted on the front cover dates to 1863. It was designed under                                                                                    Fiscal Year 2008
 the direction of the first Comptroller of the Currency, Hugh McCulloch,
  chosen by President Abraham Lincoln and Secretary of the Treasury
    Salmon P. Chase. The OCC marked its 145th anniversary in 2008.
                                                                             R OF THE
                                                                           LE         C




                                                                       L




                                                                                       UR
                                                                COMPTRO




                                                                                         RENCY
                                                                              18 6 3



                                                                                          OCC History and Traditions
                                                                             I
             OCC VISION

T
        he Office of the Comptroller of the Currency (OCC)
        seeks to assure a banking system in which national
        banks soundly manage their risks, comply with
applicable laws, compete effectively with other providers of
financial services, offer products and services that meet the
needs of customers, and provide fair access to financial
services and fair treatment of their customers.
  Contents

         Comptroller’s Viewpoint  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1


         Introduction  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5


         Section One: State of the National Banking System  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7


         Section Two: State of OCC Supervision  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 11


         Section Three: Organizational Highlights  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33


         Section Four: Financial Management Discussion and Analysis  .  .  .  .  . 45


         List of Acronyms  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 80


         Index  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 81


         Inside Back Cover: OCC History and Traditions





December 2008                                                                                                                                                                    i
     OCC Offices Are Located Around the Country
                         Seattle




                                                                                                              Fargo Duluth
                                                             Billings                                                                                                                                 Portland
                                                                                                                Alexandria        Iron Mountain
                                                                                                               Minneapolis                                                                    Syracuse
                                                                                                                                 Eau Claire
                                                                                                                                                                                                     Boston
                                                                                              Sioux Falls                          Milwaukee
                                                                                                                                                          Detroit                 Wilkes-Barre
                                                                                                                                North & South                                              New York
                                                                                                               Sioux City                                                               Short Hills
                                                                                                                                      Chicago                  Cleveland Pittsburgh
                                            Salt Lake City                                                                                                                                 Edison
                                                                                                      Omaha                                                                        Philadelphia
                                                                                                                                    Peoria                 Columbus
           San                                                                                Grand Island                        Champaign                               Washington DC
           Francisco                                                    Denver
                                                                                                                                                 Indianapolis      Cincinnati
                                                                                                  Salina                Kansas City                                       Charleston
                                                                                                                                                        Louisville
                                                                                                         Wichita                       St. Louis                                  Roanoke
                                                                                                                                                      Evansville
                                                                                                             Joplin

                       Los Angeles                                                                            Tulsa                                   Kansas City
                                                                                 Amarillo                                                                                         Charlotte
                         Santa Ana                           Albuquerque
                                                                                                                          Little Rock      Memphis
                          San Diego                                                              Oklahoma City
                                      Phoenix                                                                                                                  Atlanta

                                                                                                                                                  Birmingham
                                                                                 Lubbock
                                                                                                           Fort Worth                   Jackson
                                                                                             Dallas          Longview
                                                                                                  Austin                                                          Jacksonville
                                                                                                               Houston New Orleans
                                                                                            San Antonio
                                                                                                                                                                                 Tampa
                                                                                               Corpus
                                                                                               Christi
                                                                                                                                                                                   Miami



      Figure 1: Statistical Profi
                            Profile
                                 le of
      the OCC’s Fiscal Year 2008

                           Number of Total 3,122
                              Employees

                       Number of National 2,079                                                                             Figure 2: Statistical Profile of
                         Bank Examiners                                                                                     the National Banking System
                 Number of Safety 1,2661                                                                                     Number of National Banks 1,678
                   and Soundness
           Examinations Conducted                                                                                                         Percentage of Total 20%
                                                                                                                                          Commercial Banks
                          Number of 630
              Specialty Examinations                                                                                              Number of Uninsured 73
                          Conducted                                                                                           National Trust Companies
                          Number of 48                                                                                              Number of Federal 49
                 Consumer Assistance                                                                                         Branches of Foreign Banks
                           Personnel
                                                                                                                                    Assets of National $8.3 trillion
                   Number of Written 41,656                                                                                    Banks (excluding Federal
                Consumer Complaints                                                                                          Branches of Foreign Banks)
                          Processed
                                                                                                                                 Percentage of Total U.S. 62%
                              Total Revenue $736.1 million2                                                                        Commercial Banking
                                                                                                                                                  Assets
             Percentage of Revenue 96.1%                                                                                            Total Insured Deposits $4.886 trillion
          Derived from Assessments
                                                                                                                                Number of Employees of 1,247,143
      Source: OCC data for fiscal year 2008.
                                                                                                                                        National Banks
      1
       Large and Midsize national banks receive continuous                                                                     Community Development $3.7 billion
      supervision.                                                                                                                Investment Authority
      2
       Ninety-six percent of OCC revenue is derived from
      assessments.                                                                                                          Source: OCC, 2008.




ii                                                                               Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
Comptroller’s Viewpoint

F
         or the financial system, both here and            Second, despite the
         abroad, the fiscal year that ended September   unprecedented nature of these
         30 was without question the most               events, the OCC anticipated
extraordinary of my lifetime. In fact, when I look      many of them before they
back on all that has happened since we published        occurred and dealt with them
our last annual report, I am struck by the sheer        once they arrived. We sounded
number of events involving severe credit and market     early public warnings in
stress, any one of which could have been the most       guidance and speeches about
serious financial problem of the year in the much       risk layering, payment shock,
quieter period before 2007.                             and declining underwriting
   Just naming the worst of them is both telling and    standards for “payment option” mortgages and home
exhausting. The first annual decline in nationwide      equity lending. Our higher standards for subprime
house prices. Record foreclosure levels. Brutal         mortgage underwriting kept most of that lending out
losses on subprime loans. The near shutdown of          of national banks. The subprime loans that national
interbank lending markets and the liquidity freeze      banks did make were generally of higher quality
for asset-backed commercial paper and structured        than those originated elsewhere.
investment vehicles, or SIVs. The government               For commercial real estate (CRE) concentrations
takeover of Fannie Mae and Freddie Mac. The             in community banks, we conducted rigorous
failure of Lehman Brothers, IndyMac, and WaMu.          horizontal reviews in each of the four OCC districts
The distress sales of Countrywide to Bank of            starting in 2004; we pushed hard for the CRE
America, Bear Stearns to JPMorgan Chase, and            guidance subsequently issued in 2006 over industry
Wachovia to Wells Fargo. The administration plan        opposition; and we delivered our messages again
to use $700 billion to unfreeze the credit markets.     and again in speeches, outreach meetings, and
   Could all of these major financial events have       examinations all over the country.
really happened in just one year? The answer, of           Our annual underwriting surveys repeatedly
course, is yes. In fact, many of the most dramatic of   spotlighted the trend of declining underwriting
them happened in just over a month. In reflecting       standards, particularly with respect to leveraged
on this “100-year flood,” let me provide a few          loans. We also recognized early on that community
observations from the perspective of the OCC.           bank failures would accelerate in 2008; we
   First, national banks took important steps           talked about that publicly; and we planned for it.
to strengthen their positions. Large banks that         Distressed institutions—large and small—have
experienced difficulties responded by aggressively      demanded far more attention and supervision than
raising capital to shore up their balance sheets,       normal, and at times, tensions have run high. OCC
attracting well over $100 billion. As a result,         examiners stepped up to each unfolding event with
virtually all national banks continued to satisfy the   speed, maximum effort, and teamwork. We needed
definition of “well capitalized” on September 30.       the best from our examiners, and they delivered. It
Banks of all sizes have rapidly increased loan loss     is no accident that banks have gotten more realistic
reserves to address the spike in troubled loans—        about recognizing delinquency and loss; raised
in some cases to unprecedented levels. While            significant amounts of capital when they could;
fiscal 2008 was a difficult year with many tense        aggressively built loan loss reserves and agreed to
moments, we should not lose sight of these very         tangible actions that would fundamentally improve
tangible positive signs amid the steady drumbeat of     their risk management. It is an examiner’s job to
negative news.                                          get banks to take these sometimes painful steps to

December 2008                                                                                                  1
      Members of the
                                                                                  John C. Dugan
      Executive Committee                                              Comptroller of the Currency




       Thomas R. Bloom      Jennifer C. Kelly       Mark Levonian          Timothy W. Long           Bajinder N. Paul
       Senior Deputy        Senior Deputy           Senior Deputy          Senior Deputy             Chief Information
       Comptroller for      Comptroller for         Comptroller for        Comptroller and           Officer
       Management           Midsize/Community       Economics              Chief National
       and Chief            Bank Supervision                               Bank Examiner
       Financial Officer


    improve their safety and soundness, but it has not            been, thinking that their access to funding, even
    always been easy.                                             in times of stress, would be much better than it
       The OCC has also initiated new data gathering              proved to be. I think the regulatory community
    to help address the recent problems. Perhaps the              had that same misimpression, and a number of
    best example is our Mortgage Metrics project. An              us have concluded that our liquidity metrics were
    unprecedented effort accomplished in record time,             not sufficiently robust. We have been working
    this project gathered loan level data on over 40              with banks all over the country to improve
    percent of the mortgages serviced in the United               their liquidity positions. In addition, the Basel
    States. Importantly, the data are both standardized           Committee issued a very thoughtful paper on
    and validated. We now know much more than we                  liquidity risk management, and we have spent a
    once did about trends in delinquency, modification,           considerable amount of time developing a better
    and foreclosure with respect to prime, subprime,              template for gathering data to measure liquidity
    and Alt-A mortgages, and we have begun to                     risk. I believe these efforts will produce real
    use that data in a variety of ways to support our             improvement over time.
    supervision and our efforts to mitigate the impact of
                                                               • Risk management for complex financial
    the economic crisis on homeowners. We have also
                                                                 instruments. Collateralized debt obligations
    begun to develop similar metrics for home equity
                                                                 (CDOs) backed by subprime mortgages were
    and credit card lending, and we think that data, too,
                                                                 the prime example of the need for better efforts
    will prove very important to our supervision and our
                                                                 here. Despite the inherent risk of the underlying
    consumer protection initiatives.
                                                                 collateral, the industry and regulators were lulled
       But there were some problems we clearly did not
                                                                 into a false sense of security by the triple-A
    anticipate, and we need to learn some lessons and
                                                                 ratings given to the super-senior tranches of these
    make some improvements going forward. Here are a
                                                                 securities. Some of the exposure was masked in
    few that stand out.
                                                                 off-balance-sheet vehicles in ways that clouded
    • Liquidity. A number of banks were not as prepared
                                                                 the full extent of exposure. Indeed, some senior
       to deal with liquidity strains as they should have
                                                                 bank management thought they had avoided


2                                                 Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
                                                                       this: some concentrations can be so large
                                                                       that even the best risk management will
                                                                       fall short when an economic storm focuses
                                                                       on that same asset class. While the jury
                                                                       is very much still out, and the subject is
                                                                       controversial, regulators and policymakers in
                                                                       the future may very well need to revisit the
                                                                       issue of appropriate levels of concentration.
                                                                            A major concern I have going forward is
                                                                         the pressure to lower underwriting standards
                                                                         for loans that are sold to others as opposed
                                                                         to those held in portfolio. Some banks
                                                                         applied different underwriting standards for
                                                                         loans sold to Wall Street securitizers for
                                                                         further sale to investors, while the standards
                                                                         were more rigorous for loans that banks
                                                                         kept on their books. The same was true
Douglas W. Roeder         John G. Walsh         Julie L. Williams        for leveraged loans originated by our very
Senior Deputy             Chief of Staff and    First Senior Deputy      largest banks.
Comptroller               Public Affairs        Comptroller and
                                                                            In both cases, when examiners began
for Large Bank 	                                Chief Counsel
Supervision                                                              to criticize the lower standards for loans
                                                                         that were sold, we often heard the same
                                                                         two arguments in response. First, some
    subprime risk by deliberately choosing to avoid                      argued that weaker underwriting standards
    originating such loans in the bank—only to find            should not matter if the risk leaves the bank when
    out after the fact that their investment banks had         the loan is sold to a willing buyer who understands
    purchased subprime loans elsewhere to structure            the increased risk. And second, some claimed
    them into CDOs. And when the market seized                 that if banks were forced to raise their standards
    up, some banks that structured the CDOs for sale           above the level required by the market, they would
    to third parties wound up holding large positions          lose business to others who did not have to raise
    that no one wanted to buy. That resulted in huge           their standards.
    concentrations, which in turn led to huge losses.             Events of the last year have revealed the
    There was too much reliance on triple-A ratings,           fundamental flaw in those arguments. When
    not enough transparency and risk aggregation, and          funding markets lock up, banks can get stuck
    too much tolerance for concentrations.                     holding a large pipeline of the loans they planned
•		 Risk concentrations in commercial real estate.             to sell, and the weak underwriting can translate
    The OCC and the banks we supervise did a                   into huge writedowns and losses. That is what
    tremendous amount to anticipate and address                happened in the leveraged loan market, and it is
    potential issues before they turned into problems,         also what happened to a number of banks with
    and we have been especially proactive in squarely          large mortgage warehouses.
    addressing these problems as they have emerged.               So the painful lesson learned is that banks need
    But I have been troubled in looking at the banks           to underwrite loans for sale as they would for loans
    that have failed thus far—both national and state          held in portfolio, and we need to hold banks to that
    banks—by some toxic combinations of real                   standard or something very close to it. That is easy
    estate concentrations, rapid growth, extremely             enough to say now, when the loan sale market is
    high levels of brokered deposits, and out-of-area          closed, but it will be much harder to put in practice
    lending. In the future, I think we will need to do         when the market reopens and banks start making the
    more to check these combinations before they               same arguments once again. Holding the line will
    cause unmanageable problems. And let me add                clearly be one of our challenges for the future.


December 2008	                                                                                Comptroller’s Viewpoint     3
       And now let me turn to my final observation              they make loans, as they should, and sometimes
    about the recent credit turmoil, which is this: it is a     they fail because the risks prove larger than they
    long way from over. The administration’s plan to            reasonably anticipated; or the local economy suffers
    invest capital in, and guarantee the debt to, financial     severe stress, devastating businesses to which the
    institutions has helped stabilize the market. But           banks lend; or extraordinary events like the ones we
    as we approach the end of 2008, the economy has             have seen in the last year put strains on banks that
    plainly weakened. At least in the near term, all            just could not be reasonably anticipated.
    of this is likely to mean more credit losses; more             When banks like these suffer large losses,
    provisions to loan loss reserves; squeezed profits;         examiners have to make hard judgments about
    strains on capital; and, in some cases, more bank           viability. Should the bank be closed immediately
    failures.                                                   with a certain loss to the deposit insurance fund? Or
       Facing all of this, I think it is critical that the      does it have a reasonable prospect of raising capital
    OCC continues to strive for the kind of balanced            or being sold, preventing any loss to the fund? The
    professional judgment that we have shown thus far.          latter option, of course, may take a little time to
    We have to be careful to be forthright in addressing        find out. Sometimes that time produces a positive
    problems as we see them and leaning on bank                 result that avoids failure and loss altogether, and
    management to do exactly the same. But we have              sometimes it does not. But even when it does not, it
    to be equally careful not to overreact and make             is not at all clear that the ultimate loss to the fund is
    problems worse by acting too precipitously or being         greater than it would have been had the bank been
    more stringent than necessary.                              closed earlier. In fact, that should not be the case if
       It is also important that in our focus on credit and     the bank is tightly regulated during the process to
    liquidity issues we not lose sight of our compliance        avoid excessive risk-taking, which is exactly what
    and consumer protection responsibilities. We know           we do with a bank in these circumstances.
    that compliance lapses can do significant damage               The bottom line is this: bank closing is an
    to a bank’s reputation—the kind of damage that              art, not a science. Sometimes it is better to do it
    can take years to repair and that diverts time and          fast, and sometimes it is much better to take the
    attention away from the business of running the             time, in controlled circumstances, to try to find
    bank. I have asked our examiners to see to it that in       a solution that avoids loss to the fund. Our most
    dealing with the industry’s safety and soundness,           seasoned examiners make these kinds of viability
    we do not allow significant compliance problems to          determinations, working closely with the Federal
    develop in their place.                                     Deposit Insurance Corporation (FDIC), and we
       As we attempt to strike that balance in our              think this is by far the best approach to least-cost
    supervision, it is all but certain that we will see         resolution.
    more national bank failures, and some will ask if              I am proud of the hard work and dedication
    we should not have done more to prevent one bank            OCC staff has shown in meeting the extraordinary
    failure or another, or if we should have moved              challenges of the last year. One of my great
    sooner to close a troubled bank. These are important        comforts in serving as Comptroller is knowing
    questions. But it is just wrong to argue that any bank      that I can rely on such a strong corps of talented,
    that fails and costs the deposit insurance fund money       dedicated people who are doing all they can to help
    could have been closed sooner at less cost. It is also      ensure the safety and soundness of our national
    wrong to suggest that any bank that fails means that        banks. The national banking system is the backbone
    supervisors did not do their jobs.                          of a strong U.S. economy, and we at the OCC will
       While either assertion could be true with respect        continue to work hard to ensure that it remains safe
    to a specific bank, it is just as possible—and frankly,     and sound, and capable of supporting American
    more likely—that neither is true with respect to a          consumers and businesses.
    particular failure. The fact is, banks take risks when




4                                                   Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
Introduction

A
          gainst the backdrop of one of the most         might pose to the national banking system, and
          tumultuous years in U.S. financial history,    deploying supervisory resources accordingly. Risk-
          the OCC’s Fiscal Year 2008 Annual Report       based supervision proved especially important given
highlights how the OCC performs its primary              the increased number of at-risk institutions in fiscal
mission of examining, supervising, and chartering        year 2008.
national banks. In times like these, the agency is           Despite the heavy focus on direct examination
especially sensitive to how financial institutions       and supervision, the fiscal year saw a large number
touch the lives of the individual Americans who,         of policy initiatives. The OCC continues to work
as employees, shareholders, and customers, have          with legislators and regulators to promote regulatory
a direct stake in their safety and soundness. The        efficiency and enhance consumer protection, fair
OCC’s ultimate responsibility goes beyond the            lending, and equal access to credit. Recognizing
banks we supervise to the broader public interest we     the importance of these aspects of supervision and
serve.                                                   the danger that market events might overshadow
   Processes and people are central to the               these issues, Comptroller Dugan cautioned that
accomplishment of the OCC’s mission. The OCC             “market disruption could so dominate the attention
routinely provides professional and independent          of bankers and regulators that we lose focus on other
bank supervision, and our people are widely              still-important priorities. We simply cannot allow
recognized as exceptionally competent at what            that to happen.”
they do. We provide advanced training for                    Responding to the challenges of the economy
examiners; integrate new technologies into bank          requires dedicated people with the right skills,
supervision; develop sophisticated risk models to        motivation, and experience. This annual report
inform supervisory strategy and practice; place          spotlights OCC team members who represent
resident examining teams in our largest, most            some of the many diverse professions that must
complex institutions; maintain separate supervisory      be integrated properly for the OCC to succeed—
approaches for midsize and community banks; offer        examiners working in national banks and in policy
an appellate process for national bankers; ensure that   positions; attorneys who help write, interpret, and
examiners have specialized expertise in such areas       enforce laws and regulations; economists who
as compliance, bank technology, capital markets,         provide data and analytical tools; management
mortgage banking, and operational risk; and provide      specialists who ensure efficient use of our human
national bank customers a state-of-the-art means of      and material resources; information technology
resolving complaints.                                    experts; community affairs officers; and many
   The OCC’s risk-based approach to supervision          others, who, together, bring diverse perspectives to
provides a framework for identifying banks with          the OCC. This range of expertise, developed over
elevated risk, assessing the risk those institutions     145 years, enables us to maintain high standards for
                                                         bank supervision in good times and bad.




December 2008                                                                                     Introduction    5
6   Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
    Section One State of the National Banking System

OCC Supervisory Efforts in Face of 2008 Market Turmoil


B
         efore before the damage spread throughout                 declining house prices and severe problems with
         the U.S. financial system, OCC examiners                  subprime mortgages,” he told the Senate Banking
         were focused on the emerging fault lines                  Committee. The other was the slowdown in the
in the credit markets. In 2005, for example, at a                  economy, which had begun to affect credit quality
time when bank profitability was strong and house                  adversely for a number of asset classes.
prices were still appreciating, the agency instructed                 “The combination of these forces has strained
examiners to address the risk of loan products with                the resources of many of the national banks we
the potential for payment shock, such as hybrid                    regulate,” Mr. Dugan said at that hearing on
mortgages that start with low monthly payments                     March 4, 2008.
followed by payments that are much higher.                            While the national banking system remains
Although national banks largely avoided subprime                   fundamentally sound, the effects of these complex
lending, nonbank lenders made large numbers of                     market dislocations are still working through
these loans, and the consequences eventually spilled               the financial system. At the height of the market
over into the broader credit markets.                              turmoil, banks showed increasing reluctance to lend
   By 2008, as Comptroller Dugan noted in                          to each other out of concern over credit quality and
congressional testimony, the national banking                      a desire to maintain liquidity in the face of market
system was being tested by two powerful and                        uncertainty. The contraction of market liquidity
related forces that were exerting pressure on banks                required some large national banks to fund and hold
of all sizes in many parts of the country. “One is                 additional assets on their balance sheets. The rapid
the large and unprecedented series of credit market                deterioration in credit quality of subprime mortgages
disruptions, still unfolding, that was precipitated by             led to substantial write-downs in certain structured
                                                                   investment products.


                Figure 3: Assets, Total Loans, and Equity from 1972 to 2008
                           National Banks
                                                                                                            $ Billions
                                                                                                                 8,000
                                                                                                                 7,000
                                                                                      Assets
                                                                                                                 6,000
                                                                                                                 5,000
                                                                                                                 4,000
                                                                                       Loans
                                                                                                                 3,000
                                                                                                                 2,000
                                                                                       Equity                    1,000
                                                                                                                    0
              72 74 76 78 80 82 84 86 88 90 92 94 96 98 00 02 04 06 08

             Source: Integrated Banking Information System (OCC)          Note: 2008 data as of June 30, 2008.
                                                                                All other data as of year-end.




December 2008                                                                                                              7
       The downturn in housing and the broader                                     in loans tied to the real estate sector, however, was
    economy affected national banks’ loan portfolios                               more pronounced. Losses from housing loans rose to
    adversely, increasing the level of nonperforming and                           new highs, and losses on other retail credits were up
    past due loans. Noncurrent loans—the percentage of                             sharply. Credit stress was complicated by elevated
    bank loans that are 90 days or more past due and on                            liquidity risk and, in the latter part of the year,
    nonaccrual—rose to 1.80 percent at the end of June                             by heightened concern about the safety of retail
    2008, up from 0.86 percent a year earlier, as Figure                           deposits in the wake of publicized bank failures. All
    3 shows, and then rose again, to 2.19 at the end                               of these events were reflected in lower earnings for
    of September 2008. Even at that level, noncurrent                              the national banking industry.
    loans were low by historic standards. Deterioration

                                Figure 4: Noncurrent Loans from 1984 to 2008
                                                 National Banks
                                                                                                             Noncurrent loans
                                                                                                         Percent of total loans
                                                                                                                                4.5
                                                                                                                                4.0
                                                                                                                                3.5
                                                                                                                                3.0
                                                                                                                                2.5
                                                                                                                                2.0
                                                                                                                                1.5
                                                                                                                                1.0
                                                                                                                                0.5
                                                                                                                                0.0
                               1984           1988           1992           1996           2000           2004           2008
                                Source: OCC call reports; annual data for 1984-2007 and data for 2008 are for return average




       National bank net income in 2008 declined                                   profitability, was 3.5 percent in the second quarter
    to one-third of its level a year earlier. National                             of 2008 versus 12.8 percent a year earlier. As Figure
    banks recorded income of $6.9 billion in 2008’s                                5 shows, 2008 return on equity year-to-date is
    second quarter, down from $21.5 billion a year                                 averaging 4.4 percent, substantially below the level
    earlier. Return on equity, a key measure of bank                               seen before the market turmoil began.

                                Figure 5: Return on Equity from 1984-2008
                                                 National Banks
                                                                                                               Return on Equity
                                                                                                                        Percent
                                                                                                                            18
                                                                                                                                16
                                                                                                                                14
                                                                                                                                12
                                                                                                                                10
                                                                                                                                8
                                                                                                                                6
                                                                                                                                4
                                                                                                                                2
                                                                                                                                0
                              1984           1988           1992           1996            2000           2004           2008 -2
                              Source: OCC call reports; annual data for 1984-2007 and data for 2008 are for return average




8                                                                                                                                Fiscal Year 2008 Annual Report
   Over the last year, weak noninterest income                                           profit margins, while the margins of smaller banks
and higher provisions were the main drags on                                             deteriorated. Despite poor earnings, banks were able
earnings. Large banks benefited from improved                                            to increase capital and reserves over 2007 levels.


                        Figure 6: Loss Provisions to Charge-Offs
                                            National Banks
                                                                                                                                              Percent

                                                                230.99                                                                                250


                                                                                                                               185.20                 200


                                                                                                                                                      150


                                                                                                                                                      100


                                                                                                                                                      50


                                                                                                                                                       0
                     72 74 76 78 80 82 84 86 88 90 92 94 96 98 00 02 04 06 08
                     Source:    Integrated
                     Source: Integrated BankingBanking
                                                Information Information
                                                             System (OCC) System
                                                                              Note:(OCC)
                                                                                    2008 data as of June 30, 2008.   All other data as of year-end.

                     Note: 2008 data as of June 30, 2008. All other data as of year-end.




   National banks were generally able to absorb the                                         National banks, especially larger ones, benefited
financial shocks for a number of reasons. The first,                                     from diversified lines of business and funding
and most important, is that banks, having entered                                        sources. For example, although fees from loan sales,
this period in overall good health, had the earnings                                     securitizations, and trading were adversely affected
and capital to weather market downturns. Capital                                         by the downturn in housing, other fee income
levels well in excess of regulatory minimums gave                                        sources remained. Indeed, throughout the year, the
banks the flexibility to absorb sizable quantities                                       national banking system has generally been a source
of assets on their balance sheets when liquidity in                                      of strength for the financial sector, providing credit
the credit and capital markets became constrained.                                       and liquidity to both the retail and commercial
Throughout the year, banks took steps to further                                         sectors, and absorbing companies and product lines
strengthen their balance sheets by increasing loan                                       that faltered or failed under the strains of market
loss reserves, reducing dividends, and issuing                                           dislocation.
capital in both public and private offerings. Their                                         While the vast majority of national banks have
ability to raise capital reflected investors’ belief                                     had the financial capacity and management skills
in the underlying long-term viability of these                                           to weather the challenges of the past year, a few
franchises. Nonetheless, should credit performance                                       have not. In these cases, the OCC’s goal has been
worsen, additional loan loss reserves and capital                                        to effect early and least cost resolution of the bank
may be required.                                                                         so as to minimize losses to depositors and the FDIC
                                                                                         insurance fund. During fiscal year 2008, the OCC
                                                                                         appointed the FDIC as receiver in five bank failures.




December 2008                                                                                     Section One State of the National Banking System          9
10   Fiscal Year 2008 Annual Report
    Section Two State of OCC Supervision
           Bank Supervision in a Time of Challenge                      .  .  .  .  .  .  .  .  .  .  .  .  . 11
                Community Bank Supervision: Assistant Deputy Comptrollers
                Mobilize OCC Resources To Protect Safety and Soundness                                      12
                Large Bank Supervision: Examiners-in-Charge of the Most 

                Complex Financial Institutions
                                                             13
                The OCC Responds to Rising Tide of Mortgage Foreclosures                                    16
                OCC Supervises Surge in International Activities by National Banks                          20
                Functional Specialists Bring Technical Expertise to Bank Supervision                        22
                Economic and Financial Analysis Supports the OCC’s Work                                     23
                New Mortgage Metrics Report Increases Visibility of Mortgage Loan Data                      24
                Risk Analysis Unit Bolsters OCC Supervision                                                 25
                Compliance Policy Helps Banks and Examiners Stay
                on Top of Changing Regulations                                                              26
                Fair Lending, Fair Treatment, and Fair Access Are Key Priorities                            26
                Attorney Provides Counsel, Expertise to the Supervisory Team                                27
                OCC Presses Other Regulators for a Unified and Simpler Complaint Process                    28
                OCC Steps Up Efforts To Support Minority Banks                                              29
                OCC Improves the National Bank Chartering Process                                           30



Bank Supervision in a Time of Challenge
Weathering the Downturn


T
        he volatility of the financial markets and       originated less than 10 percent of all subprime
        the unprecedented nature of the events that      loans in 2006, the peak year for such lending, and
        shaped the environment for banks in 2008         those they did originate were generally of higher
posed challenges for the OCC. The OCC anticipated        quality than those originated elsewhere.
many of the problems the industry faced before they
                                                       • Rigorous horizontal reviews of bank loan
occurred—and dealt with them once they arrived.
                                                         portfolios across the country, starting in 2004, to
   The OCC sounded early public warnings in
                                                         better assess the performance of CRE, a lending
guidance and ongoing supervision about risk
                                                         area in which many community banks were
layering, payment shock, and declining underwriting
                                                         developing concentrations. The OCC pushed for
standards for nontraditional mortgages and home
                                                         the CRE guidance that was issued in 2006 over
equity lending. Many of the steps the agency took
                                                         industry opposition. The guidance described
responded directly to early feedback from the
                                                         expectations for heightened risk management
agency’s field staff, including:
                                                         practices for institutions with concentrations in
• Higher supervisory standards for subprime              CRE loans.
  mortgage underwriting. As a result, national banks
                                                                                              continued on page 14


December 2008                                                                                                        11
     Community Bank Supervision: Assistant Deputy Comptrollers
     Mobilize OCC Resources To Protect Safety and Soundness

     C
             ommunity banks play a vital role in the economic            Assistant Deputy Comptrollers, who manage
             health of America’s towns and cities, and the bulk      the OCC’s field offices and are responsible for the
             of the OCC’s supervisory resources are devoted          supervision of a portfolio of community banks, play
     to those banks.                                                 a key role in assuring that cooperation between
         Some 1,400 examiners work full-time on community            local examination teams, OCC District offices, and
     bank supervision. They represent 68 percent of the              headquarters staff proceeds smoothly.
     agency’s 2,000-plus person exam force. Their work                   With more than 29 years at the OCC, James
     is coordinated through a national network of 49 field           Calhoun, an Assistant Deputy Comptroller (ADC) based
     offices and 24 satellite offices that are located in almost     in Pittsburgh, understands the importance of close
     every state in the country, overseen by four district           working relationships among supervisory personnel,
     offices in New York, Dallas, Chicago, and Denver.               especially in challenging economic times. With
     By contrast, the OCC’s large and midsize banks are              experience as an analyst in Special Supervision and
     supervised by teams of resident examiners assigned              an EIC of problem banks, Calhoun has the perspective
     full-time to individual banks.                                  of a veteran who has been through several turns of
         For community bank examiners especially, teamwork           the economic cycle. He also knows that the iron test
     is crucial. While each member of the examination team           of an examiner’s skill is communicating his or her
     focuses on his or her area of assigned responsibility—          findings in a constructive way to the banker. “From
     such as capital, asset quality, or compliance—                  the bankers’ standpoint, it’s all about ensuring clarity,”
     examiners are also keeping an eye on the bigger                 Calhoun explains. “The best way I have found to do
     picture, assessing the institution’s overall safety and         that is to take an issue and frame it in terms of how it
     soundness. When a bank’s ability to remain solvent is           might affect their bank’s profitability, stakeholders, and
     called into question, experts in the Special Supervision        reputation.”
     Division in Washington are there to develop and                     In challenging economic times, the need for “open,
     implement rehabilitation or resolution strategies.              honest, and frequent” supervisory communication is
         The weakening economy led to a rising number                greater than ever, noted Omaha ADC Troy Thornton, a
     of problem banks among the community bank                       23-year OCC veteran. In 2008, Thornton increased the
     population in 2008, mostly related to the deterioration         frequency of his meetings with bank boards and made
     of commercial real estate markets. The OCC’s response           sure that banks in his portfolio were kept well informed
     was rapid and systematic. Community banks were                  of supervisory expectations through quarterly letters
     divided into three tiers, with the first tier comprising        and periodic outreach meetings. For banks under stress,
     banks with the greatest degree of risk. Examinations            supervisory action taken in a timely manner can make a
     of CRE risk at Tier I banks began immediately;                  big difference.
     examination of Tier II banks was underway at year’s                 “Among the things I look for during exams are
     end, with progressively fewer problems uncovered                behaviors that, if they continue, can lead to problems,”
     as these examinations progressed. To ensure                     says Calhoun. “We want to get the bank’s board of
     consistency among the approximately 1,500 examiners             directors to understand that these behaviors can pose
     who were involved in this effort, the OCC convened              more risk unless they are changed or appropriately
     two conference calls, the first in April and the second in      managed. Real-life examples or ‘war stories’ are a highly
     October, and provided written guidance on                       effective way to illustrate possibly adverse outcomes.”
     relevant topics.                                                    Calhoun adds that while examiners have to respect
                                                                     the authority of bank managers, there is also a time to
     Vital Facts                                                     be direct. “Bankers and regulators are a team with the
       Community National Banks 1,502                                best interest of the bank and its customers in mind,”
                                                                     Calhoun explains, “and it becomes even more important
         National Bank Examiners 1, 414
         Dedicated to Community                                      in today’s time that we act as a team. You have to
                Bank Supervision
                                                                     be open to questions and expect pushback, but if
          Examination Frequency No less than each                    management is not performing satisfactorily, you need
                                18 months
                                                                     to make that clear to the board as soon as you can.
             OCC Field Locations 77                                  That’s what we get paid to do, to make that call.”



12                                                      Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
  Large Bank Supervision: Examiners-in-Charge of the
  Most Complex Financial Institutions

  T
         he banks supervised by the OCC include some             North Carolina. Another crucial function is accurately
         of the largest and most sophisticated financial         assessing and communicating the risk in the assigned
         institutions in the world—institutions with trillions   bank while securing remedial action, should it be
  of dollars of assets. They offer a wide array of financial     necessary, from bank management, he says.
  services, engage in millions of transactions every day,            Being an EIC requires a high degree of flexibility.
  and play an enormously important role in the national          Supervisory strategies must sometimes be adjusted on
  and global economy.                                            the fly to reflect an institution’s changing risk profile. “A
      To supervise institutions that operate on this scale,      strong Examiner-in-Charge must be very cognizant of the
  the OCC deploys teams of resident examiners who work           external environment and the impact that market events
  full-time, year-round at each of the banks in the Large        and the ‘Street’ can have on the condition and perception
  Bank program. More than 450 examiners are deployed             of the financial institution that the OCC supervises,” says
  at the 17 largest banking companies in the program.            Scott Wilson.
      This approach allows examiners to acquire a                    And the OCC requires that EICs be prepared to move
  close understanding of the bank’s risk-taking and              on after five years at the same institution. “This ‘term
  risk management. With that knowledge, the OCC can              limit’ ensures that we do not get ‘too close’ to the bank,”
  identify the most significant risks and then determine         explains Wilson. “It also allows a fresh set of eyes to
  whether a bank has the systems and controls it needs           supervise an institution after a certain period of time.”
  to measure, monitor, and control those risks. The                  Even in less tumultuous economic times, the EIC’s life
  OCC performs appropriate validation of banks’ risk             is varied and fluid. Greenway says that “because I work
  management through transaction testing. Concerns are           in a mega-bank that is active in many markets and always
  then communicated directly to senior management,               exploring new products, every day is unpredictable.”
  making it possible for corrective action to be achieved            Scherer may find herself meeting with the chief
  in a timely and effective manner.                              executive officer or other executive-level bank managers
      The foundation of the OCC’s Large Bank                     to stay abreast of key issues surrounding the company;
  supervision is the EIC, who, in close collaboration            meeting with her staff to share supervisory insights;
  with headquarters in Washington, is responsible for            reviewing, editing, or preparing written supervisory
  developing the supervisory strategy for the institution        correspondence to bank management; and attending
  and implementing that strategy on site.                        briefings related to her institution.
      Kim Scherer, the EIC at UnionBanCal Corporation                Having a permanent presence makes a huge difference
  in San Francisco, sees herself as having dual roles:           for both the examiners and the banks. “We are in the
  as the person with ultimate responsibility for the             bank on a daily basis to assess the condition of the bank
  bank’s supervision and as the manager of the OCC               and communicate with the bank through informal and
  on-site staff at the bank. “While most of my staff of          formal channels,” Wilson says. “This allows us to share
  15 does the supervisory work and examination activity          knowledge and perspective across large banks and the
  relevant to Union Bank, it is my job to put it into overall    OCC, and with other regulators and bankers.”
  perspective and view risk ‘from the top of the house.’ ”           “This is a job in which we never stop learning,”
      Scott J. Wilson, an EIC at Capital One Financial           Greenway notes. “If the OCC is to remain a highly
  Corporation in McLean, Virginia, agrees: “You are both         respected financial institutions’ regulator, we must all
  a national bank examiner responsible for the safety and        pass what we learn on to those who follow us.”
  soundness of a large financial institution and a manager
  trying to ensure that you have a professional and well-
  motivated workforce that feels empowered to do its job.                       Vital Facts
  I think it is critical that the Examiner-in-Charge have                          Large Banking Companies 17
  strong communication skills and the ability to build                                         Asset Range $49 billion to
  relationships with people.”                                                                              $1,900 billion
      Investing in the growth and development of the                                National Bank Examiners 467
  staff is a critical function of the job, according to Tim                               Dedicated to Large
                                                                                           Bank Supervision
  Greenway, the EIC at Bank of America in Charlotte,
                                                                                      Examination Frequency Continuous




December 2008                                                                       Section Two State of OCC Supervision         13
     •		 Identifying and flagging, through targeted                     recognizing delinquent loans and losses, that they
         examinations and examiner surveys, the trend of                built loan loss reserves and raised capital when
         declining underwriting standards and the difficulty            necessary, and that they took tangible actions to
         increasingly encountered by large national banks               improve risk management.
         in selling some corporate loans to investors.                      While large banks struggled with the fallout
     •		 Development of a new mortgage metrics database.                from the precipitous decline in the housing market,
         An unprecedented effort accomplished in record                 many community institutions were challenged by
         time, the quarterly OCC Mortgage Metrics report                concentrations in commercial real estate. OCC
         provides the best available information on over 60             examiners worked with national banks to manage
         percent of the mortgages serviced in the United                those risks.
         States. As Comptroller Dugan notes, “We now                        In the 17 largest national banking companies,
         know a lot more than we once did about trends in               where the OCC maintains a continuous presence
         delinquency, modification, and foreclosure with                through staffs of resident examiners (see “Large
         respect to prime, subprime, and Alt-A mortgages,               Bank Supervision: Examiners-in-Charge of the
         and we’ve begun to use that data in a variety of               Most Complex Financial Institutions”on page
         ways to support our supervision.” In addition, the             13), particular attention was paid to the banks
         OCC has begun to develop similar metrics for                   most affected by the mortgage market disruption.
         home equity loans and is                                                                    Examiners monitored
         planning to do the same          Figure 7: Banking Assets by Regulator                      capital, liquidity, and
         with credit card lending                         in fiscal year 2008                        contingency plans for
         and syndicated loans.                                      FRB                              these national banks, and
                                                                    $1.8 trillion                    carefully assessed risks
     • Tracking Shared National                                     13%
                                                                                                     to capital and liquidity
         Credits (SNC), large 
                                                     FDIC
                                                                                    $2.2 trillion    from off-balance-sheet
         syndicated loans held by 
                                                 16%              vehicles and commitments.
         multiple banks. While 

                                                                                                     One focus was bank
         participating in the review 

                                                                                                     programs that continued to
         of more than 8,000 

                                                                                                     purchase assets originated
         credit facilities, with 

                                                                                                     by other firms. Another
         commitments totaling 
                                                        OTS
                                                                                       $1.2 trillion focus was bank portfolios
         $2.8 trillion, the OCC 
                                                      9%            that were vulnerable to
         contributed to a project to 
 OCC

                                                                                                     further downgrades in the
         modernize the collection      $8.3 trillion

                                       62%

                                                                                                     ratings of bond insurers
         and analysis of SNC 

                                                                                                     or to deterioration in the
         data and to improve the 
      Source: OCC data.
                                                                                                     condition of significant
         program’s efficiency and
                                                                                                     borrowers. Examiners
         effectiveness.
                                                                        determined whether the susceptible banks needed
         Internally, the OCC’s market disruption                        to improve liquidity and raise capital, and they
     procedures shifted into high gear in 2008,                         evaluated management plans to achieve those goals.
     producing timely and critical information from                     Examiners closely monitored banks’ exposures to
     institutions all over the country. Some of the market              significant counterparties in derivatives markets.
     problems were new and complex—like those                               Special attention was paid to contingency funding
     raised by collateralized debt obligations, structured              plans of banks weakened by the market disruptions.
     investment vehicles, and asset-backed commercial                   Were plans current and based on realistic balance
     paper conduits—and the agency’s specialists,                       sheet and market behaviors? Did they take into
     economists, and policy experts have dissected                      account any off-balance-sheet funding challenges?
     them for use in adjusting regulatory guidance and                  Examiners made sure that each plan’s projections
     supervisory strategies.                                            considered worst-case scenarios, such as a bank
         Perhaps most important, OCC examiners took                     undergoing a serious liquidity problem or its bonds
     steps to ensure that banks were more realistic about               being downgraded below investment grade. Banks

14                                                                                                 Fiscal Year 2008 Annual Report
that relied heavily on securitization received extra                    examiner’s assessment of management’s ability to
scrutiny. In one sign of strength, large national                       manage the bank’s CRE exposures in the current
banks raised approximately $125 billion in new                          environment. This information was reviewed and
capital in fiscal year 2008.                                            discussed with OCC management to identify those
   In community banks, which the OCC supervises                         banks believed to have the highest potential risk, and
through offices located across the country (see                         to ensure the appropriateness of planned supervisory
“Community Bank Supervision: Assistant Deputy                           activities. Asset quality reviews targeting these
Comptrollers Mobilize OCC Resources to Protect                          banks’ CRE portfolios are under way. These reviews
Safety and Soundness” on page 12), OCC examiners                        enable the OCC to more accurately quantify the
focused on making sure that those institutions had                      level of risk in national banks, and determine how
risk management systems equal to their risk profiles                    well it is being managed. This assessment is critical
and that they had the expertise and the resources to                    to determining what, if any, remedial action is
manage the risks involved in their business lines.                      appropriate for each bank.
   Rising concentrations of commercial real estate
loans have long been a subject of OCC supervisory                       Other Areas of Concern
concern. As Figure 8 shows, CRE loans at midsize                           Leveraged loans. Leveraged loans, whose
and community national banks have doubled                               borrowers have high levels of debt compared with
over the past 10 years, to 200 percent of capital                       equity, were the subject of targeted examinations
overall; at some national banks, the increase was                       in our largest syndication banks. Dislocations that
several times that. About one in four community                         occurred in the credit markets during the fiscal year
banks under OCC supervision have CRE-related                            delayed completion of long-term financing for some
concentrations exceeding one or both of the                             leveraged loans that banks had originated with the
thresholds defined by the interagency guidance                          intent to sell (that is, to syndicate) to investors. As
issued in December 2006. These concentrations                           a result, a number of large national banks retained a
presented considerable risk, particularly in                            higher-than-usual volume of leveraged loans on their
geographic areas that have experienced exceptional                      balance sheets.
volatility in home prices.                                                 In fiscal year 2008, the OCC’s Large Bank
   Beginning late in 2007, for each community                           Supervision Department conducted leveraged
bank that exceeded one or both of those thresholds,                     lending targeted reviews at the largest syndication
OCC district examination staff prepared summary                         banks, with a focus on syndicated pipeline
information that identified the bank’s exposures,                       management, stress testing, and limit setting. The
recent and current supervisory activities, and the                      OCC issued the “Leveraged Lending” booklet in


                Figure 8: Commercial Real Estate Concentration History

                225%
                                    Community Banks
                200%
                                    Midsize Banks
                175%
                                    Large Banks
                150%

                125%
                                    95.6%
                100%
                                    85.6%
                75%
                                    77.0%
                50%
                        4Q91 4Q92 4Q93 4Q94 4Q95 4Q96 4Q97 4Q98 4Q99 4Q00 4Q01 4Q02 4Q03 4Q04 4Q05 4Q06 4Q07 4Q08 4Q09

                 Source: OCC call reports




December 2008                                                                               Section Two State of OCC Supervision   15
       OCC Responds to Rising Tide                                                                                         

       of Mortgage Foreclosures
            Perhaps no single issue defined the nation’s             to reduce the mortgage amount to a level the borrower
        domestic agenda in fiscal year 2008 more than the            could afford and could offer to refinance the original
        dramatic increase in mortgage foreclosures. About 1.3        loan into a new Federal Housing Administration-insured
        million foreclosures were initiated in 2007, more than       mortgage. Accepting the loss under this voluntary
        twice the average rate for the first half of the decade.     arrangement could be less costly to mortgage holders
            The effect of foreclosures extends beyond the            than foreclosures. Homeowners would remain in
        individual homeowner to the neighborhood in which            their homes, and the potential risk to the government
        the foreclosure occurs. “Foreclosed properties are           of guaranteeing the refinanced mortgages would be
        not just empty houses,” Comptroller Dugan told the           more acceptable than “the prospect of widespread
        National Association of Affordable Lenders in February.      foreclosures and all their related costs,” Comptroller
        “The absence of homeowners—and the gloomy sight              Dugan said. The proposed program was incorporated
        of abandoned, deteriorating properties—can depress           into the Housing and Economic Recovery Act of 2008
        entire communities.”                                         passed on July 30.
            To help deal with the foreclosure crisis, the OCC           Because the threat of foreclosure has extended
        joined with other federal regulators, as well as with        well beyond the low-income neighborhoods where
        lenders, elected officials, and nonprofit organizations,     subprime mortgages have been predominant and into
        in promoting a wide range of programs designed               more affluent neighborhoods, Comptroller Dugan told
        to stabilize communities and allow homeowners to             the Association of Affordable Lenders in February
        remain in their homes.                                       that proposed changes to 12 CFR 24 (public welfare
            In testimony before the U.S. House of                    investment authority) would restore its original scope
        Representatives’ Committee on Financial Services             to cover “not just low- and moderate-income areas, but
        in April, Comptroller Dugan said that the proposed           also middle-income areas in need of reinvestment and
        Federal Housing Administration Housing and                   revitalization.” Those changes were also included in the
        Stabilization and Homeownership Retention Act of             Housing and Economic Recovery Act.
        2008 would provide borrowers and lenders with an                Turning policy into action, the OCC issued a
        alternative to the costly process of foreclosure. “By        consumer advisory about scams that purport to
        keeping more borrowers in their homes,” Comptroller          “rescue” homeowners from foreclosure but lead
        Dugan said, “the widespread use of such a program            instead to those homeowners potentially losing their
        would also help prevent further reductions in the prices     homes or the equity in their home. In addition, the OCC
        of houses financed by national banks.” Use of such a         appointed a Community Affairs Officer specializing
        program, he pointed out, would more generally make           in community stabilization to meet with bankers,
        the mortgages less risky by mitigating the downward          community-based organizations, and public officials
        pressure on house prices caused by the foreclosures          across the country to find solutions to the problems
        that would be avoided.                                       communities face because of increased levels of home
            Under the program, titled “Hope for Homeowners,”         mortgage defaults and foreclosures.
        if a borrower met certain criteria, lenders could agree


     the Comptroller’s Handbook, which consolidates                 became increasingly leveraged and the percentage of
     and supplements existing guidance to bankers and               past due home equity loans increased.
     examiners on the risks associated with leveraged                  Examiners made sure that banks with
     lending and the risk management systems and                    concentrations of home equity loans managed their
     controls needed to mitigate those risks.                       risks appropriately; some banks had to increase loss
        Home equity loans. Aggregate outstanding lines              reserves, write down loans, or raise capital.
     of home equity loans at national banks have doubled               Maintaining adequate liquidity, loan loss
     since 2002. National banks account for about $500              reserves, and capital. Prompt recognition of losses
     billion, or roughly half, of the market for home               and maintenance of strong loan loss reserves and
     equity loans. As housing prices fell, borrowers                capital are critical during periods of economic stress.


16                                                      Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
Ensuring that national banks maintain adequate loan        merger, or liquidation of the bank, consistent with
loss reserves and capital was a point of emphasis          the least-cost resolution provisions of the Federal
during fiscal year 2008 bank examinations.                 Deposit Insurance Corporation Improvement Act of
Similarly, the OCC continued to evaluate the               1991. As previously noted, during fiscal year 2008,
adequacy of banks’ liquidity positions and liquidity       the OCC appointed the FDIC as receiver of five
risk management processes, especially at institutions      failed national banks.
with significant concentrations in the loan or                In the current economic environment, the number
liability portfolios.                                      of problem banks has increased and the resolution of
   In light of market and economic conditions,             problem banks has become more challenging. One
national banks made substantial increases to their         serious challenge is that, as the number of banks
loan loss reserves during 2008. They bolstered             requiring capital has grown, the interest in acquiring
capital levels by reducing dividends and raising           these institutions has softened. Some problem banks
more than $100 billion in new capital from outside         have asset quality problems of a depth and nature
investors. So, despite the substantial increase in total   that makes them unattractive to potential purchasers.
assets, in part the result of loans coming back on         Many problem banks are heavily dependent on non-
the books of banks, capital ratios remained near the       core funding, yet once their asset quality and capital
levels of a year ago, and 99 percent of all national       deteriorate, they are restricted by regulation in the
banks met or exceeded the “well-capitalized”               rates they may offer on those deposits.
regulatory capital requirement.
                                                           Improving Risk Management
Problem Banks                                                 The OCC was an active participant on the
   The goal of OCC supervision is to identify and          President’s Working Group on Financial Markets,
correct potential problems at an early stage, before       the Senior Supervisors Group, and the Financial
they adversely affect the safety and soundness of          Stability Forum, providing insight and information
the banking system or the viability of any individual      that helped shape the recommendations that came
bank. For example, we include provisions in certain        from those high-level organizations on enhancing
enforcement actions that require the bank to develop       banks’ risk management practices. In broad terms,
and implement a plan to sell, merge, or liquidate, if      these recommendations called on banks to:
required minimum capital levels cannot be achieved.
                                                           • Ensure the independence of their risk management
These provisions have resulted in banks seeking
                                                             functions.
buyers or merger partners at an earlier stage, before
their problems have eroded capital to the point            • Better manage the pipeline risk associated with
where the bank is no longer attractive to potential          originate-to-distribute lending and securitization.
purchasers. In addition to avoiding a bank failure,        • Rely more on due diligence and less on credit
these options do not adversely affect depositors             ratings when investing in complex structured
and customers and return some value to the bank’s            products.
shareholders. This approach can be especially
successful when the economy is strong, and healthy         • More fully evaluate the reputation and residual
financial institutions are looking for growth and            risks arising from the off-balance-sheet ownership
acquisition opportunities.                                   of conduits (which some large banks used to
   As a bank reaches the problem stage, the OCC              hold collateralized debt obligations) and asset
focuses its efforts on developing a bank-specific            management businesses.
plan that takes into consideration the ability and         • Enhance transparency, disclosure, and
willingness of management and the board to correct           valuation practices, especially for off-balance-
deficiencies in a timely manner and return the bank          sheet activities.
to a safe and sound condition. The OCC’s efforts,          • Improve stress-testing and capital planning
coupled with the commitment of bank management,              processes. (These processes should incorporate
often result in a successful rehabilitation. Sometimes       off-balance-sheet activities and be appropriately
the situation is such that the OCC requires the sale,        forward-looking.)


December 2008                                                              Section Two State of OCC Supervision     17
        The OCC worked closely with other domestic and                     management frameworks                   Comptroller of the Curren
cy



     international agencies to develop a consistent and                    with their shifting risk
                                                                                                                   Administrator of National Bank
s

                                                                                                                   US Department of the Treasury




     effective response to the turmoil in global financial                 profiles. These institutions
     markets. For example, the agencies are working                        will have the information              Basel II
                                                                                                                  Advanced Risk-Based
     together to address the need for more sophisticated                   systems and transparency to            Capital Standards —
                                                                                                                  Preamble and Final Rule
     liquidity risk management practices and systems                       communicate the different
     to replace those whose simple premise was that                        aspects of that coordination           2007



     loans are funded by deposits. The agencies also are                   to regulators, depositors,
     focused on helping banks improve the identification                   shareholders, and the public.
     and management of off-balance-sheet exposures                         The OCC continues to do
     and risk concentrations and develop metrics for                       all it can to see that as many
     aggregating risks to particular counterparties. The                   national banks as possible fit
     OCC, primarily through its Large Bank Supervision                     this paradigm.
     program, is ensuring that banks’ risk management
     practices incorporate these recommendations.                          Foreclosure Prevention
        The OCC’s efforts have included working with                          The OCC encourages national banks to work
     the Basel Committee on Bank Supervision to issue                      constructively with borrowers who may face
     updated global principles for sound liquidity risk                    difficulties meeting their mortgage obligations. The
     management and supervision. The agency has                            OCC supports various private and public sector
     worked with the Federal Reserve Bank of New                           initiatives and programs that seek to assist these
     York and other key global financial regulators                        borrowers, including those initiated by the American
     to strengthen the operational performance                             Securitization Forum and Hope Now Alliance,
     and infrastructure of the over-the-counter                            as well as activities pursuant to the Housing and
     derivatives market.                                                   Economic Recovery Act of 2008.
        Using lessons learned from the recent turmoil,                        As banks work with borrowers, examiners
     the OCC has recommended strengthening the Basel                       emphasize the need to construct loan modifications
     II capital framework. For example, higher capital                     that give borrowers a reasonable prospect of
     requirements will be proposed for resecuritizations,                  performing under the new terms. Simply shifting
     such as collateralized debt obligations.                              a borrower from one unaffordable mortgage to
        The most successful banks in the future will be                    another serves neither the borrower’s nor the bank’s
     those that can move quickly to coordinate their risk                  interest. Through the OCC’s ongoing supervision
                                                                                          and fair lending processes, the agency
                                                                                          will continue to pursue any evidence
                                                                                          of unfair, deceptive, or unlawful
                                                                                          discriminatory lending practices.

                                                                                            Identity Theft and
                                                                                            Accuracy of Consumer
                                                                                            Reporting Information
                                                                                               The OCC worked closely with the
                                                                                            other federal financial regulators and
                                                                                            the Federal Trade Commission to
                                                                                            implement provisions of the Fair and
                                                                                            Accurate Credit Transaction Act of
                                                                                            2003. The act enhances the ability of
                                                                                            consumers to combat identity theft,
                                                                                            to increase the accuracy of consumer
                                                                                            reports, and to exercise greater control
     At Financial Literacy Day activities on Capitol Hill, Deputy Comptroller Barry Wides
     discusses the OCC’s efforts to educate and support consumers of financial services.    over the type and amount of certain


18                                                           Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
marketing solicitations they receive. The November
2007 rulemakings include:
•		 Final rules on identity theft “red flags.” The new
    rules require each financial institution or creditor
    that holds any consumer account, or other account
    for which there is a reasonably foreseeable risk
    of identity theft, to develop and implement an
    identity theft prevention program for combating
    identity theft in connection with new and existing
    accounts.
•		 Proposed rules and guidelines for ensuring
    the accuracy and integrity of information
    furnished to consumer reporting agencies. The
    proposed rules would specify when an entity
                                                            Working with nonprofit community partners, national banks
    would be required to investigate a consumer’s           bring a range of financial services to previously underserved
    claim that certain consumer report information is       communities.
    inaccurate.
                                                            moderate-income areas, or other areas targeted by
•		 Final rules requiring credit and debit card issuers
                                                            a governmental entity for redevelopment, or if the
    to develop policies and procedures to assess the
                                                            investment would receive Community Reinvestment
    validity of a request for a change of address that is
                                                            Act consideration as a “qualified investment.”
    followed closely by a request for an additional or
                                                            The rule gives national banks new authority to
    replacement card. The agencies issued final rules
                                                            support low- and moderate-income communities,
    requiring users of consumer reports to develop
                                                            communities affected by foreclosures and targeted
    reasonable policies and procedures to apply when
                                                            for revitalization, designated disaster areas, and
    a consumer reporting agency sends them a notice
                                                            underserved rural communities.
    of an address discrepancy.
•		 Final rules that allow consumers to “opt out”           Working with Other Regulators
    before a financial institution uses information            The dynamic and global nature of today’s
    provided by an affiliated company to make certain       financial services industry presents issues that cut
    marketing solicitations about its products and          across regulatory and legal boundaries. Banks,
    services.                                               securities firms, and insurance firms are active
                                                            participants in the credit and capital markets and
Expanded Public Welfare
                                                            are often counterparties to each other’s transactions;
Investment Authority                                        electronic payment systems span the globe; and
    Recognizing the important role that national            national banks have offices and customers in
banks play in the economic vitality of low- and             countries throughout the world.
moderate-income communities, the OCC actively                  The OCC worked with the other federal
sought legislation to expand the industry’s public          banking agencies (Federal Reserve Board, FDIC,
welfare investment authority. In August 2008,               Office of Thrift Supervision, and National Credit
shortly after the Housing and Economic Recovery             Union Administration) to coordinate supervisory
Act of 2008 was passed and signed into law, the             policies, regulations, and regulatory reporting
OCC issued an interim final rule that implements            requirements, and to conduct examiner training
a provision of the law that amended national                on issues that cut across the U.S. banking system.
banks’ authority to make Part 24 public welfare             Together, the agencies responded to emerging risks
investments pursuant to 12 USC 24 (eleventh). The           and issues facing the industry. They coordinated
interim final rule authorizes a national bank and           their examination and supervisory activities for
its subsidiaries to make public welfare investments         institutions that are subject to multiple regulators
directly or indirectly if the investments primarily         and, as appropriate, conducted joint examinations
benefit low- and moderate-income persons, low- and          when an activity is conducted across legal entities.

December 2008                                                                   Section Two State of OCC Supervision        19
                                                                         coordination is conducted in formal supervisory
                                                                         groups, such as the Basel Committee and the
                                                                         Joint Forum of banking, securities, and insurance
                                                                         regulators, by the Financial Action Task Force, and
                                                                         through direct bilateral meetings and agreements
                                                                         with individual foreign bank regulators. The OCC
                                                                         also provides technical assistance and classroom
                                                                         training to foreign supervisors across the globe
                                                                         to help them strengthen their domestic
                                                                         supervisory programs.


                                                                         OCC Supervises Surge in
                                                                         International Activities by
                                                                         National Banks
                                                                            While most banks in the national banking system
                                                                         have no direct international exposure, the largest
     Comptroller of the Currency John C. Dugan looks on as Howard
     Pitkin, Banking Commissioner of the State of Connecticut, signs     ones conduct business across a broad range of
     a Memorandum of Understanding on exchanging consumer                countries. These are truly global institutions, not
     complaint information.
                                                                         just banks that operate in a few overseas locations.
                                                                         OCC-supervised banks had $1.8 trillion of foreign
     Joint supervisory programs include the agencies’                    exposure on their books at the end of the second
     examination program for multiregional data                          quarter, not to mention substantial additional off-
     processors and the Shared National Credit Program.                  balance-sheet exposure. Although most of the
        The OCC also worked with state regulators                        exposure is to developed countries, emerging market
     and other federal regulators on matters of mutual                   exposure has grown rapidly.
     interest. Among these regulators are the Securities                    Some of the institutions the OCC supervises are
     and Exchange Commission on various securities,                      under foreign ownership. The OCC supervises 29
     brokerage, and accounting and disclosure issues;                    national bank and trust companies that are foreign-
     the Federal Trade Commission on various                             owned, with more than $550 billion in assets. The
     consumer protection and privacy issues; and the                     agency also supervises the activities of federally
     Public Accounting Oversight Board. The OCC has                      licensed branches and agencies of foreign banks.
     agreements with 49 state insurance departments,                     As of 2008, there were 49 of these from more than
     the District of Columbia, and Puerto Rico to share                  20 countries with combined assets of about $190
     insurance-related supervision information and                       billion.
     with 42 states and Puerto Rico to share consumer                       The cross-border nature of the institutions is a
     complaint information. (See “OCC Presses Other                      prime driver of the OCC’s international focus. But
     Regulators for a Unified and Simpler Consumer                       at an operational level, to be an effective supervisor
     Complaint Process” on page 28.)                                     in a global financial system, we maintain extensive
        The OCC is a member of the administration’s                      relationships with our colleagues throughout the
     Financial and Banking Infrastructure Information                    international supervisory community. This includes
     Committee and works with that committee, the                        informal meetings to exchange views on key issues,
     Department of Homeland Security, and other federal                  to collaborate, to compare practices, and to share
     agencies to combat money laundering and terrorist                   relevant information. At other times, interaction is
     financing activities and to enhance the resiliency of               more formal, through structured bilateral meetings
     the nation’s financial sector to catastrophic events.               and through joint work with our colleagues in the
        The globalization of the financial and banking                   Department of the Treasury.
     markets have accentuated the OCC’s need to work                        The OCC has an office in London that has
     with financial supervisors around the world. This                   operated out of the U.S. Embassy since 1974 and is


20                                                           Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
                                                        International Banking Supervision Department in
                                                        April and named Deputy Comptroller Delora Ng Jee
                                                        as head of the group. “International banking issues
                                                        have grown increasingly important to the OCC and
                                                        the national banking system,” Mr. Dugan said, “and
                                                        I felt strongly that we needed to create a new group
                                                        to focus on our supervisory work in this area.”
                                                           Jee, who joined the OCC in 1978, brings a wealth
                                                        of relevant experience to her new position, including
                                                        previous responsibility for supervising large banks
                                                        owned by foreign banking organizations.
dedicated to evaluating key risks present in national      She is responsible for consolidating, coordinating,
banks’ European operations. When complex or             and extending key international supervisory
stressful supervisory situations arise, there is no     activities of the OCC, including essential elements
adequate substitute for the personal and professional   of the agency’s Federal Branches and Agencies
working relationships established through these         Program, which had previously been conducted
channels.                                               by Midsize/Community Bank Supervision’s
    The OCC promotes effective supervision through      Northeastern District. This new International
its participation in a number of regional and global    Banking Supervision Department enhances the
supervisory groups. Through the Joint Forum, which      OCC’s supervision of international banking
is chaired by Comptroller Dugan, supervisors from       activities through tighter integration with Large
the banking, insurance, and securities sectors of 13    Bank Supervision, which supervises institutions that
major countries address issues and offer guidance       conduct business across a broad range of countries.
that is frequently used by supervisors in individual       “There is tremendous interest from foreign home
countries.                                              and host regulators about the U.S. supervisors’
    For example, the Joint Forum’s paper Credit         response to the current market turmoil,” Jee
Risk Transfer—Developments from 2005 to 2007,           points out. “International Banking Supervision’s
released July 2008, focuses on complex financial        ties to bank supervision have enabled the
instruments that are widely used to transfer credit     OCC to communicate more effectively with
risk. In 2008, the Joint Forum also issued papers on    foreign supervisors.”
risk concentrations and customer suitability in the        This new department serves as the primary point
retail sale of financial products and services.         of contact for international banking supervisors
    As a member of the Basel Committee on Banking       and as a clearinghouse for requests to the OCC
Supervision, the OCC joins supervisors from 12          for supervisory information, bilateral meetings,
other countries in initiatives to increase the long-    and participation in international working groups.
term resilience of the international banking system.
The year saw significant progress in implementing
the Basel II capital framework, which provides a
more risk-sensitive and comprehensive approach
to capital adequacy and sets new standards for
supervisory review and public disclosures relating to
risk. In December 2007, the U.S. banking agencies
issued a final rule implementing the advanced
measurement approaches of the framework,
under which banks, in certain circumstances, may
develop their own empirical models for quantifying
operational risk, and, in July 2008, published a
notice of proposed rulemaking on the standardized
approach, which relies on external evaluations.         Delora Ng Jee, the Deputy Comptroller for International
    Closer to home, the Comptroller created the         Banking Supervision, explains OCC policy to a visiting group
                                                        of international bankers.


December 2008                                                             Section Two State of OCC Supervision         21
     International Banking Supervision collaborates          technologies to improve their infrastructure, broaden
     intensively with other OCC divisions, because legal,    their product offerings, and expand their services.
     economics, policy, and examination staff members        “Bankers and customers take the availability and
     continue to play active roles in the international      performance of bank technology for granted,” he
     activities of the agency.                               notes, “but Bank Information Technology Specialists
        As Comptroller Dugan has observed, “With             and the bank information technology professionals
     global financial markets, a bank regulatory agency      understand the critical role technology plays.”
     can’t be effective if it focuses narrowly on domestic       Messick says that national banks have faced
     concerns. National borders are increasingly             a number of challenges during the past year,
     irrelevant to some of the most important issues we      particularly in information security, as criminals
     face, and effective policymaking has to take that       continued to level multilayered attacks on banks,
     into account.”                                          retailers, and customers to perpetuate sophisticated
                                                             fraud schemes. At the same time, Messick explains,
                                                             industry financial concerns impose limits on
     Functional Specialists                                  spending for technology staff and controls. The
     Bring Technical Expertise to                            OCC reminds bankers that failures in technology
     Bank Supervision                                        or technology-related controls can jeopardize a
                                                             bank’s safety and soundness or its ability to comply
        As national banks develop new and complex
                                                             with laws and regulations. “Bank Information
     products and services, the OCC increasingly
                                                             Technology Specialists must champion technology
     relies on the specialized expertise of examiners
                                                             issues when supervising banks and collaborate with
     and analysts in such areas as capital markets,
                                                             other examiners to ensure that bankers are managing
     commercial and retail
                                                                              and controlling technology-related
     lending activities,
                                                                              risk consistently regardless of the
     information technology,
                                                                              economic cycle.”
     asset management,
                                                                                 Messick believes that his ability
     and compliance. These
                                                                              to communicate effectively with
     specialists develop
                                                                              bankers and examiners is critical.
     supervisory policies,
                                                                              “Bank Information Technology
     provide guidance to
                                                                              examiners cannot function
     examiners and the industry,
                                                                              effectively as pure technicians;
     and evaluate new products
     and services and the risks
     associated with them.
     Their work often requires
     close coordination with
     other regulators, lawmakers, and industry groups,
     assessing the impact of changes in legislation or
     accounting guidelines on national banks as well as
     the overall industry.
        Bank Information Technology specialists
     evaluate technology and bank information system
     functions in national banks and their technology
     service providers. The OCC has more than 90 Bank        Bank Supervision School instructors pool their experience
     Information Technology specialists, most with           as examiners to develop realistic training scenarios.
     industry certifications in information technology
                                                             we have to understand the business impact our
     auditing, information security, or business
                                                             technical issues may raise. We also need a broad
     continuity. National Bank Examiner Carter Messick,
                                                             understanding of bank operations and the ability
     a Lead Information Technology Expert in Midsize
                                                             to communicate technical issues in safety and
     Bank Supervision, says that banks have adopted new
                                                             soundness or regulatory compliance terms.”

22                                                                                             Fiscal Year 2008 Annual Report
   Commercial and Retail Credit Risk Policy                        OCC’s supervisory policies effectively promote
specialists develop and interpret policies to promote              consumer protection and compliance with anti-
strong credit risk management and ensure safe                      money laundering laws. In addition to preparing
and sound banking practices. They stay abreast of                  guidance, examination procedures, and answers to
banking activities and industry developments to                    frequently asked questions, Utterback serves as a
ensure that the policies are timely, practical, and                contact to answer questions from examiners and
effective.                                                         industry sources about consumer protection laws
   “We support field examiners and the industry by                 and regulations. By participating in OCC Web and
providing interpretations of policy, writing guidance              telephone seminars and speaking at trade association
and handbooks, training examiners, participating                   conferences, he provides examiners and the industry
in on-site examinations, and conducting industry                   with a better understanding of compliance issues.
outreach meetings,” says National Bank Examiner                       Consumer specialists rely on good technical
Johnna Cook, a Commercial Credit Specialist.                       and analytical skills. “Many of the consumer
“We support executive                                                                         protection regulatory and
management and                                                                                statutory provisions are
the Comptroller by                                                                            very detailed and need
providing technical                                                                           clarification at times,”
expertise and research for                                                                    says Utterback. “As a
congressional testimony.                                                                      compliance specialist,
We also prepare briefing                                                                      part of my job is to
documents in support of                                                                       review the facts and apply
the Comptroller’s many                                                                        and interpret the law or
national and international                                                                    regulation correctly.”
supervisory activities.”                                                                         Changing
   Kevin Russell, a                                                                           regulations makes the
Retail Credit Specialist                                                                      job of a compliance
and National Bank               National Bank Examiner Karen Tucker and Director of           specialist extremely
Examiner, adds, “We             Community    and Consumer  Law  Michael Bylsma  discuss       challenging. “The number
                                compliance policy with participants around the country.
routinely analyze industry      OCC teleconferences served more than 3,000 listeners in       of consumer protection
performance and highlight       fiscal year 2008.                                             laws and regulations
potential risk issues.                                                                        continues to increase
We work extensively with all supervisory lines                     and evolve to afford consumers with enhanced
of business on lending reviews and inquiries,                      protections,” he adds. “As a compliance specialist,
monitoring lending risks and concentrations, and we                you have to really enjoy change.”
work jointly with other areas to address accounting,
legal, and capital issues.”
   Cook and Russell agree that the past year
                                                                   Economic and Financial Analysis
presented many challenges, particularly in keeping                 Supports the OCC’s Work
abreast of emerging risks that could affect safe and                  The Global Banking and Financial Analysis unit
sound banking practices. “The volume of issues                     houses a team of economists who analyze potential
and the velocity at which they were presented                      risks to the national banking system and share this
have required strong organizational, analytical,                   critical information with national bank examiners.
and technical skills,” explains Cook. And for the                      The economists also participate, as needed, in
foreseeable future, she adds, they will have to                    bank examinations.
hone those skills even more. “We will be further                      The team was heavily involved in helping
challenged to maintain a balanced approach in                      examiners assess portfolio risks from exposures to
dealing with economically stressed conditions.”                    commercial real estate and provided several large
   Compliance specialists like National Bank                       banks with tools to establish priorities for more
Examiner Paul Utterback make sure that the                         intensive review. Economists joined examiners on
                                                                                                     continued on page 25


December 2008                                                                   Section Two State of OCC Supervision        23
     New Mortgage Metrics Report Increases
     Visibility of Mortgage Loan Data

        In June 2008, the OCC took on the challenge of
                                                                  complete picture of the
     making key aspects of national bank mortgage lending
                                                                  practices and state of the
     more transparent to regulators and the public by
                                                                  federally regulated mortgage
     publishing the first quarterly OCC Mortgage Metrics
                                                                  lending industry.”
     Report.
                                                                     The most significant
        The publication is part of the OCC’s intensified focus
                                                                  findings from the second
     on mortgage supervision. It is a product of the OCC’s
                                                                  quarter report include:
     realization that the substantial amount of mortgage data
     previously collected from banks did not provide the          • Total monthly loss mitigation actions reached more
     level of detail necessary to fully understand mortgage         than 90,000 in June, with new loan modiﬁcations
     performance and rising foreclosures.                           accounting for 46 percent of those actions. New loan
        “The OCC seized the opportunity to improve the way          modiﬁcations increased by more than 80 percent
     mortgage performance is measured, producing better             from January to June 2008 and, on a quarterly basis,
     information for supervision of our banks and better            increased by 56 percent from the ﬁrst to second
     information for policymakers, other regulators, market         quarter. By comparison, new payment plans grew
     participants, and the public,” Comptroller Dugan said          only 8 percent from January to June 2008, and
     upon unveiling the report at the American Securitization       increased just more than 2.7 percent from the ﬁrst to
     Forum.                                                         second quarter.
        The initial report analyzed more than 23 million          • New loss mitigation actions (loan modiﬁcations
     mortgage loans held or serviced by the nine national           and payment plans) relative to new foreclosures
     banks with the largest mortgage portfolios from October        averaged more than 87 percent during the second
     2007 through March 2008. The loans had a value of              quarter, about 12 percentage points higher than
     more than $3.8 trillion. That volume represented more          during the ﬁrst quarter.
     than 90 percent of all mortgages serviced by national        • More than nine out of 10 mortgages remained
     banks and approximately 40 percent of all mortgages            current. However, credit quality declined during the
     across the nation.                                             ﬁrst two quarters across all risk categories.
        The OCC used loan-level data and standardized
                                                                  • There were increases in early stage delinquencies
     terms and definitions that allow deeper analysis and
                                                                    (30-59 days past due) and seriously delinquent
     better comparisons over time. With regard to the value
                                                                    mortgages (60 or more days past due plus loans to
     of standardized reporting, Comptroller Dugan said,
                                                                    bankrupt borrowers who are 30 or more days past
     “The more we can use standardized metrics across the
                                                                    due).
     board, the better we can measure, monitor, and manage
     mortgage risk.”                                                 The agencies will produce the report quarterly and
        In September, the OCC, along with the Office of           have shared their standardized terms and definitions
     Thrift Supervision (OTS), produced the OCC and               with the Department of the Treasury and with the Hope
     OTS Mortgage Metrics Report, which expanded the              Now Alliance to promote standard data collection and
     standardized reporting approach by combining mortgage        analysis industry wide.
     loan data serviced by national banks with data from             In addition to providing important information to the
     thrifts regulated by the OTS. The report covered January     public, the data gathered in the OCC and OTS Mortgage
     2008 through June 2008 and presented data on loan            Metrics Report support the supervision of national
     performance, delinquencies, and foreclosures from the        bank and thrift mortgage practices. The report provides
     14 national banks and thrifts with the largest mortgage      an additional tool to help examiners assess emerging
     portfolios. During that period, these lenders made up 60     trends, identify anomalies, compare federally regulated
     percent of the overall mortgage industry and combined        mortgage lenders with the rest of the industry, evaluate
     to hold or service 34 million loans worth $6.1 trillion.     asset quality and loan-loss reserve needs, and evaluate
        “By combining national bank and thrift data,”             the effectiveness of loss mitigation actions.
     Comptroller Dugan said, “we are able to present a more



24                                                   Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
horizontal reviews of banks with high concentrations      The idea is to make these dashboards accessible
of commercial real estate and provided an               on the OCC’s intranet, so everybody in the agency
assessment of potential problem assets. A horizontal    can look, she explains. “You can log on each
review is an examination across a portfolio of          morning and know what’s going on in the retail
banks with similar characteristics. These tools and     market, the credit market, the housing market.”
economic assessments are designed to support            This tool also will aid in tracking the economic
the examination process and ultimately to support       development that affects the banks the
targeted discussions with bank staff.                   OCC regulates.
   Their analyses aren’t just limited to market
conditions in the United States. “The banking
industry that we supervise is increasingly
                                                        Risk Analysis Unit Bolsters
international, either directly or indirectly,” Nancy    OCC Supervision
Wentzler, the Deputy Comptroller for Global                Complex, trillion-dollar financial institutions rely
Banking and Financial Analysis, explains. “You          increasingly on statistical analysis and sophisticated
might have very large banks with international          mathematical models to help run their businesses.
exposures, but you also have banks in Iowa that are     To evaluate the effectiveness of those models—and
lending to agricultural companies that may be hit       help national bank examiners make sense of them—
hard by sudden shifts in international agricultural     the OCC relies on a team of mathematicians and
markets. We are a global marketplace, so our            economists in its Risk Analysis Division.
analysis must recognize those influences even on           The Risk Analysis Division evaluates the
seemingly small local markets.”                         broad range of risk modeling used in the industry
    Indeed, the appetite for economic analysis has      and advises examiners and bankers on best and
grown tremendously in the past year. “There’s a         standard practices. Examples of supervisory
lot of interest, internationally, in finding out how    reviews benefiting from economists’ participation
supervisors can do better. I think we’ll learn a lot    are retail credit risk reviews, in which models are
from each other as we assess the events of the last     used for credit rating and scoring; interest rate
12 months.”                                             risk reviews, which rely on asset-liability models;
   In the meantime, the department is working on        and examinations of derivative dealers, which
a series of “dashboards” that displays the major        use trading-risk models. The economists advise
economic and financial drivers for the major            policymakers on issues that require quantitative
business lines—commercial, retail, international,       analysis, including issues related to Basel II
commodity. “We’re asking what indicators we             capital requirements. Examinations related to
should be watching—those factors that are key           implementation of the Basel framework are an area
influences on activity in each area—to assess the       of increasing emphasis for the division.
potential risks under alternative economic paths,”         Roughly one-third of the professionals in the Risk
says Wentzler, who equates the dashboards to the        Analysis Division are fair lending modeling experts.
control panel in an airplane’s cockpit. “You can’t      They use data from the Home Mortgage Disclosure
put everything on there. You have limited room and      Act as well as a bank’s internal loan data to develop
limited ability to interpret, but you have to know if   statistical models that test for potential unlawful
you have gas, if the wheels are up or down, and if      discrimination by comparing information from
the wings are level.”                                   large numbers of files. The results assist OCC fair
   “Same goes for these economic dashboards. You        lending examiners in their assessment of the risks of
have to limit them to 10 charts or indicators, so we    unlawful behavior involving overt discrimination,
can focus on the most important features and make       underwriting and pricing discrimination, steering,
timely decisions based on that information. No one      and discriminatory redlining and marketing.
has the time to read 100 pages of economic data.
We have to be focused and timely in our analytical
efforts, and dashboards provide that discipline.”




December 2008                                                           Section Two State of OCC Supervision      25
                                                                 provide the judgment needed to deal with difficult
     Compliance Policy Helps Banks                               compliance issues. The Community Reinvestment
     and Examiners Stay on Top of                                Act (CRA) is a good example. “It’s not easy to
                                                                 figure out if the banks have done enough to serve
     Changing Regulations                                        a community’s credit needs. How much is enough?
        The Compliance Policy Department helps define            Or to determine which bank’s businesses are more
     and implement OCC policies as they relate to                susceptible to money laundering. Or to determine if
     consumer protection and anti-money laundering               a particular practice by a bank is unfair or deceptive.
     laws. The department is responsible for developing          These are not easy decisions.” OCC’s Community
     written examination procedures, preparing guidance          Affairs Officers, who are part of the Chief
     to the banking industry and to OCC examiners,               Counsel’s office, have regional and local expertise
     and analyzing data required under the Home                  on community and consumer organizations and
     Mortgage Disclosure Act (HMDA) and the Bank                 issues and provide technical support to compliance
     Secrecy Act (BSA). OCC examiners evaluate bank              examiners on such matters as CRA assessment
     compliance and, when weaknesses are noted, take             area delineation, community development and
     corrective action.                                          investments, and other aspects of CRA compliance.
        Because regulations do change, one of                       For Jaedicke, these are “issues that are large in
     Compliance Policy’s most important functions is             scale, and many deal directly with the everyday
     training other OCC staff in classroom settings and          lives of people. There’s a real human element to
     in virtual workshops that allow examiners to share          compliance work—anyone with a credit card or a
     knowledge with their peers around the country.              mortgage loan feels the effects of what we do.”
     Compliance Policy works closely with OCC legal
     staff in interpreting the supervisory impact of often
     complex compliance laws and regulations.                     Fair Lending, Fair Treatment,
        Compliance Policy’s employees are also involved           and Fair Access Are
     in outreach to the industry, speaking at trade               Key Priorities
     association meetings and educational forums. They
     partner with the OCC’s Banking Relations division                The OCC deployed a broad range of resources to
     in telephone seminars, where they can explain                ensure   national bank compliance with fair lending,
     regulatory changes to bank compliance officers and           consumer protection, and CRA requirements. That
     discuss how the OCC will implement those changes.            kind of commitment, as Comptroller Dugan noted
        Changing regulations is just one of many                  in a July speech to OCC compliance specialists, is
     compliance challenges facing banks,                          particularly important in challenging times, because
     says Ann Jaedicke, the OCC’s                                                   no bank, struggling or otherwise,
     Deputy Comptroller for Compliance                                              can afford to assume the additional
     Policy. Large banks that conduct                                               reputation and compliance risk that
     millions of consumer transactions                                              can be associated with potential
     from thousands of branches around                                              compliance lapses.
     the country face large compliance                                                 Compliance complacency is
     risks and responsibilities. For                                                most likely to arise when bank
     smaller banks with perhaps                                                     management is preoccupied with
     a few dozen employees, the                                                     safety and soundness issues. Yet
     main challenge is often that the                                               bankers cannot rest on a past
     compliance officer may have many                                               record of success. They must be
     additional duties and still have to                                            as attentive to their compliance
     stay current with dozens of changing                                           responsibilities in difficult times
     government regulations.                                                        as they are when the pressure of
        Jaedicke relies on her staff of                                             events eases.
                                              Comptroller Dugan addresses the          To ensure that banks meet
     experienced examiners—many with OCC’s 2008 Fair Lending Conference.
     25 years or more experience—to                                                 these responsibilities, the OCC


26                                                                                            Fiscal Year 2008 Annual Report
assesses and monitors compliance risk in each of
the institutions under its supervision. Examiners can       Attorneys Provide Counsel,
call on the OCC’s economics team, which supplies            Expertise to Supervisory Team
statistical analysis that can aid in targeting portfolios
                                                               Payment transactions in our economy are
that may have higher potential for fair lending
                                                            increasingly processed through automated systems
problems. OCC Community Affairs Officers,
                                                            with complex network rules and contractual
located throughout the country, provide examination
                                                            relationships. If not properly controlled, transactions
support on CRA requirements and compliance.
                                                            conducted through these mechanisms can pose
    To underscore the OCC’s commitment to fair
                                                            significant risk to banks and counterparties. To
lending supervision and advance the state-of-the
                                                            monitor and respond to developments in connection
art in fair-lending risk modeling, the agency’s
                                                            with these automated systems, the OCC established
Economics Department sponsored a fair lending
                                                            a Payments System Working Group in 1994. Special
conference in New Orleans that brought econometric
                                                            Counsel Jonathan Fink represents the OCC’s Law
specialists, bankers, and regulators together in an
                                                            Department on that working group.
effort to improve identification of fair lending issues
                                                               For Fink, who works in the Bank Activities and
that may require supervisory attention.
                                                            Structure Division, it’s been an opportunity to add
    Another key compliance resource is the OCC’s
                                                            a new specialization to an already impressive list of
Office of the Ombudsman. The Ombudsman and
                                                            practice areas that include problem bank resolutions,
staff serve not only as an outlet
                                                                     lending limits, affiliate and insider
for bank consumer complaints
                                                                     transactions, “golden parachute” payments,
and for resolving supervisory
                                                                     and uniform commercial code issues. He
disputes between examiners and
                                                                     also serves as a mentor to less experienced
bankers; they are also a valuable
                                                                     OCC attorneys—a side of his job that he
supervisory resource, helping to
                                                                     says “gives me as much satisfaction as
identify consumer compliance
                                                                     anything else I do.”
issues at their earliest stages. This
                                                                        His work on payments systems
information can become a crucial
                                                                     requires him to be expert and up-to-date
resource to the OCC in developing
                                                                     on developments in the law, technology,
risk-based supervisory strategies
                                                                     and banking. Payment systems are not
for national bank compliance
                                                                     only susceptible to hardware and software
examinations. (See “Office of
                                                                     failures but also to fraud, malicious damage,
the Ombudsman Ensures Fair,
                                                            user error, and other operational risks. As evidenced
Expeditious Resolution of Complaints” on page 38.)
                                                            by several recent cases—one involving criminal
    Ultimately, the OCC believes compliance
                                                            interception of credit card data and another of a
is inseparable from safety and soundness. But
                                                            national bank accepting fraudulent checks generated
compliance is also vital in its own right. Especially
                                                            by a processor for telemarketers—such risks can
when consumer confidence in the financial services
                                                            lead to enormous harm to merchants, consumers,
industry is being tested by events, it’s critical that
                                                            and the financial institutions that serve them.
banks demonstrate their commitment to fair play,
                                                               Fink and his colleagues in the working group
fair lending, and fair treatment for all consumers.
                                                            have addressed those issues through several key
The OCC’s compliance program is there to provide
                                                            pieces of supervisory guidance, which elaborate
further support to public confidence.
                                                            on the operational and other risks that can arise
                                                            in connection with payments system and funds
                                                            transfer activities. The guidance also spells out
                                                            the safeguards national banks should put in place
                                                            to manage those risks, to protect themselves and
                                                            their customers.




December 2008                                                               Section Two State of OCC Supervision      27
        But Fink recognizes that it is not enough to                “When direct contact with the bank does not
     release supervisory guidance and hope for the best.         resolve an issue, figuring out where to turn next
     With others, he works hard to explain that guidance         may be very challenging. The OCC believes this
     in presentations to both banker and examiner                burden should not fall upon the consumer,” OCC
     audiences. “I’ve also been out in the field with the        Chief of Staff and Public Affairs John G. Walsh
     examiners, in the banks, helping them to identify           says. “It is incumbent upon federal banking agencies
     problems. And, at the same, taking part in our              to make improvements in these areas to better
     exams has helped enrich my own understanding                serve consumers.”
     of payments-system practices—and malpractices.”                “Frankly, our comprehensive approach to
     Although technology keeps advancing and it takes            consumer protection—integrating guidance,
     continued effort to stay ahead of those who would           supervision, enforcement, and complaint
     misuse the systems, the agency’s comprehensive,             resolution—is not well understood,” Comptroller
     hands-on approach to payments-system risk                   Dugan has said in testimony to members of the
     management seems to be working: the agency’s                Committee on Financial Services of the U.S. House
     automated clearinghouse (ACH) risk management               of Representatives.
     guidance has caused banks to tighten their risk                Throughout the year, the OCC continued the
     management and internal controls.                           process of simplifying customer assistance and
        The OCC’s risk-based approach to supervision             increasing public awareness. The agency’s efforts
     also extends to the Office of the Chief Counsel, and        involved working with state and federal regulators
     in a time of financial turmoil attorneys like Fink          and making its own customer assistance group more
     find themselves devoting larger chunks of their time        accessible to customers of national banks.
     to problem bank issues: preparing legal analyses,              In August 2008, the OCC reached a significant
     supporting administrative actions, contributing             milestone in state and federal collaboration
     to supervisory strategy, and helping to evaluate a          by signing the latest of 42 memoranda of
     troubled bank’s prospects. “At a time like this, we         understanding with state banking regulators. The
     all have to be prepared to do whatever the situation        memoranda establish a formal basis for sharing
     demands of us,” he says. Fink brings a breadth and          complaint information among regulators while
     depth of experience that makes him an invaluable            also protecting confidential customer information.
     OCC resource.                                               Further easing the burden of sharing complaint


     OCC Presses Other
     Regulators for a Unified
     and Simpler Consumer
     Complaint Process
        Consumer complaints about lenders and
     depository institutions made national news in
     fiscal year 2008. One of the most common
     sources of consumer frustration related to the
     difficulty of identifying and reaching the
                                                        OCC Customer Assistance
     right regulator of a particular bank, thrift, or   Specialist Rayburn Johnson
     credit union.                                      helps consumers resolve
                                                        bank-related issues.
        Federal agencies, including the OCC,            Customer Assistance Group
     agree that the best way for consumers to           processed more than
                                                        41,000 written complaints in
     resolve their concerns is to contact their banks   fiscal year 2008.
     directly, but the agencies also recognize that
     individual customers cannot always reach fair
     or satisfactory resolutions on their own.



28                                                  Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
information, the OCC is promoting use of its new                  banking questions and information about how to
Web-based system, Complaint Referral Express.                     contact a bank’s regulator.
Among the first states to take advantage of the                       In June 2008, the National Association of
system are California, Colorado, Florida, New                     Consumer Agency Administrators recognized
York, and Texas. The system allows the OCC and                    the OCC for its educational outreach efforts and
other regulators to exchange complaint information                outstanding Web site.
electronically, thus eliminating the time-consuming
and costly process of mailing and faxing.
   Through the Federal Financial Institutions                     OCC Steps Up Efforts To
Examination Council, the OCC also continues                       Support Minority Banks
to work with federal regulators on making the
                                                                      The OCC remains committed to preserving the
consumer assistance process more streamlined
                                                                  health of minority banks and recognizes them as key
and consumer-friendly. The council has been
                                                                  contributors to the economic viability of minority
working on proposals to create a toll-free number
                                                                  and low-income communities. This commitment
to assist customers of all federally regulated banks,
                                                                  links directly to the OCC’s objective of ensuring
thrifts, and credit unions; to develop a joint Web
                                                                  that national bank customers receive fair and equal
site to allow bank customers to look up a bank’s
                                                                  access to financial services. It’s a commitment
regulator more easily; and to conduct a campaign
                                                                  that’s been evident in the agency’s minority bank
to increase public awareness of federal customer
                                                                  initiatives that have evolved over the years.
assistance programs.
   Because the national banking
system touches so many lives, the
OCC recognizes the importance
of working independently as
well. The agency’s Public Affairs
Department continues to produce
and distribute public service items to
local newspapers and radio stations
around the country to educate
consumers about banking regulatory
issues and to promote awareness
of OCC customer assistance
products and services, such as
HelpWithMyBank.gov and the
                                           Public Affairs Specialist Stephanie Powell’s work with minority bankers underscores the
toll-free customer assistance              OCC’s commitment to this important sector of the banking system.
number, 800-613-6743.
   Since launching our public service
campaigns, articles and radio spots have run nearly                   Responding to valuable feedback from chief
8,000 times in 41 states and covered such topics as               executive officers of minority banks and an analysis
gift cards, foreclosure prevention, debt-elimination              of data from a recent survey, the OCC in fiscal year
scams, and promotion of the agency’s customer                     2008 revised its policy, initiated new activities, and
assistance process and consumer Web site. These                   modified previous efforts regarding minority banks.
public service announcements, which provide                           For example, the OCC issued an updated Policy
important information to America’s financial                      Statement on Minority-Owned National Banks
consumers, have been seen or heard by a potential                 to reaffirm its support for this banking sector.
audience of more than 900 million people. The                     Comptroller Dugan says the OCC took this step
effort contributed to the increasing popularity of                in part to “take account of changes in the business
HelpWithMyBank.gov. During an average month in                    environment in which minority national banks
fiscal year 2008, the site received more than 28,000              operate. But I also wanted to reissue the statement
visits from people looking for answers to basic                   to reaffirm my own commitment—and that of the

December 2008                                                                          Section Two State of OCC Supervision          29
     OCC—to minority institutions. These banks provide
     vital services to minority communities, and the OCC          OCC Improves
     is strongly committed to supporting them.”                   the National Bank
        To keep minority banks up-to-date on agency
     policies, guidelines, and activities, the OCC’s Senior
                                                                  Chartering Process
     Advisor for External Outreach and Minority Affairs,             The OCC has a longstanding commitment to a
     part of the agency’s Public Affairs Department,              vibrant national community bank program, so it was
     launched OCC Highlights, an e-mail newsletter                a matter of concern that only 15 percent of newly
     with regulatory and legislative matters of interest          chartered community banks chose the national bank
     to minority financial institutions. The OCC sends            charter over the last 10
     the newsletter to national and other minority banks          years. To understand
     and posts it on the agency’s Web site, along with a          why so few new
     feedback mechanism to help the agency determine              community banks have
     whether its online resources are meeting minority            chosen the national
     bankers’ needs.                                              charter, Comptroller
        However, online resources cannot serve as                 Dugan in 2007 created
     substitutes for face-to-face communication. So when          a de novo (or new)
     two agency executives assumed new responsibilities           bank charter working
     that included working closely with minority national         group. He charged this
     banks, the appointees participated in meetings and           group with identifying
     roundtables with minority bank chief executive               the considerations
     officers. Such interaction—initiated by the Senior           most relevant to bank
     Deputy Comptroller for Midsize and Community                 organizers making
                                                                  charter decisions,
                                                                                            Comptroller of the Currency




     Bank Supervision and the Ombudsman—won the
                                                                                            Administrator of National Banks

                                                                                            US Department of the Treasury




                                                                                                    Improvements to
     agency considerable praise among its minority bank           as well as                     the National Bank
                                                                                                Chartering Process
     constituents. “Mere words cannot adequately express          determining any
     how appreciative I am of OCC representatives’                impediments to                                              2008




     professionalism and willingness to provide                   obtaining a
     assistance when needed,” Commonwealth National               national                  www.occ.gov




     Bank Chairman Michael Pierce says.                           bank charter.
        Feedback from surveys and roundtable                         The working group’s recommendations led the
     discussions with minority bank chief executive               OCC in 2008 to simplify and enhance the chartering
     officers also revealed this banking sector’s diversity.      process, which now features decreased application
     Taking into account differences among these                  costs, increased assistance prior to formal filing,
     banks, Midsize and Community Bank Supervision                better communications, fewer impediments to
     staff members have encouraged Assistant Deputy               raising capital, and greater efficiency.
     Comptrollers and portfolio managers to develop and              These changes are consistent with the OCC’s
     implement supervisory strategies tailored to meet            goals of improving operations and reducing
     the technical assistance needs of every national             unnecessary regulatory burden. National bank
     community bank.                                              officers and directors have ready access to
        To learn more about the diversity and                     a significant package of OCC resources and
     commonalities among minority banks, the OCC                  professional staff, including bank chartering and
     participates in interagency efforts, such as the             related corporate specialists, seasoned examiners
     Interagency Minority Depository Institutions                 and their senior managers, and legal staff. While
     National Conference, which the OCC cohosted                  the bank chartering process continues to evolve,
     for a third consecutive year. In 2008, Comptroller           one thing remains constant: the OCC’s high-quality,
     Dugan served on a regulatory panel, and other OCC            professional supervision across the nation.
     experts served on panels that addressed such topics             Application costs and processing delays have
     as measuring and monitoring risk exposures and               been reduced. The OCC has suspended licensing
     restructuring debt.                                          application fees for those seeking national bank

30                                                   Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
charters as well as for other licensing transactions,   application. The examiners who will provide
such as business combinations. Many of these            supervision once the bank is chartered may meet
changes significantly reduce the overall cost of        with the organizers as well.
obtaining a national bank charter. At the bank             Impediments to raising capital have been
organizers’ request, the OCC can begin personal         reduced. The OCC has expedited its review of
background checks earlier in the process to help        bank securities offering materials. No fidelity
avoid delays later on. Draft applications and           insurance is required for raising capital if the escrow
business plans can be submitted for preliminary         agent has insurance or is bonded, and audited
review and feedback.                                    financial statements are no longer required at the
   More assistance is provided prior to filing.         in-organization phase. From now on, only national
When an organizing group contacts the OCC about         banks with 500 or more shareholders will be
becoming a national bank, agency staff members          required to file reports under the provisions of the
organize an exploratory meeting to explain the          Securities Exchange Act. Previously the threshold
charter process, offer technical assistance, and        was 300.
discuss options to address the unique features of          Greater efficiencies have been achieved. The
the group’s proposal. Bank charter experts are          OCC has streamlined policies and procedures to
available to travel to the organizers for exploratory   focus on safety and soundness issues and the overall
and prefiling meetings. On request, these experts       viability of the proposal. The OCC’s special legal
review draft applications, business plans, and other    lending limit rules expanding lending opportunities
pertinent documents and respond as needed with          are now available to new national banks. The
feedback. District licensing staff members work         actions of district offices are better coordinated
with organizers, answer questions, and provide          with those of OCC headquarters. More than ever
reports on application status. Organizers meet key      before, the OCC and its examining staff stand
OCC personnel who in turn maintain close contact        behind a commitment to a robust system of national
with FDIC officials regarding the bank’s insurance      community banks.




December 2008                                                           Section Two State of OCC Supervision      31
32   Fiscal Year 2008 Annual Report
            Section Three Organizational Highlights
            Chief Counsel’s Office Focuses on Bank
            Safety and Soundness, Customer Products and Services                                       33
            Office of the Ombudsman Ensures Fair,
            Expeditious Resolution of Complaints  .                                                    38
            Management, Information Technology, and Governance
            Help the OCC Maintain Skilled Workforce  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 39
            External Outreach Promotes Understanding of the
            OCC’s Mission  .                                                                           43



Chief Counsel’s Office Focuses on Bank Safety and
Soundness, Customer Products and Services
Bank Safety and Soundness                                   As described in the “State of OCC Supervision”
                                                         section, the OCC published several rules


T
        he OCC strives to maintain a flexible legal      implementing sections of the Fair and Accurate
        and regulatory framework that enables the        Credit Transaction Act of 2003 and rules
        national banking system to provide a full,       implementing the aspects of the Basel II Capital
competitive array of financial services. In fiscal       Accord.
year 2008, the OCC published a final rule to reduce         Comptroller Dugan stated in March 2008 that the
unnecessary regulatory burden and revise and update      OCC would play a positive and constructive role in
OCC regulations. The final rule updated and revised      the discussion of the Department of the Treasury’s
the qualifying standards and after-the-fact notice       Blueprint for a Modernized Financial Regulatory
procedures that apply to national bank operating         Structure.
subsidiaries. The rule also expanded the list of            The OCC provides regulatory oversight practices
operating subsidiary activities that are permissible     and interpretive letters that support national banks’
upon filing an after-the-fact notice.                    ability to compete while maintaining safety and
   Other revisions in the rule reduced the burden        soundness. We issued our annual publication,
associated with applications for fiduciary powers        2007 Significant Legal, Licensing, and Community
and intermittent branches, change-in-bank control        Development Precedents for a National Bank,
notices, and requirements to make securities filings.    as well as the cumulative companion edition
The final rule incorporated previously published         of Activities Permissible for a National Bank:
interpretive opinions concerning, for example,           2007. Interpretive letters issued during fiscal year
electronic banking activities, to harmonize the OCC      2008 included opinions on permissible types of
rules with those of other federal agencies, to reflect   derivatives transactions, including property index
recent statutory changes, and to make technical          derivative transactions and derivative transactions
and conforming amendments to improve clarity             associated with designated types of natural events
and consistency. The OCC amended our securities          and catastrophes, as well as a specification of types
offering disclosure rules to eliminate the general       of securities a bank may purchase and hold to hedge
requirement that a national bank in organization         permissible equity derivatives transactions.
include audited financial statements in a public            Other interpretive letters dealt with risk-based
offering.                                                capital requirements for synthetic securitizations



December 2008                                                                                                    33
     based on home equity lines of credit and loans,         use of remotely created checks after telemarketers
     and risk-based capital credit conversion factors        obtained bank account information over the phone
     applicable to a liquidity facility.                     to offer consumers a range of questionable products
        We issued a preemption opinion on the ability of     and services. The OCC found that the bank profited
     an operating subsidiary to export interest rates and    from the fees and bank balances generated by these
     fees from the bank’s home state, on charges to non-     activities and failed to take action to terminate the
     account holders for cashing official checks, and on     account relationships when it became aware of the
     the offering of debt cancellation contracts through     problem.
     auto dealers. In addition, the Second Circuit Court
                                                             Addressing Criminal and Terrorist
     of Appeals denied the New York Attorney General’s
                                                             Misuse of the Banking System
     petition for rehearing on prior court findings that
     the Attorney General did not have authority to             The OCC is committed to preventing criminals
     investigate real estate lending by national banks or    and terrorists from misusing the financial system
     their operating subsidiaries, with reference to the     and to supporting law enforcement efforts to detect
     OCC’s exclusive visitorial authority.                   and prosecute criminal activities. This work is often
        The agency will continue in fiscal year 2009 to      carried out in partnership with other federal financial
     consider and issue opinions on the safe and sound       institutions regulatory agencies, the Financial
     implementation of bank activities and products. The     Crimes Enforcement Network (FinCEN), and law
     OCC will also continue to provide case-by-case          enforcement.
     analysis, when appropriate, for the applicability          OCC examiners evaluate each national bank’s
     of state law and the exclusivity of the agency’s        compliance with Bank Secrecy Act/Anti-Money
     visitorial authority under the national banking laws,   Laundering (BSA/AML) requirements; when they
     in order for national banks to operate efficiently      observe problems with a bank’s BSA compliance
     under uniform national standards.                       program, the agency seeks corrective action from
                                                             the bank. The OCC investigates national banks
     Protecting Consumers                                    that fail to meet BSA/AML requirements and takes
        The OCC examination program addresses                enforcement actions against them. In fiscal year
     problems and noncompliance arising from unfair          2008, for example, the FinCEN and the OCC each
     treatment of bank customers, including failure to       assessed CMPs of $15 million against a federal
     meet requirements for proper disclosures relating to    branch of a foreign bank for alleged violations of
     financial products and services.                        the Bank Secrecy Act, which the bank agreed to
        In fiscal year 2008, the OCC entered into a          pay under a consent order. The bank had a history
     formal agreement with a large national bank,            of noncompliance with OCC cease and desist
     directing the bank to make restitution to consumers     orders relating to Bank Secrecy Act deficiencies
     harmed by its relationships with telemarketers and      and requirements to terminate wire transfers, dollar
     third-party processors. The estimated restitution       drafts, and pouch transactions.
     could exceed $125 million. In addition to the           Enforcement Actions Against
     restitution payments, the bank was also required to     Bank Insiders and Third Parties
     contribute approximately $8.9 million to consumer
     education programs directed at the elderly, and to          Actions against insiders included cease and desist
     pay a $10 million Civil Money Penalty (CMP).            orders, restitution orders, the assessment of CMPs,
     The OCC found that the bank engaged in unsafe           and prohibition orders. Insiders may be the subject
     and unsound practices in its relationships with         of these actions for misrepresentations in regulatory
     payment processors and telemarketers and unfair         filings, self-dealing, or misappropriating bank funds,
     practices under the Federal Trade Commission            and other improper practices in loan administration,
     Act. The practices cited by the OCC involved the        use of bank premises, bank expenses, and exercise
                                                             of fiduciary duty.




34                                                                                        Fiscal Year 2008 Annual Report
   The OCC also takes action against institution-              of national bank assets, and foreign branches and
affiliated parties whose actions in a professional             agencies.
capacity in relation to the bank meet certain                     The department works closely with bank
standards of misconduct or are otherwise illegal.              supervision and other legal units on the viability
   The OCC’s Fast Track Enforcement Program uses               and legality of proposals for dealing with problem
information from suspicious activity report filings            banks. Proposed restructurings that may avoid
to pursue prohibition or other enforcement actions             bank failures and their associated costs can include
when bank insiders and other institution-affiliated            mergers, purchases and assumptions, and chain bank
parties committed criminal acts or acts of significant         structures.
wrongdoing involving banks, but no action was                     The OCC made several significant licensing
taken by law enforcement.                                      decisions involving national bank business
   Figure 9 summarizes enforcement actions taken               realignments and acquisitions. In addition, the OCC
in fiscal year 2008.                                           implemented streamlined regulatory requirements
                                                               and process improvements for de novo bank

    Figure 9: Enforcement Actions
                                                                                            Against Institution-
       Enforcement Actions, FY 2008                                    Against Banks          Affiliated Parties
       Cease and Desist Orders                                                     20                        14
       Temporary Cease and Desist Orders                                            0                         0
       12 USC 1818 Civil Money Penalties                                            3                        27
       12 USC 1818 Civil Money Penalties Amount Assessed                  $25,007,500                 $662,000
       Flood Insurance Civil Money Penalties                                        7                         0
       Flood Insurance Civil Money Penalties Amount Assessed                $323,725                         $0
       Restitution Orders                                                           1                         2
       Amount of Restitution Ordered                                     $125,000,000                   $11,100
       Formal Agreements                                                           51                         0
       Individual Minimum Capital Ratio Letters                                     9                         0
       Memoranda of Understanding                                                  17                         0
       Commitment Letters                                                           7                         0
       Suspension Orders                                                            0                         0
       Letters of Reprimand                                                         0                        13
       12 USC 1818 Removal/Prohibition Orders                                       0                        32
       12 USC 1829 Prohibitions                                                     0                       203
       Total Enforcement Actions                                                  115                       291
    Source: OCC data for fiscal year 2008.


Licensing Decisions
   The Licensing Department establishes policies               charters, resulting in reduced costs and barriers and
and procedures for OCC’s processing of corporate               enhanced value of the national bank charter.
applications involving national banks and foreign                 To address potential safety and soundness
banking organizations. These functions are                     problems before they arise, the OCC may impose
performed on a decentralized basis. Corporate                  conditions upon bank transaction approvals covering
structure changes requiring OCC approval include               capital and liquidity arrangements and deviations
new bank charters, conversions to the national                 from business plans.
charter, national bank merger (or business                        In fiscal year 2009, the OCC plans to implement
combinations), corporate reorganizations, changes in           improved methods for accessing licensing
control, operating subsidiaries, branches, relocations,        application information from the agency’s public
capital and subordinated debt issuances, contraction           Web site.
                                                                                                  Continued on page 38


December 2008                                                                Section Three Organizational Highlights     35
     Figure 10: Licensing and Customer Service Performance Measures
           Performance Measures                                                              Target                             Actual
           Percentage of licensing applications and notices
           filed electronically                                                                40%                                46%
           Percentage of licensing applications and notices
           completed within established time frames                                            95%                                95%
           Average survey rating of the overall licensing
           services provided by OCC                                                          ≤ 1.50                               1.22
     Source: OCC data for fiscal year 2008.




     Figure 11: Corporate Application Activity
                                             Applications Received                            Fiscal Year 2008 Decisions


                                             Fiscal Year           Fiscal Year                     Conditionally
                                                2007                  2008        Approved          Approved 4          Denied           Total 5

          Branches                             1,673                1,251          1,247                 12                 0            1,259
          Capital / Sub Debt                      135                   170            69                 7                 0               76
                               Source: OCC data for fiscal year 2008.
          Change in Bank                             8                    5              0                2                 0                 4
          Control
          Charters                                 32                    33              1               27                 0               28
          Conversions 1                            25                    7               3                5                 0                 8
          Federal Branches                           1                   3               0                3                 0                 3
          Fiduciary Powers                           6                   11              3                0                 0                 3
          Mergers 2                                49                   46             44                 1                 0               46
          Relocations                            277                    291          279                  2                 0              283
          Reorganizations                         108                   111            93                17                 0              111
          Stock Appraisals                           2                    1              0                0                 0                 0
          Subsidiaries     3
                                                   14                   23             13                 5                 0               18
          12 CFR 5.53 Change                         4                   5               0                4                 0                 4
          in Assets
          LTD NB Upgrade                             2                    0              0                0                 0                 0
          Total                                2,336                1,957          1,752                 85                 0            1,843
     Source: OCC data for fiscal years 2007 and 2008.

     1
         Conversions are conversions to national bank charters.

     2
       Mergers include failure transactions when the national bank is the resulting institution.

     3
       This count does not include 81 after-the-fact notices received in fiscal year 2007 and 84 after-the-fact notices received in fiscal year 

     2008.

     4
       On April 14, 2000, the Licensing Department issued guidance imposing special conditional approval for all bank charters requiring the 

     OCC to be notified before a significant deviation or change in the operating plan during the first three years of operation.

     5
         Total includes alternative decisions or no objections.





36                                                                                                                      Fiscal Year 2008 Annual Report
        Figure 12: OCC Licensing Actions and Timeliness
                                                             Fiscal Year 2007                                         Fiscal Year 2008
                                                                                 Within Target                                   Within Target
                                           Target
                                            Time
                                           Frames          Number of                                     Number of
            Application Type              in Days 1        Decisions          Number          Percent    Decisions          Number          Percent

            Branches                           45/60         1,729             1,690            98          1,259            1,222                 97
            Capital / Sub Debt                 30/45             71                59           83              76               70                92
            Change in Bank                     NA/60              6                  6         100                4                3               75
            Control
            Charters 2                                           30                13           43              28               17                61
            Conversions                        30/90             11                  9          75                8                8               73
            Federal Branches                  NA/120              0                  0            0               3                2               67
            Fiduciary Powers                   30/45              4                  3          75                3                3            100
            Mergers                            45/60             40                54           84              46               36                90
            Relocations                        45/60           257               251            98             283              274                97
            Reorganizations                    45/60             94                84           89             111               98                88
            Stock Appraisals                   NA/90               0                 0            0               0                0                0
            Subsidiaries                        NA               31                31          100              18               15                83
            12 CFR 5.53 Change                 NA/60               4                 2          50                4                4            100
            in Assets
            LTD NB Upgrade 3                                       1                 0            0               0                0                0
            Total                                            2,278             2,183            96          1,843            1,758                 95
        Source: OCC data for fiscal years 2007 and 2008.

        Note: Most decisions (99 percent in 2007 and 98 percent 2008) were decided in the district offices and Large Bank Licensing under delegated
        authority. Decisions include approvals, conditional approvals, and denials.
        1
          Those filings that qualified for the “expedited review” process are subject to the shorter of the time frames listed. The longer time frame is
        the standard benchmark for more complex applications. New time frames commenced in 1997 with the adoption of the revised Part 5. The
        target time frame may be extended if the OCC needs additional information to reach a decision, permits additional time for public comment, or
        processes a group of related filings as one transaction.
        2
          For independent charter applications, the target time frame is 120 days. For holding-company-sponsored applications, the target time frame is
        45 days for applications eligible for expedited review, and 90 days for all others.
        3
            Ibid. 2.




     Figure 13: Change in Bank Control Act 1
                       Year          Received            Acted On             Not Disapproved                  Disapproved             Withdrawn
                       2008               5                    4                          4                             0                      0
                       2007               6                    6                          0                             0                      0
                       2006               9                    8                          4                             0                      4
                       2005              17                   17                         17                             0                      0
                       2004              16                   14 2                       13                             0                      0
     Source: OCC data for fiscal years 2004–2008.
    1
        Notices processed with disposition.

    2
        Includes one notice with no activity. The OCC considered it abandoned.





December 2008                                                                                         Section Three Organizational Highlights              37
         Figure 14: List of Applications Presenting Community Reinvestment Act Issues Decided
                                                             Interpretations and Actions
           Bank, City, State                                 Publication Date                Document Number
           PNC Bank, National Association, Pittsburgh,       February 2008                 CRA Decision No. 141
           Pennsylvania (merger)
           TD Banknorth, National Association, Portland,     May 2008                      CRA Decision No. 142
           Maine (merger)
           Wachovia Bank, National Association, Charlotte,   May 2008                      CRA Decision No. 143
           North Carolina (new branches)
         Source: OCC data for fiscal year 2008.


     Community Affairs
        The Community Affairs Department provides                   Community Affairs provided loan and foreclosure
     technical support to OCC compliance examiners,              data and community mapping analyses in support
     conducts consultations with bankers on CRA and              of OCC policy and processes. The department
     community development, and trains bank CRA                  also continued the community development-
     officers through the OCC’s national network of              oriented publications program with the issuance
     Community Affairs Officers.                                 of a consumer advisory on avoiding mortgage
        The department also processes national bank              fraud and publications on low-income housing tax
     community development filings. In fiscal year 2008,         credits, the Small Business Admnistration 7(a)
     national banks made 329 community development               loan program, multibank community development
     investments, which totaled $3.7 billion, under the          banks, and preservation of affordable rental housing.
     public welfare investment authority of 12 CFR 24.           Publications and related information are made
        In fiscal year 2008, Community Affairs                   available through a variety of media, including the
     sponsored or represented the OCC at nearly 100              OCC Web site and Web-based seminars.
     conferences and meetings focused on community
     investment and development structures and
                                                                 Office of the Ombudsman
     opportunities, including cosponsoring the annual
     National Interagency Community Reinvestment                 Ensures Fair, Expeditious
     Conference and a Minority-Owned Institutions                Resolution of Complaints
     Conference. The department worked with other
                                                                    In March 2008, Comptroller Dugan appointed
     government entities and engaged in discussions with
                                                                 Larry Hattix as the agency’s second Ombudsman
     community and consumer organizations on such
                                                                 since the office was created in 1993. The
     topics as affordable housing, foreclosure avoidance,
                                                                 Ombudsman serves as an objective arbiter to resolve
     preservation of foreclosed properties, payment and
                                                                 bank appeals independent of the OCC’s supervisory
     debit card products, and alternatives to traditional
                                                                 process.
     credit-scoring models. Community Affairs staff
                                                                    The Office of the Ombudsman is organized
     also supported the agency’s participation in
                                                                 around the core principles of dispute resolution and
     NeighborWorks America, a national nonprofit
                                                                 customer service. The office seeks to ensure that
     organization created by Congress to provide
                                                                 national banks and customers of national banks
     financial support, technical assistance, and training
                                                                 receive fair and expeditious resolution of their
     for community-based revitalization efforts, as well
                                                                 complaints through two distinct processes within
     as federal financial literacy and consumer protection
                                                                 the office. The National Bank Appeals Process
     programs. The department organized Comptroller
                                                                 is designed to resolve disputes of national banks
     Dugan’s tour of New York City neighborhood
                                                                 arising from the supervisory process. The Customer
     community development projects benefiting from
                                                                 Assistance Group (CAG) focuses on ensuring that
     national bank investments.
                                                                 customers of national banks receive fair treatment in
                                                                 resolving their complaints with national banks.




38                                                                                           Fiscal Year 2008 Annual Report
National Bank Appeals Process
   The appeals process is designed to provide banks
                                                         Management, Information
with an independent, fair, and binding means of          Technology, and Governance
settling disagreements that can arise from OCC           Help the OCC Maintain
supervisory actions or decisions. National banks
                                                         Skilled Workforce
can make informal inquiries or file formal appeals
in strict confidence without fear of retaliation. With   Human Resources
the Comptroller’s consent, the Ombudsman can
                                                            The OCC’s success in supervising and regulating
stay a pending decision or action until the appeal
                                                         the national banking system depends on the
is resolved. In fiscal year 2008, the Ombudsman
                                                         capabilities, effectiveness, and efficiency of our
received 21 formal and informal appeals and
                                                         employees. Comptroller Dugan and the rest of the
substantive inquiries, in addition to numerous
                                                         Executive Committee are committed to maintaining
general inquiries.
                                                         a diverse, highly skilled, motivated, and well-placed
   Separate from the appeals process, the OCC
                                                         workforce.
assesses the effectiveness of the supervisory process
                                                            The OCC’s hiring and training programs are
through an examination questionnaire administered
                                                         producing a high-quality staff. A large part of this
by the Office of the Ombudsman. The questionnaire
                                                         effort is focused on successfully developing entry-
is provided to all national banks at the conclusion
                                                         level examiners into commissioned examiners
of their 12- or 18-month supervisory cycle. The
                                                         with the skills to conduct and lead national
questionnaire is designed to gather direct and timely
                                                         bank examinations in a challenging economic
feedback from bankers on the OCC’s supervisory
                                                         environment.
program.
                                                            Succession planning and transmitting institutional
Customer Assistance Group                                knowledge will be critical for the OCC to fulfill
   For Fiscal Year 2008, the OCC’s CAG received          the agency’s mission. Twenty-eight percent of
more than 90,000 telephone calls from customers          the OCC’s total workforce and 26 percent of
of national banks and processed more than 41,000         examiners become eligible to retire over the next
written complaints. While credit cards remain the        five years. The Committee on Bank Supervision
product with the highest number of complaints,           oversees several programs designed to increase
comprising nearly 40 percent of all complaints           and strengthen examiner and leadership pools.
received, complaints related to both home                For example, the OCC’s Specialty Skills initiative
mortgage loans and home equity products increased        provides examiners with a road map to develop
significantly. In 2008, national banks returned more     their skills in eight specialty areas and will help
than $10 million in fees and charges to customers.       ensure that the agency can supervise the increasingly
   The OCC launched HelpWithMyBank.gov in                complex array of activities and institutions in the
July 2007. This is a consumer-focused Web site           national banking system.
designed to provide self-service assistance to bank         The OCC recruits most of its entry-level
customers on a wide array of topics. It includes a       employees on college campuses across the nation.
frequently asked questions area, tools to determine      In fiscal year 2008, the agency hired 122 entry-level
if a particular financial institution is regulated by    examiners. This pool of examiners was distinctive
the OCC, and step-by-step instructions on how to         not only for quality but also for diversity. Since the
file a complaint. In its first year of operation, over   inception of this hiring program in 2003, the OCC
333,000 individuals visited the site and downloaded      has employed about 705 entry-level examiners. Of
more than 26,500 consumer complaint forms.               this group, 52 percent are women and 35 percent are
                                                         minorities.
                                                            The agency’s personnel strategy also
                                                         encompasses an experienced-hire program, which
                                                         brings in employees directly from the banking and
                                                         finance industry, and programs that seek to identify
                                                         and develop talent among existing employees.

December 2008                                                          Section Three Organizational Highlights    39
        The OCC has established an “on-boarding”             Equal Opportunity and Workplace Fairness
     program to acclimate newly hired examiners, new           The OCC demonstrated commitment to equal
     managers, and executives. All newly hired industry      employment opportunity and workplace fairness by:
     specialists are assigned mentors to smooth their
     transition. Mentors provide instruction in agency       •		 Continuing investment in a cadre of experienced
     culture and policies, provide regular feedback on           third parties to assist employees in improving
     performance, and solicit comments on their initial          conflict management and communication skills
     experiences at the OCC.                                     through mediation, facilitation, and coaching
        Having recruited the highest quality people, the         techniques. OCC mediators conducted eight
     OCC works hard to retain them. To that end, the             internal and nine external mediations. Participants
     agency instituted an aggressive retention program.          rated the mediation experience as being “above
     At regular intervals, surveys and focus groups give         satisfactory,” with participation rates exceeding
     precommissioned examiners an opportunity to                 the goals set forth by the Department of
     provide feedback on their OCC experiences and hear          the Treasury.
     the OCC’s response. The OCC holds career forums         •		 Using “Crucial Conversations” training as a
     at the three-year point to allow precommissioned            shared approach to communicating difficult
     examiners to interact with OCC senior leadership,           messages, clarifying expectations, and resolving
     learn about the Uniform Commission Examination,             disagreements. A cadre of 12 OCC employees,
     and plan for future opportunities in their                  who are certified instructors, delivered “Crucial
     OCC careers.                                                Conversations” training to more than 15 percent
        At the beginning of fiscal year 2008, the                of the OCC workforce. Participants reported that
     OCC ranked fourth on the Partnership for Public             the course exceeded their expectations.
     Service’s list of Best Places to Work in the Federal
                                                             •		 Enhancing dispute prevention, organizational
     Government out of 222 subcomponents of large
                                                                 awareness, and accountability by briefing the
     federal agencies. This independent rating is based on
                                                                 Executive Committee on equal employment
     OCC employees’ responses to the Federal Human
                                                                 opportunity and diversity program requirements.
     Capital Survey and reflects the OCC’s efforts to
                                                                 The OCC sponsored workshops on equal
     provide a professional, supportive workplace that
                                                                 employment opportunity, alternative dispute
     helps to attract and retain outstanding employees.
                                                                 resolution, diversity, and antiharassment
     To that end, we strive to provide a comprehensive
                                                                 principles in 20 field offices, in the Office of the
     and competitive program of pay and benefits as
                                                                 Ombudsman, and for 12 Large Bank Supervision
     stipulated in the Financial Institutions Reform,
                                                                 teams.
     Recovery, and Enforcement Act of 1989. In August
     2008, Comptroller Dugan announced compensation          •		 Serving as a colead with the Department of the
     and benefits decisions that allow the OCC to remain         Treasury with the strategic goal of transforming
     competitive among the federal bank regulatory               the human capital occupation and as colead with
     agencies with which it competes most directly               the Bureau of Engraving and Printing on the
     for personnel.                                              Treasury Shared Neutrals (third-party servicers,
        The agency has taken steps to encourage                  such as mediators and facilitators) program.
     experienced examiners to transfer into the
                                                             Technology
     supervision policy group in headquarters and to
     large banks in major cities. To attract internal           In fiscal year 2008, OCC Information
     candidates, the OCC emphasized the importance           Technology Services (ITS) strived to improve front
     of these assignments to career advancement and          line customer service, optimize support for business
     provided incentives, including relocation bonuses,      applications, and stabilize the agency’s technical
     mortgage subsidies, financial assistance for renters,   infrastructure. Highlights include:
     and transitional cost-of-living reimbursements.         •		 Improving front line customer support by
                                                                 realigning the ITS Technical Support organization
                                                                 to empower our technical support agents in
                                                                 the field.

40                                                                                         Fiscal Year 2008 Annual Report
•		 Enhancing remote access services to provide users      Manual 4000-1(REV)). The new policy aligned the
    in the field with better access to OCC information     OCC information security program with the Federal
    and applications. By deploying mobile.occ.             Information Security Management Act requirements
    gov, users can access OCC data and common              and established a procedure for addressing other
    applications anytime, anywhere, from any               information security-related issues.
    computer connected to the Internet.                       The OCC’s Information Technology Services
                                                           Department also improved documentation of the
•		 Enabling the Large Bank Supervision department
                                                           Information Security Program by identifying key
    to modernize its strategic resource planning
                                                           policies, standards, and procedures. These were
    by using the newly developed Strategies
                                                           codified as information security goals, objectives,
    and Resources (STARS) application. With
                                                           and strategies in the security policy. These policies
    deployment in 2009, STARS will eliminate
                                                           are being measured with a comprehensive metrics
    duplicative reporting processes and ease the
                                                           program. The department’s plan to improve and
    burden of drafting the strategy document, while
                                                           institutionalize information security at the OCC,
    providing Large Bank Deputy Comptrollers with
                                                           known as “Information Security 2012,” will be
    consistent information to supervise the entire large
                                                           detailed in a forthcoming “Information Security
    bank portfolio.
                                                           Concept of Operations” publication.
•		 Modernizing OCC’s core messaging infrastructure           A corrective actions process known as the OCC
    to improve e-mail security reliability, capacity,      Plan of Actions and Milestones program, which was
    and performance.                                       compliant with the National Institute of Standards
•		 Providing faster, more reliable deployments of         and Technology and the Office of Management
    new systems and IT products by strengthening           and Budget, was implemented with associated
    and streamlining internal IT processes                 procedures, templates, and reports. The OCC
    and procedures, such as the OCC System                 reports program activities on a quarterly basis to
    Development Lifecycle process.                         the Department of the Treasury, which will use the
                                                           information to provide overall departmental status to
•		 Deploying the Treasury Learning Management             the Office of Management and Budget.
    System. The system provides OCC staff with a              Using new engineering resources, our ITS
    robust training management portal through which        Department strengthened its ability to detect and
    users can register, track, and request approval for    respond more quickly to computer security incidents
    external training. Users of this system can identify   and improved its coordination with other OCC units,
    and register for classes and participate in online     the Treasury Computer Incident Response Center,
    training that is essential for their jobs or that      and the Treasury Office of the Inspector General.
    promotes career growth.                                OCC information infrastructure components and
   In addition, as recognition of OCC’s IT                 major computer applications are assessed regularly
accomplishments in 2007, the OCC received the              for risk. This includes undergoing full, continuous
prestigious Archivist’s Achievement Award at the           monitoring that is compliant with the National
2008 National Archives and Records Administration          Institute of Standards and Technology and is
Conference for the design and implementation of the        required for the OCC to maintain accreditations
Workflow and Information Systems and Document              awarded in fiscal year 2007. In fiscal year 2008, the
Manager electronic recordkeeping system.                   department provided a security training program
                                                           to all employees and contractors. The training
Information Technology Security and                        focused on the confidentiality and integrity of
Emergency Preparedness                                     OCC’s information, regulations that govern OCC
  In fiscal year 2008, the OCC Information Security        information systems, and potential threats and
Program expanded to achieve increased focus on             vulnerabilities that can undermine those systems.
policy, compliance, training, technical oversight, and        The OCC continued to correct and mitigate
audit. We published a revised Federal Information          management control deficiency findings from
Security Management Act-compliant Information              last year’s financial audit. A project team worked
Technology Security Policy (Policy and Procedures          collaboratively with all financial audit stakeholders

December 2008                                                            Section Three Organizational Highlights   41
     to implement the improvements needed to resolve         OCC has begun to upgrade our control system
     the previous year’s findings. A separate verification   infrastructure so that the new cards can be used to
     and validation process was established to test the      provide physical security at OCC offices.
     effectiveness of the remediation activities on six of
     the repeat findings.                                    Process Improvement
        The OCC’s Emergency Management Program                  The OCC strives to enhance its business
     prepares the agency to respond to emergencies that      processes to improve the quality of process outputs
     disrupt normal operations. The program ensures          and reduce rework and costs. An emphasis on
     that the necessary plans, resources, and training       support activities enables the Bank Supervision staff
     exist to deal effectively with the full spectrum        to better focus on supervision activities. During
     of emergencies the OCC could face. The OCC              fiscal year 2008, the OCC initiated a review to
     tested various elements of the OCC’s Continuity         determine how support processes deliver value to
     of Operations Plan during fiscal year 2008 by           the agency. All critical processes will be evaluated
     participating in the government-wide Eagle Horizon      by the end of fiscal year 2010, and deficiencies and
     National Level Exercise. This comprehensive             problems discovered from the review will become
     exercise involving OCC staff throughout the             key elements of OCC’s organizational and process
     country was designed to test the OCC’s ability to       improvement agenda. During fiscal year 2008,
     perform mission-essential functions from multiple       the evaluation model was developed, and process
     locations, including OCC headquarters, the OCC’s        improvement plans were completed for eight critical
     designated primary site for continuity of operations,   support processes. Processes reviewed included how
     and the OCC’s devolution site. Multiple response        the OCC determines compensation and contract
     cells participated from these and other locations to    administration processes.
     test the OCC’s response to scenarios that included         Other improvement efforts are identified by
     a hurricane and terrorist activities. The OCC also      management from internal customers’ feedback
     participated with other financial sector entities in    or from efforts to continually improve business
     the three-week nationwide Financial and Banking         practices. Examples of efforts to improve the
     Information Infrastructure Committee/Financial          effectiveness and efficiency of programs in fiscal
     Services Sector Coordinating Council Pandemic           year 2008 included:
     Exercise. The OCC continues to update emergency         •		 Reengineering the performance evaluation
     strategies and plans with information from these            process to stress the value added by managers and
     tests to ensure that it is ready to respond to any          staff while reducing the OCC’s administrative
     threat to the safety of OCC employees or the                costs and burdens on managers and staff.
     interruption of our mission.
                                                             •		 Reviewing the customer assistance complaint
        The OCC continued to develop a Homeland
                                                                 review process to increase OCC’s ability to
     Security Presidential Directive 12 (HSPD-12)
                                                                 address consumer complaints.
     Program for Smartcard ID issuance. Employees
     will use that card to access OCC facilities and         •		 Reengineering the contract examiner process to
     information systems. The OCC coordinated closely            reduce the time to fill those positions and comply
     with the Treasury HSPD-12 Program Management                with regulations.
     Office and General Services Administration
                                                             •		 Reengineering the contracting process to improve
     Managed Service Office to implement the Treasury
                                                                 contract administration and controls.
     Enterprise Solution for HSPD-12. The OCC
     acquired and installed an HSPD-12 card enrollment       •		 Reengineering the payroll processes to expedite
     and activation station in the headquarters facility         and simplify payroll corrections and collections.
     and began issuing HSPD-12-compliant credentials         •		 Implementing a “Quick Wins” program
     to employees. The OCC also established an HSPD-             throughout the Office of Management that
     12 lab and began developing and testing solutions           encourages innovation and creativity by all staff
     for using the new Smartcard IDs with the bureau’s           to improve operations. The program suggestions
     nationwide Physical Access Control System. The              improve the quality of outputs and reduce OCC


42                                                                                        Fiscal Year 2008 Annual Report
  costs. Results range from saving a few hours to          •		 Complying with applicable federal sector
  saving hundreds of hours and significant dollars.            governance laws, regulations, directives, 

                                                               and standards.

   For some reengineering projects, the OCC uses
the Lean Six Sigma methodology, also used by               Program for Periodic Testing of Quality
many of the larger banks it regulates. The method          Management Practices
allows the OCC to analyze business processes to
                                                              During fiscal year 2008, the Enterprise
improve quality and efficiency. This approach
                                                           Governance unit expanded testing of departmental
improves those business processes, eliminates
                                                           quality management processes to all business
waste, reduces the burden of compliance with
                                                           units. Testing was completed within the Office
statutory and regulatory requirements, and delivers
                                                           of Management’s Acquisitions Management
more value to customers. Since fiscal year 2005,
                                                           unit, the Office of the Ombudsman, and Public
OCC has completed 70 of these projects for an
                                                           Affairs Department. The unit is in the process
annual savings in excess of $5.5 million and
                                                           of consulting with ITS to improve the quality
allowed the OCC to make more effective use of
                                                           management program. Testing will occur later in
employees.
                                                           the Chief Counsel’s Office, the Chief National Bank
Improving Enterprise Governance                            Examiner’s Office, and Economics Department.
                                                              The process begins with an introductory
   To better align OCC’s strategic planning, quality
                                                           consultation with the departmental manager about
management, and business process improvement
                                                           the nature of the risks inherent in the department’s
activities with strategic objectives and legal
                                                           major business processes and the quality
governance responsibilities, Comptroller Dugan
                                                           management practices that are used to manage those
established the Enterprise Governance unit in fiscal
                                                           risks. The Enterprise Governance team tests sample
year 2007.
                                                           aspects of these quality management programs for
Creating the Enterprise Governance                         testing. The criteria used for evaluation are generally
                                                           accepted as authoritative and provide a transparent
Subcommittee of the Executive Committee
                                                           framework for the consistent testing and evaluation
   The OCC established the Enterprise Governance           of quality management programs across the OCC.
Subcommittee during fiscal year 2008 to develop            They include:
and coordinate issues related to strategic planning
and enterprise risk management. The subcommittee           •		 Applicable Office of Management and
oversees, on behalf of the Executive Committee, the            Budget (OMB) Circulars (primarily A-123),
following governance-support processes:                        Management’s Responsibility for Internal Control.

•		 Ensuring that strategic goals, objectives, and         •		 Quality management principles (control/
    strategies are current and measured.                       assurance/business process improvement).

•		 Updating the “Strategic Risk Management                •		 Government Accountability Office Standards for
    Plan” quarterly and placing it on the Executive            Internal Control in the Federal Government.
    Committee agenda for discussion.                       •		 Criteria for Performance Excellence
•		 Preparing the Comptroller’s Annual Statement of            (published by the National Institute of 

    Assurance.                                                 Standards and Technology).


•		 Testing quality management programs for all
    major agency business processes.
•		 Reviewing the results of other assurance
    activities, such as the external financial audit and
    the Treasury Office of the Inspector General and
    Government Accountability Office audits, and
    tracking corrective actions.



December 2008                                                             Section Three Organizational Highlights    43
     External Outreach
     Promotes Understanding                                      about the national system since its launch in
                                                                 July 2007, reached nearly 200,000 national bank
     of the OCC’s Mission                                        customers in fiscal year 2008 and earned recognition
        OCC Public Affairs educates and informs the              from the National Association of Consumer
     public about issues affecting the agency, the national      Agency Administrators as Web site of the year
     banking system, and consumers. Reporting to the             for its contribution to consumer education. Nearly
     Chief of Staff and Public Affairs, the department           7,000 people have signed up for the OCC’s RSS
     manages the agency’s internal communications and            service, which provides an alternate source of news
     outreach to the media, Capitol Hill, bank customers,        and information about the agency. In addition,
     industry groups, civil rights organization, and the         over 20,000 people belong to the OCC’s e-mail
     general public.                                             subscription lists.
        Through a series of public service                          In addition, Public Affairs’ Banking Relations
     announcements, Public Affairs promoted public               unit sponsored a range of industry outreach
     education on such topics as                                                         programs, including
     foreclosure prevention; debt                                                        workshops for bank directors,
     elimination schemes; gift                                                           “Meet the Comptroller”
     cards; customer assistance;                                                         sessions around the country,
     and the OCC’s consumer Web                                                          and programs for state
     site, HelpWithMyBank.gov,                                                           associations that visit
     which provides information to                                                       Washington. The Press
     consumers and facilitates the                                                       Relations division produced
     process of filing complaints                                                        149 news releases during the
     when necessary. These public                                                        last fiscal year, fielded calls
     service messages, which                                                             from hundreds of reporters
     promote financial literacy, have                                                    around the country, and
     run more than 7,700 times in print and on radio, in         supported the agency’s financial literacy program
     41 states, in both English and Spanish, since the           by getting important information on consumer
     program began in fiscal year 2007.                          concerns to the media. Other OCC units dealt with
        Public Affairs continued to improve the quality          minority outreach (see “OCC Steps Up Efforts To
     and quantity of information available on the                Support Minority Banks” on page 29), Freedom
     OCC Web sites last year. HelpWithMyBank.gov,                of Information Act requests, publications, and
     which has been answering common questions                   internal communications.




44                                                  Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
 Section Four Financial Management
              Discussion and Analysis
           OCC Focuses on Operational Excellence 

           in Financial Management  .                                                                               45

                Letter from the Chief Financial Officer
                                                            45

                Historical Perspective
                                                                             47

                Strategic Focus                                                                                     47

                Strategic Goals                                                                                     47

                Operating Strategy                                                                                  47

                Looking Forward                                                                                     49

           Financial Highlights  .                                                                                  49

                Overview                                                                                            49

                Assets                                                                                              49

                Liabilities                                                                                         50

                Net Position                                                                                        50

                Reserves                                                                                            51

                Revenues and Costs                                                                                  51

                Budgetary Resources                                                                                 53

           Financial Statements             .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 54

           Notes to the Financial Statements  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 58

           Independent Auditor’s Reports  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 69

           Other Accompanying Information  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 75

           Assurance Statement  .                                                                                   78


OCC Focuses on Operational Excellence in 

Financial Management
Letter from the Chief Financial Officer                        For the past several years, I have discussed
   I am pleased to present the OCC’s financial 
            the importance of our internal controls program.
statements as an integral part of the Fiscal 
              A strong internal control environment has never
Year 2008 Annual Report. I am also glad to 
                been more important. It serves as the foundation
report that for fiscal year 2008 our independent 
          for accurate financial reporting as well as the
auditors rendered an unqualified opinion with no 
          safeguarding of agency assets. The OCC has
material internal control weaknesses. The OCC’s 
           diligently applied the concepts embodied in Office
commitment to effective financial management and 
          of Management and Budget Circular A-123,
a strong internal control environment continues to 
        “Management’s Responsibility for Internal Control,”
be my highest priority.
                                    and where practicable, beyond. Our efforts in this

December 2008                                                                                                               45
     area are overseen by OCC executives and senior             growth in bank examination staff, information
     staff who meet at least monthly to monitor the             technology infrastructure, and office space. As a
     status of the program. This year, there were no            non-appropriated federal agency, the OCC’s primary
     material control weaknesses identified through             sources of revenue are bank assessments and interest
     our testing process.                                       earned on investments. The majority of the agency’s
        Circular A-123 presents an evolving program. In         operating budget is allocated to personnel, travel,
     the past several years, the government charge card         and rent. These three budget items accounted for
     program and improper payments program have been            almost 76 percent of the fiscal year 2008 operating
     incorporated into the A-123 oversight process. In the      budget. While the current economic situation
     coming year, the OCC’s acquisitions program will           and the impact on financial institutions are well-
     come under the A-123 process. We stand ready to            documented, our goal is to ensure that the agency’s
     devote the resources needed to ensure compliance           finances adequately support the OCC’s mission.
     with the spirit and intent of these enhancements to           The Budget and Finance Subcommittee, which
     the A-123 program.                                         I chair, closely monitors the OCC’s overall
        A strong internal control program also includes a       financial condition. Meeting at least monthly, the
     constant review of processes. Several years ago, the       subcommittee focuses on the agency’s investment
     OCC’s Office of Management adopted the Lean Six            activities, office space needs, and financial reserves.
     Sigma methodology for improving administrative             The growth of our staff to meet bank supervision
     processes. Strong controls are the ultimate safety         needs has generated a significant increase in leased
     net in any process we design. However, inefficient         office space. In the coming year, we will focus on
     administrative processes detract from the overall          our headquarters and data center leases. Because
     effectiveness of the agency and may decrease the           of the lead time needed to address leases of such
     hours available for staff to focus on the OCC’s            magnitude, the process must begin soon to ensure
     mission. This year, the OCC made major strides             uninterrupted operations for the agency. The
     in this program. The Office of Management now              subcommittee also reviews the performance of the
     can train and certify Lean Six Sigma blackbelts            agency’s investment portfolio. During the past year,
     and greenbelts—the designations used for trained           our portfolio has performed favorably compared
     personnel who have successfully led Lean Six               against benchmarks with objectives and holdings
     Sigma projects. The Office of Management has               comparable to those within the OCC’s investment
     one master blackbelt, two blackbelts, and multiple         portfolio. Finally, the subcommittee examines the
     greenbelts in multiple business units. An additional       adequacy of agency reserves. Over the past several
     six blackbelts and 13 greenbelts will complete             years, we have been prudent in maintaining our
     their training in fiscal year 2009, and all staff has      financial reserves at levels that allow us to provide
     received introductory training. In fiscal year 2008,       the resources needed to supervise the national
     23 Lean Six Sigma projects were completed. Key             banking system, build a pipeline of future talent, and
     projects in the Office of Management addressed             prepare for the expiration of our long-term leases.
     the performance management, the contract                      Though fiscal year 2008 has been a year of
     administration, and staffing/recruitment processes.        achievement, the coming year will most likely offer
     In total, our Lean Six Sigma productivity efforts          new and significant challenges. To ensure we are
     allowed us to better serve our customers and               ready to meet those challenges, we will continue
     generated more than $2.3 million in savings as             to seek out the latest trends and best practices
     reported on the Office of Management “Balanced             associated with financial management. To ensure we
     Scorecard.” While this program focuses on                  maintain the capabilities required to safeguard the
     improving overall administrative productivity, it          OCC’s assets diligently, I would like to repeat my
     also empowers our staff to continuously improve the        commitment from last year—to ensure we have the
     processes that affect their working conditions.            finest people and resources dedicated to managing
        Along with a strong internal control environment,       and monitoring the effective and efficient use of
     the agency’s financial condition remains sound. The        agency funds.
     structure of our balance sheet and annual operating
     budget has been influenced greatly by the influx of
     assets into the national banking system over the past
     five years. The increase in bank assets supervised            Thomas R. Bloom
     has required the OCC to respond with corresponding
                                                                   Chief Financial Officer


46                                                 Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
Historical Perspective                                      Operating Strategy
   For the past few years, the Office of                       The FM operating strategy is shown in Figure
Management’s Financial Management department                15. The strategy focuses on FM’s most important
(FM) has focused on delivering the best in customer         business objectives, which include operating a
service, stewardship of agency resources, and               robust process improvement program. As part of
continuous process improvement. FM strove to                the department’s efforts to improve management of
promote a strong internal control environment, gain         financial systems, FM used Lean Six Sigma as the
experience and expertise in continuous business             chosen tool for business process improvement.
process improvement, and develop a strong pipeline             Additional accomplishments include:
of present and future leaders to ensure continued
                                                            • Improving financial systems and their
progress for the department. Last year, FM began
                                                              reporting capabilities.
gathering benchmarking data for the department’s
major functional areas as an initial step toward            • Refining the department’s internal control and
evaluating operations against external organizations          quality assurance program.
that are known for using best practices.                    • Enhancing ongoing employee and leadership
                                                              development efforts.
Strategic Focus
                                                            • Reducing FM costs as a percentage of OCC
   The cornerstone of FM’s 2008 strategy is                   planned operating costs.
continuous improvement of business processes.
FM focused heavily on staff and leadership
                                                                             Figure 15: FM Operating Strategy
development, and on increasing employee
engagement as measured through the Gallup Q-12                                               Customer Satisfaction
Employee Engagement Survey. All department
initiatives relied heavily on the voice of customers
who are directly affected by FM processes, and


                                                                                                                    Tec
                                                                                             ols
process improvements were measured by increased

                                                                                                                     hn
                                                                                            ntr




                                                                                                                      olo
                                                                                        Co




                                                                                                                          gy
                                                                                                    Process
quality, cost savings, and increased capacity.
                                                                                       al




                                                                                                                          Str
                                                                                      ern




                                                                                                  Improvement



                                                                                                                            ate
                                                                                  Int




                                                                                                                               gy
Strategic Goals
                                                              Highly Skilled People                Data Integrity                   Leadership Skills
   FM’s goal is to be an efficient organization
that reflects:                                              Source: OCC.

• An engaged workforce committed to the business
  strategy of operational excellence.
• A solid understanding of customer needs
  and expectations.
• Efficient processes that take advantage of
  system capabilities.
• A focus on developing staff competencies for the
  evolving organization.
• Optimized costs in delivering products
  and services.




December 2008                                          Section Four Financial Management Discussion and Analysis                                        47
     Balanced Scorecard                                                    annual customer satisfaction survey. FM engaged
                                                                           in ongoing dialogue with key customers and
        The FM Balanced Scorecard contains
                                                                           significantly improved the department’s presence
     performance measures and initiatives in four
                                                                           on the agency’s intranet. FM published a series of
     perspectives: financial, customer, internal processes,
                                                                           targeted newsletters and improved coordination and
     and learning and growth. The FM Balanced
                                                                           review processes for communicating information to
     Scorecard is a framework that translates strategy
                                                                           the agency with timeliness and clarity. In August
     into measurement.
                                                                           2008, FM participated again in the annual Office
        The financial management perspective contains
                                                                           of Management OCC-wide customer satisfaction
     performance measures to ensure that FM is
                                                                           survey. FM management and staff will use the
     providing the best value to the OCC. In fiscal year
                                                                           results of this year’s survey to plan customer-
     2008, FM continued the three-year trend of lower
                                                                           focused initiatives in fiscal year 2009 and later.
     costs relative to the OCC planned operating costs, as
                                                                              The internal processes perspective ensures that
     reflected in Figure 16.
                                                                           FM focuses on improving processes that are most
                                                                           critical to achieving business goals. FM processes
        Figure 16:	 FM Costs as Percent of OCC Planned
                    Operating Budget (in Millions)
                                                                           that had known inefficiencies, especially for
                                                                           customers, received the most attention and effort
        $800                                                       3.00%   this year. During 2008, the department enhanced
        $700    2.47%                                 $676
                                                                           the process improvement program to incorporate
                                        $617
                                                                   2.50%   the concept of continuous improvement into the
        $600                                                               FM culture.
                            $535
                 $486
                                                                   2.00%      The learning and growth perspective ensures
        $500
                            1.83%
                                                                           that FM identifies the critical staff skills needed
        $400
                                       1.59%
                                                                   1.50%   to achieve business goals and that management
                                                     1.46%                 works with staff to ensure that those skills are
        $300
                                                                   1.00%   fully developed. Each unit in FM continued
        $200                                                               working on Gallup Q-12 employee engagement
                                                                   0.50%   survey action plans, and the department focused
        $100
                                                                           on developing the next generation of leaders. FM
        $ 0                                                        0%      successfully continued augmenting staff by hiring
                2005        2006        2007          2008
                                                                           undergraduate and graduate-level financial interns
                                         OCC Operating Budget              in fiscal year 2008, an effort that brings current
                                         FM Costs as Percent of Budget
                                                                           learning in various disciplines and a fresh new
     Source: OCC data for fiscal years 2005–2008.                          perspective into the work environment. FM also
                                                                           continued to hire recent college graduates into the
                                                                           entry-level professional program, which is designed
        The customer perspective ensures customers
                                                                           to develop the next generation of leaders in financial
     are identified and their needs and expectations are
                                                                           management.
     met. During fiscal year 2008, FM carried out a
     customer service action plan that used valuable input
     received from OCC customers through the 2007




48                                                                                                     Fiscal Year 2008 Annual Report
Looking Forward                                          Assets
   FM will continue to focus on achieving strategic         The OCC’s assets include both “entity” and “non-
business goals and to measure progress by using          entity” assets. The OCC uses entity assets, which
the Balanced Scorecard and Lean Six Sigma. The           belong to the agency, to fund operations. The OCC
department will continue benchmarking performance        earns revenue through the collection of assessments
through key business metrics. Recognizing that           from national banks and from other income,
financial management and financial reporting             including interest on investments in U.S. Treasury
are much more than the mechanics of transaction          securities. Non-entity assets are assets that the OCC
processing and financial statement preparation,          holds on behalf of another federal agency or other
the department will continue to explore the              third party. The OCC’s non-entity assets are civil
latest business models including digitization            money penalties due the federal government through
and e-commerce. Finally, the department will             court-enforced legal actions. Once collected, the
continue to focus on modernizing internal controls       OCC transfers these amounts to the General Fund of
and ensuring the agency is current on financial          the U.S. Treasury.
management and accounting policies.                         As of September 30, 2008, total assets were
                                                         $983.2 million, an increase of $101.7 million or 11.5
Financial Highlights                                     percent from the level at September 30, 2007. This
                                                         increase is primarily attributable to the changes in
Overview
                                                         investments and accrued interest. The increase of
   The OCC received an unqualified opinion on our        $90.2 million in investments and accrued interest
fiscal years 2008 and 2007 financial statements.         resulted from a rise in assessment collections during
The financial statements consist of Balance Sheets,      fiscal year 2008. Figure 17 shows the composition
Statements of Net Cost, Statements of Changes            of the OCC’s assets.
in Net Position, and Statements of Budgetary
Resources. The OCC presents the financial
                                                              Figure 17: Composition of Assets (in Millions)
statements and notes on a comparative basis,
providing financial information for fiscal years 2008       $1,000
                                                             $900
and 2007. These financial statements were prepared                   $908.6
                                                             $800
from the OCC’s accounting records in conformity              $700
                                                                                                  $818.4

with the generally accepted accounting principles for        $600
U.S. federal agencies (federal GAAP). The financial          $500
                                                             $400
statements, notes, and auditor’s opinion begin
                                                             $300
on page 54. A summary of the OCC’s financial                 $200
activities in fiscal years 2008 and 2007 follows.            $100             $71.1                        $54.9
                                                                                        $3.5                            $8.2
                                                               $0
                                                                         Fiscal Year 2008              Fiscal Year 2007
                                                                                               Investments and Accrued Interest
                                                                                               Property and Equipment
                                                                                               Other

                                                         Source: OCC data for fiscal years 2008 and 2007.




December 2008                                       Section Four Financial Management Discussion and Analysis                     49
     Liabilities                                                                   Net Position
        The OCC’s liabilities represent the resources                                 The OCC’s net position of $686.1 million as
     due to others or held for future recognition and are                          of September 30, 2008, and $603.6 million as of
     largely comprised of deferred revenue, accrued                                September 30, 2007, represent the cumulative
     liabilities, and accounts payable. Deferred revenue                           net excess of the OCC’s revenues over the cost
     represents the unearned portion of semiannual                                 of operations since inception. This represents an
     assessments that have been collected but not earned.                          increase of $82.5 million, or 13.7 percent. The
     The OCC records a custodial liability for the net                             majority of this increase directly relates to increases
     amount of enforcement-related receivables. Upon                               in assessment revenue over fiscal year 2007. The net
     collection, the OCC transfers these amounts to the                            position is presented on the Balance Sheets and the
     General Fund of the U.S. Treasury.                                            Statements of Changes in Net Position.
        As of September 30, 2008, total liabilities                                   As discussed in the next section, the OCC
     were $297.2 million, an increase of a net of                                  reserves a significant portion of the net position
     $19.3 million, or 6.9 percent, over the level on                              to supplement resources made available to fund
     September 30, 2007. The increase of $8.9 million                              the OCC’s annual budget and to cover foreseeable
     in deferred revenue was a result of a rise in                                 but rare events. The OCC also earmarks funds for
     assessment collections during fiscal year 2008.                               ongoing operations to cover undelivered orders,
     The increase of $11.8 million in accounts payable                             the consumption of assets, and capital investments.
     and accrued liabilities was primarily caused by an                            Figure 19 shows the composition of the OCC’s
     increase in payroll and employee benefits over last                           net position.
     year. Figure 18 illustrates the composition of the
     OCC’s liabilities.                                                                     Figure 19: Composition of Net Position

                                                                                              Fiscal Year 2008           Fiscal Year 2007
         Figure 18: Composition of Liabilities (in Millions)

          $200                                                                                   17%                      18%
          $180
                 $180.3
          $160                                  $171.4
          $140                                                                                            60%                             59%
                                                                                           23%                         23%
          $120
          $100
                          $97.4
           $80                                             $85.6
           $60
           $40                                                                                                               Contingency Reserve

           $20                                                                                                               Ongoing Operations

                                    $19.5                           $20.9
            $0                                                                                                               Asset Replacement

                     Fiscal Year 2008                Fiscal Year 2007
                                        Deferred Revenue
                                                                                   Source: OCC data for fiscal years 2008 and 2007.
                                        Accounts Payable and Accrued Liabilities
                                        Other

     Source: OCC data for fiscal years 2008 and 2007.




50                                                                                                                  Fiscal Year 2008 Annual Report
Reserves                                                  Revenues and Costs
   The establishment of financial reserves is integral       The OCC does not receive appropriations.
to the effective stewardship of the OCC’s resources,      The OCC’s operations are funded primarily by
particularly because the agency does not receive          assessments collected from national banks and
congressional appropriations. The contingency             interest on investments in U.S. Treasury securities.
reserve, into which the OCC incorporated the funds        The Comptroller, in accordance with 12 USC 482,
from the special reserve during fiscal year 2008,         establishes budget authority for a given fiscal year.
serves to reduce the impact on the OCC’s operations       The total budget authority available for use by the
of revenue shortfalls resulting from foreseeable but      OCC in fiscal year 2008 was $749.1 million, which
rare events that are beyond the OCC’s control, or         represents an increase of $77.9 million, or 11.6
new requirements and opportunities. Examples of           percent, over the $671.2 million budget in fiscal
such events include a major change in the national        year 2007.
banking system or a fire, flood, or significant              Total fiscal year 2008 revenue of $736.1 million
impairment to the OCC’s information technology            reflects a $40.7 million, or 5.9 percent, increase
network that interferes with the OCC’s ability to         over fiscal year 2007 revenues of $695.4 million.
accomplish its mission. The asset replacement             The increase is primarily attributable to a rise in
reserve is for the replacement of information             bank assessment revenue stemming from the overall
technology equipment, leasehold improvements,             increase in the assets of the national banking system
and furniture replacement for future years. The           and the growth of investment income from an
OCC establishes the target level in the replacement       expanded investment portfolio. Figure 20 depicts the
reserve annually, based on the gross value of             components of total revenue for fiscal years 2008
existing property and equipment, a growth rate            and 2007.
factor, and other market cost adjustments.
                                                              Figure 20: Components of Total Revenue (in Millions)

                                                                                  Fiscal Year 2008   Fiscal Year 2007   Change
                                                              Assessments                 $ 707.5            $ 666.0       $ 41.5
                                                              Investment Income              26.1               26.6        (0.5)
                                                              Other   1
                                                                                               2.5                2.8       (0.3)
                                                              Total Revenue               $ 736.1            $ 695.4       $ 40.7
                                                          Source: OCC data for fiscal years 2008 and 2007.
                                                          1
                                                            Other sources of revenue include bank licensing fees, revenue received
                                                          from the sale of publications, and other miscellaneous sources.




December 2008                                        Section Four Financial Management Discussion and Analysis                       51
     Bank Assets and Assessment Revenue                                      Cost of Operations
         Total assets under OCC supervision increased                           The OCC’s net cost of operations is reported on
     during fiscal year 2008 to $8.1 trillion from $7.2                      the Statements of Net Cost and the Statements of
     trillion in fiscal year 2007. For fiscal year 2008, 87.9                Changes in Net Position. The OCC uses an activity-
     percent ($7.1 trillion) is attributable to large national               based time reporting system to allocate costs among
     banks. Large banks’ share of total OCC assessment                       the agency’s programs. Costs are further divided
     revenue increased from 68.0 percent to 70.1                             into those resulting from transactions between the
     percent, followed by midsize and community banks                        OCC and other federal entities (intragovernmental)
     decreasing to 26.7 percent, and federal branches up                     and those between the OCC and non-federal entities
     slightly to 3.2 percent. National bank asset growth                     (with the public). The Statements of Net Cost
     combined with the movement of assets into the                           present the full cost of operating the OCC’s three
     national banking system resulted in the higher total                    major programs—supervise, regulate, and charter
     assets of national banks in fiscal year 2008. Figure                    national banks—for the years ended September 30,
     21 shows the composition of national bank assets                        2008, and 2007. Figure 22 illustrates the breakdown
     by large banks, midsize banks, community banks,                         of costs of operations for fiscal years 2008
     and federal branches for fiscal years 2008 and 2007.                    and 2007.

          Figure 21: Composition of National Bank                               Figure 22: Costs of Operations by Major
                     Assets (in Billions)                                                  Program (in Millions)
         $8,000
                                                                                 $600
         $7,000
                  87.9%                                                                  84.0%
                                                                                 $500                                    84.2%
         $6,000
                                               86.3%
         $5,000                                                                  $400
         $4,000                                                                  $300
         $3,000                                                                  $200
         $2,000                                                                                  13.7%                             13.1%
                                                                                 $100
         $1,000           6.7%                          7.5%                                                   2.3%                          2.7%
                                 3.0%   2.4%                   4.2%                $0
                                                                      2.0%
            $0
                          June 2008                    June 2007                            Fiscal Year 2008                 Fiscal Year 2007
                                                                                                                                 Supervise
                                                Large                                                                            Regulate
                                                Community                                                                        Charter
                                                Midsize
                                                Federal Branches             Source: OCC data for fiscal years 2008 and 2007.

     Source: OCC data as of June 30 for fiscal years 2008 and 2007.
                                                                                The full cost presented in the Statements of Net
                                                                             Cost includes contributions made by the Office of
     Investments                                                             Personnel Management (OPM) on behalf of the
        The book value of the OCC’s portfolio on                             OCC to cover the cost of the Federal Employees
     September 30, 2008, was $904.7 million, compared                        Retirement System and Civil Service Retirement
     with $814.3 million a year earlier. The OCC invests                     System retirement plans, totaling $25.8 million in
     available funds in non-marketable U.S. Treasury                         fiscal year 2008 and $26.4 million in fiscal year
     securities issued through the Department of the                         2007. Fiscal year 2008 total program costs of $679.5
     Treasury’s Bureau of Public Debt in accordance                          million reflect an increase of $42.9 million from
     with the provisions of 12 USC 481 and 12 USC 192.                       $636.6 million in fiscal year 2007. The increase
     The increase in investments of $90.4 million during                     was primarily because of pay and benefits resulting
     the fiscal year reflects the investment of increased                    from a 2.6 percent increase to full time equivalents
     assessment revenue and the interest on investments                      of 3,030.8 in fiscal year 2008 from 2,955.1 in fiscal
     held in the portfolio. The portfolio earned an annual                   year 2007, and additions to the benefit programs.
     yield for 2008 of 3.8 percent. The OCC calculates                       Additional contributing factors include increases
     annual portfolio yield by dividing the total interest                   to contractual services supporting maintenance and
     earned during the year by the average ending                            non-capitalized information technology investments
     monthly book value of investments.                                      and imputed costs.

52                                                                                                                    Fiscal Year 2008 Annual Report
   The full cost is reduced by earned revenues to            Budgetary Resources
arrive at net cost. Earned revenues increased by
                                                                As previously discussed, the OCC receives the
$40.7 million because of an increase in fiscal year
                                                             majority of our funding from assessment revenue
2008 bank assessments that was slightly offset by
                                                             earned and investment income. The Statements
minor decreases in other revenues. The increases in
                                                             of Budgetary Resources, designed primarily for
assessments are a direct result of bank asset growth
                                                             appropriated fund activities, present the budgetary
in the national banking system, particularly the
                                                             resources available to the OCC for the year, the
largest banks. The influx of assets into the national
                                                             status of these resources at the end of the year, and
banking system has increased the OCC assessment
                                                             the net outlay of budgetary resources at the end of
revenue. Correspondingly, the costs of supervising
                                                             the year. The OCC, which is a non-appropriated
the national banks have risen because of the
                                                             agency, executed $672.8 million or 89.8 percent of
increasing size and complexity of national
                                                             the fiscal year 2008 budget of $749.1 million, with
bank assets.
                                                             the remaining funding being applied to the asset
                                                             replacement and contingency reserves.




December 2008                                           Section Four Financial Management Discussion and Analysis    53
     Financial Statements

                                 Office of the Comptroller of the Currency
                                               Balance Sheets
                                         As of September 30, 2008 and 2007

                                                                     Fiscal Year 2008            Fiscal Year 2007
     Assets
     Intragovernmental:
      Fund balance with Treasury                                         $     1,762,698            $     6,762,090
      Investments and related interest (Note 2)                              908,556,217                818,361,022
      Advances and prepayments                                                    64,815                     82,904
     Total intragovernmental                                                 910,383,730                825,206,016

      Cash                                                                        11,633                     11,944
      Accounts receivable, net                                                 1,709,611                  1,347,977
      Property and equipment, net (Note 3)                                    71,089,891                 54,882,947
      Advances and prepayments                                                    46,057                     24,193

     Total assets                                                        $ 983,240,922              $ 881,473,077


     Liabilities
     Intragovernmental:
      Accounts payable and other accrued liabilities                     $     3,367,868            $     2,019,543
     Total intragovernmental                                                   3,367,868                  2,019,543

      Accounts payable                                                         8,935,460                  7,251,284
      Accrued payroll and benefits                                            26,695,083                 22,677,144
      Accrued annual leave                                                    32,681,026                 29,996,291
      Other accrued liabilities                                               25,763,750                 23,671,832
      Deferred revenue                                                       180,283,755                171,380,008
      Other actuarial liabilities (Note 5)                                    19,458,735                 20,882,737
      Total liabilities                                                      297,185,677                277,878,839

      Net position (Note 6)                                                  686,055,245                603,594,238

     Total liabilities and net position                                  $ 983,240,922              $ 881,473,077




     The accompanying notes are an integral part of these financial statements.

54                                                Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
                            Office of the Comptroller of the Currency
                                     Statements of Net Cost
                          For the Years Ended September 30, 2008 and 2007


                                                                Fiscal Year 2008       Fiscal Year 2007
Program Costs

 Supervise National Banks
 Intragovernmental                                                 $  80,246,924          $  74,331,808
 With the Public                                                     490,310,368            462,006,442
 Subtotal - Supervise National Banks                               $ 570,557,292          $ 536,338,250

 Regulate National Banks
 Intragovernmental                                                 $   13,092,698         $   11,790,685
 With the Public                                                       80,323,998             71,519,547
 Subtotal - Regulate National Banks                                $   93,416,696         $   83,310,232

 Charter National Banks
 Intragovernmental                                                 $    2,290,338         $    2,462,667
 With the Public                                                       13,189,237             14,513,285
 Subtotal - Charter National Banks                                 $   15,479,575         $   16,975,952

Total Program Costs                                                $ 679,453,563          $ 636,624,434
 Less: Earned Revenues Not Attributed to Programs                   (736,142,091)          (695,443,263)

Net Cost of Operations (Note 7)                                    $ (56,688,528)          $ (58,818,829)




The accompanying notes are an integral part of these financial statements.

December 2008                                      Section Four Financial Management Discussion and Analysis   55
                                 Office of the Comptroller of the Currency
                                  Statements of Changes in Net Position
                               For the Years Ended September 30, 2008 and 2007


                                                             Fiscal Year 2008                  Fiscal Year 2007

     Beginning Balances                                         $ 603,594,238                     $ 518,356,458

     Other Financing Sources:
     Imputed financing (Note 8)                                     25,772,479                        26,418,951

     Net Cost of Operations                                         56,688,528                        58,818,829

     Net Change                                                     82,461,007                        85,237,780

     Ending Balances                                            $ 686,055,245                     $ 603,594,238




     The accompanying notes are an integral part of these financial statements.

56                                                Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
                            Office of the Comptroller of the Currency

                               Statements of Budgetary Resources

                          For the Years Ended September 30, 2008 and 2007


                                                             Fiscal Year 2008         Fiscal Year 2007
Budgetary Resources
Unobligated balance, brought forward, October 1               $    667,660,982         $    597,772,320
Spending authority from offsetting collections
 Earned
 Collected                                                         740,544,477              707,929,667
 Receivable from Federal sources                                      (132,564)                 392,256
 Subtotal                                                          740,411,913              708,321,923

Total Budgetary Resources                                     $ 1,408,072,895          $ 1,306,094,243

Status of Budgetary Resources
Obligations incurred                                          $    673,715,700         $    638,433,261
Unobligated balance available                                      734,357,195              667,660,982

Total Status of Budgetary Resources                           $ 1,408,072,895          $ 1,306,094,243

Change in Obligated Balance
Obligated balance, net, beginning of period
 Unpaid obligations brought forward, October 1                $    151,721,328         $    117,900,706
 Uncollected customer payments from
     Federal sources, October 1                                     ( 4,036,718)             (3,644,462)
Total unpaid obligated balance, net                                147,684,610              114,256,244

 Obligations incurred                                              673,715,700              638,433,261
 Gross outlays                                                    (659,869,422)            (604,612,639)
 Change in uncollected customer payments from
     Federal sources                                                   132,565                 (392,256)
 Obligated balance, net, end of period
 Unpaid obligations                                                165,567,607              151,721,328
 Uncollected customer payments from
      Federal sources                                               (3,904,154)              (4,036,718)
 Obligated balance, net, end of period                             161,663,453              147,684,610
 Net outlays
 Gross outlays                                                $    659,869,422         $    604,612,639
 Offsetting collections                                           (740,544,477)            (707,929,667)

Net Outlays                                                    $ (80,675,055)          $ 103,317,028)




The accompanying notes are an integral part of these financial statements.

December 2008                                       Section Four Financial Management Discussion and Analysis   57
     Notes to the Financial Statements                       been eliminated. Should amounts become material
                                                             in the future, the Statements of Custodial Activity
     Note 1—Significant Accounting Policies                  will be included in the OCC’s financial statement
     A. Reporting Entity                                     presentation.
                                                                Per OMB’s authority under the Statement of
        The OCC was created as a bureau within the U.S.      Federal Financial Accounting Standards (SFFAS)
     Department of the Treasury by an act of Congress        No. 7, “Accounting for Revenue and Other
     in 1863. The mission of the OCC was to establish        Financing Sources and Concepts for Reconciling
     and regulate a system of federally chartered national   Budgetary and Financial Accounting,” the
     banks. The National Currency Act of 1863, rewritten     Statement of Financing was eliminated as a
     and reenacted as the National Bank Act of 1864,         basic statement effective in fiscal year 2007. The
     authorized the OCC to supervise national banks and      Statement of Financing data are presented in Note 9,
     to regulate the lending and investment activities of    Reconciliation of Net Cost of Operations to Budget.
     federally chartered institutions.                          The financial statements reflect both the accrual
        The financial statements report on the OCC’s         and budgetary bases of accounting. Under the
     three major programs: supervise, regulate, and          accrual method, revenues are recognized when
     charter national banks. These programs support          earned, and expenses are recognized when a
     the OCC’s overall mission by ensuring the safety        liability is incurred, without regard to cash receipt
     and soundness of the national banking system;           or payment. The budgetary method recognizes the
     fostering a flexible legal and regulatory framework     obligation of funds according to legal requirements,
     that enables the national banking system to provide     which in many cases is made prior to the occurrence
     a full, competitive array of financial services; and    of an accrual-based transaction. Budgetary
     promoting fair access to financial services and fair    accounting is essential for compliance with legal
     treatment of bank customers.                            constraints and controls over the use of federal
                                                             funds.
     B. Basis of Accounting and Presentation                    In accordance with federal GAAP, the preparation
        The accompanying financial statements present        of financial statements requires management to
     the operations of the OCC. The OCC’s financial          make estimates and assumptions that affect the
     statements are prepared from the agency’s               reported amounts of assets and liabilities, the
     accounting records in conformity with the generally     disclosure of contingent assets and liabilities at the
     accepted accounting principles for United States        date of the financial statements, and the reported
     federal agencies (federal GAAP) and are presented       amounts of revenue and expenses during the
     in accordance with the form and content guidelines      reporting period. Such estimates and assumptions
     established by the Office of Management and             could change in the future as more information
     Budget (OMB) in Circular A-136, “Financial              becomes known, which could affect the amounts
     Reporting Requirements.”                                reported and disclosed herein.
        The OCC’s financial statements consist of               Throughout these financial statements,
     Balance Sheets, Statements of Net Cost, Statements      intragovernmental assets, liabilities, earned
     of Changes in Net Position, and Statements of           revenues, and costs have been classified according
     Budgetary Resources. The OCC presents the               to the entity responsible for these transactions.
     financial statements on a comparative basis,            Intragovernmental earned revenues are collections or
     providing information for fiscal years 2008 and         accruals of revenue from other federal entities, and
     2007. In previous years, the OCC’s financial            intragovernmental costs are payments or accruals of
     statements also included the Statements of Custodial    expenditures to other federal entities.
     Activity. However, as the amounts for fiscal years
     2008 and 2007 are immaterial, these statements have




58                                                                                       Fiscal Year 2008 Annual Report
C. Revenues and Other Financing Sources                  E. Fund Balance with Treasury
   The OCC derives revenue primarily from                   The Department of the Treasury processes the
assessments and fees paid by national banks              OCC’s cash receipts and disbursements. Sufficient
and income on investments in U.S. Treasury               funds are maintained in a U.S. government trust
securities. The OCC does not receive congressional       revolving fund and are available to pay current
appropriations to fund any of the agency’s               liabilities. The OCC invests available funds in non-
operations. Therefore, the OCC does not have any         marketable U.S. Treasury securities (Note 2). In
unexpended appropriations.                               accordance with SFFAS No. 1, “Accounting for
   By federal statute 12 USC 481, the OCC’s funds        Selected Assets and Liabilities,” the OCC has the
are maintained in a U.S. government trust revolving      positive intent and ability to hold these securities
fund. The funds remain available to cover the annual     until maturity.
costs of the OCC’s operations in accordance with            The OCC’s Statements of Budgetary Resources
policies established by the Comptroller.                 reflect the status of the Fund Balance with Treasury.
                                                         It consists of the unobligated balance amount of
D. Earmarked Funds                                       $734.4 million at September 30, 2008, and $667.7
   Earmarked funds are financed by specifically          million at September 30, 2007, which is included
identified revenues, often supplemented by other         in the OCC’s net investment balance of $894.2
financing sources, which remain available over           million for fiscal year 2008 and $808.6 million for
time. These specifically identified revenues and         fiscal year 2007, and the obligated balances not
other financing sources are required by statute          yet disbursed (e.g., undelivered orders) of $161.7
to be used for designated activities, benefits, or       million for fiscal year 2008 and $147.7 million
purposes, and must be accounted for separately from      for fiscal year 2007. These balances reflect the
the government’s general revenues. In accordance         budgetary authority remaining for disbursements
with Federal Accounting Standards Advisory               against current or future obligations.
Board SFFAS No. 27, “Identifying and Reporting
Earmarked Funds,” all of the OCC’s revenue meets         F. Accounts Receivable
this criterion and constitutes an earmarked fund.           As presented in the OCC’s Balance Sheets,
   The federal government does not set aside             accounts receivable represent monies owed,
assets to pay future benefits or other expenditures      primarily due from the public, for services and
associated with earmarked funds. Treasury                goods provided that will be retained by the OCC
securities are an asset to the OCC and a liability to    upon collection. Also included are civil money
the U.S. Treasury. Because the OCC and the U.S.          penalty (CMP) amounts assessed against people
Treasury are both parts of the federal government,       or banks for violations of law, regulation, and
the corresponding assets and liabilities offset one      orders; unsafe or unsound practices; and breaches of
another from the standpoint of the government as         fiduciary duty. When collected, these CMP amounts
a whole. For this reason, they do not represent an       are transferred to the Treasury General Fund. CMP
asset or a liability in the U.S. government-wide         collections totaled $25.3 million at September 30,
financial statements.                                    2008, and $12.7 million at September 30, 2007.
   Treasury securities provide the OCC with                 In accordance with SFFAS No. 1, “Accounting
authority to draw upon the U.S. Treasury to make         for Selected Assets and Liabilities,” the OCC
future payments or expenditures. When the OCC            updates the allowance for loss on accounts
requires redemption of these securities to make          receivable account annually or as needed to reflect
expenditures, the government finances those              the most current estimate of accounts that are likely
expenditures from accumulated cash balances, by          to be uncollectible. Accounts receivable from the
raising taxes or other receipts, by borrowing from       public are reduced by an allowance for loss on
the public or repaying less debt, or by curtailing       doubtful accounts.
other expenditures. This is the same way that the           The OCC’s practice has been to reserve 50
government finances all other expenditures.              percent of outstanding receivable balances between
                                                         180 and 365 days delinquent and 100 percent

December 2008                                       Section Four Financial Management Discussion and Analysis    59
     for outstanding balances greater than 365 days             Accrued Annual Leave
     delinquent. Since CMPs are not debts due the                The OCC accounts for liabilities in accordance
     OCC, the amount outstanding does not enter into          with SFFAS No. 5, “Accounting for Liabilities
     the calculation for the allowance. In addition,          of the Federal Government.” In accordance with
     debts owed by other government entities and              SFFAS No. 5, annual leave is accrued and funded
     interest receivable on investments in U.S. Treasury      by the OCC as it is earned, and the accrual is
     securities are considered collectible, and therefore     reduced as leave is taken or paid. Each year, the
     also do not enter into the calculation for the           balance in the accrued annual leave account is
     allowance. The balance in the OCC’s allowance for        adjusted to reflect actual leave balances with current
     loss on accounts receivable account was $1,079 at        pay rates. Sick leave and other types of leave are
     September 30, 2008, and $2,374 at September 30,          expended as taken.
     2007.
                                                                Deferred Revenue
     G. Advances and Prepayments                                 The OCC’s activities are primarily financed
        Payments in advance for receipt of goods and          by assessments on assets held by national banks
     services are recognized as advances or prepayments       and the federal branches of foreign banks. These
     and are reported as assets on the Balance Sheets.        assessments are due March 31 and September 30
                                                              of each year, based on asset balances as reflected
     H. Property and Equipment                                on call reports dated December 31 and June 30,
                                                              respectively. Assessments are paid in mid-cycle and
        Property, equipment, and internal use software        are recognized as earned revenue on a straight-line
     (Note 3) are accounted for in accordance with            basis over the six months following the call report
     SFFAS No. 6, “Accounting for Property, Plant, and        date. The unearned portions of collected assessments
     Equipment,” and SFFAS No. 10, “Accounting for            are classified as deferred revenue.
     Internal Use Software.”
        Property and equipment purchases and additions          Civil Money Penalties
     are stated at cost. The OCC expenses acquisitions           The custodial liability amount of $1.7 million
     that do not meet the capitalization criteria, such       recognized represents the amount of accounts
     as normal repairs and maintenance, when they are         receivable that, when collected, will be deposited to
     received or incurred.                                    the Treasury General Fund. Included in the custodial
        In addition, property and equipment are               liability are amounts collected for fines, CMPs, and
     depreciated over their estimated useful lives            related interest assessments.
     using the straight-line method. They are removed            The SFFAS No. 12, “Recognition of Contingent
     from the OCC’s asset accounts in the period of           Liabilities Arising from Litigation,” defines a
     disposal, retirement, or removal from service. Any       contingency as an existing condition, situation, or
     difference between the book value of the property        set of circumstances that involves an uncertainty
     and equipment and amounts realized is recognized         as to possible gain or loss. The uncertainty will be
     as a gain or loss in the same period that the asset is   resolved when one or more future events occur or
     removed.                                                 fail to occur. The OCC recognizes contingencies as
                                                              liabilities when past events or exchange transactions
     I. Liabilities                                           occur, a future loss is probable, and the loss amount
       Accounts Payable                                       can be reasonably estimated. For fiscal years 2008
        Liabilities represent the amounts owed or accrued     and 2007, the OCC neither identified nor recognized
     under contractual or other arrangements governing        any such contingent liabilities.
     the transactions, including operating expenses
     incurred but not paid. Payments are made in a timely     J. Employment Benefits
     manner in accordance with the Prompt Payment Act.          Retirement Plan
     Interest penalties are paid when payments are late.         OCC employees are eligible to participate in
     Discounts are taken when cost-effective, and the         either the Civil Service Retirement System or the
     invoice is paid within the discount period.

60                                                                                        Fiscal Year 2008 Annual Report
Federal Employees Retirement System, depending                and Federal Employees Group Life Insurance plans
on when they were hired by the federal government.            that involve a cost sharing of bi-weekly coverage
Pursuant to the enactment of Public Law 99-335,               premiums by employee and employer. The Office of
which established the Federal Employees Retirement            Personnel Management (OPM) administers both of
System, most employees hired after December                   these employee benefit plans.
31, 1983, are automatically covered by Federal
Employees Retirement System and Social Security.              K. Effects of Recent Accounting Pronouncements
Employees hired prior to January 1, 1984, are                    The OCC’s benefits program includes a
covered by the Civil Service Retirement System,               Postretirement Life Insurance Plan, a defined
with the exception of those who, during the election          benefit program not typically offered within the
period, joined the Federal Employees Retirement               federal government and therefore not addressed
System.                                                       by accounting standards issued by the Federal
                                                              Accounting Standards Advisory Board. For this
  Thrift Savings Plan
                                                              program, the OCC follows Financial Accounting
   OCC employees are eligible to participate in the           Standards Board Statement of Financial Accounting
federal Thrift Savings Plan. For those employees              Standard (SFAS) No. 106, “Employers’ Accounting
under the Federal Employees Retirement System,                for Postretirement Benefits Other Than Pensions.”
a Thrift Savings Plan account is automatically                As a result, the OCC implemented SFAS 158,
established, and the OCC contributes a mandatory              “Employer’s Accounting for Defined Benefit
1.0 percent of base pay to this account. In addition,         Pension and Other Postretirement Plans” in fiscal
the OCC matches employee contributions up to an               year 2007. This standard requires an employer to
additional 4.0 percent of pay, for a maximum OCC              recognize the overfunded or underfunded status of
contribution of 5.0 percent of base pay.                      a defined benefit postretirement plan (other than a
                                                              multi-employer plan) as an asset or liability in the
  OCC 401(k) Plan
                                                              Statement of Financial Position and to recognize
   In addition to the federal Thrift Savings Plan,            changes in that funded status in the year in which
employees can elect to contribute up to 10.0                  the changes occur. Implementation of this standard
percent of their base pay in the OCC 401(k) Plan              resulted in an increase to the OCC’s liability of $3.1
administered by Prudential Financial Incorporated,            million in fiscal year 2007 for the funded portion, in
subject to Internal Revenue Service regulations.              accordance with the actuarial estimate.
Currently, the OCC contributes a fixed 2.0                       In addition, no new accounting pronouncements
percent of the base pay to the plan for all qualified         issued during fiscal year 2008 affected the OCC.
employees, regardless of whether they contribute
to the plan or not. In addition, the OCC will match
an additional 1.0 percent employee contribution,
                                                              Note 2—Investments and Related Interest
for a maximum OCC contribution of 3.0 percent of                 The OCC invests available funds in non-
base pay. In both fiscal years 2008 and 2007, the             marketable U.S. Treasury securities and has the
OCC funded a special lump sum contribution of                 positive intent and ability to hold all U.S. Treasury
$1,000 to be deposited in the 401(k) accounts of all          securities to maturity. It does not maintain any
permanent employees. The OCC contracted with an               available-for-sale or trading securities. The OCC
independent public accounting firm to perform an              manages risk by diversifying the agency’s portfolio
audit of the plan and related financial statements for        across maturities within established parameters.
the year ended December 31, 2007. The financial               Diversifying maturities of the individual securities
statements for the plan received an unqualified               is meant to help manage the inherent risk of
opinion.                                                      interest rate fluctuations. As part of the agency’s
                                                              investment strategy, the OCC evaluates, at least
  Federal Employees Health Benefits and Federal               annually, performance benchmarks with objectives
Employees Group Life Insurance                                and holdings comparable to those within the OCC’s
   Employees and retirees of the OCC are eligible             investment portfolio.
to participate in Federal Employees Health Benefits

December 2008                                            Section Four Financial Management Discussion and Analysis     61
        Investments are stated at amortized cost and the                   in the portfolio during the reporting period, was 7.0
     related accrued interest. Premiums and discounts                      percent and 6.2 percent, respectively. The overall
     are amortized over the term of the investment                         portfolio earned an annual yield of 3.8 percent for
     using the effective yield method. The fair market                     fiscal year 2008 and 4.4 percent for fiscal year 2007.
     value of investment securities was $922.2 million                        The yield-to-maturity on the non-overnight
     at September 30, 2008, and $815.9 million at                          portion of the OCC’s investment portfolio ranged
     September 30, 2007. The total return on the OCC’s                     from 1.5 percent to 4.7 percent in fiscal year
     portfolio, which includes income from interest and                    2008, and from 2.9 percent to 4.9 percent in fiscal
     the change in the market value of the securities held                 year 2007.

     Investments and Related Interest
                                                                                    Amortized
                                                               Amortization        (Premium)/                           Market Value
      Intragovernmental Securities            Cost               Method             Discount         Investments, Net    Disclosure

                                                               Fiscal Year 2008

      Non-Marketable Market-Based           $ 908,441,786        Effective Yield     $ (3,724,908)      $ 904,716,878    $ 922,247,855

      Accrued Interest                         3,839,339                                        0           3,839,339        3,839,339

      Total Intragovernmental Investments   $ 912,281,125                           $ (3,724,908)        $908,556,217    $ 926,087,194



                                                               Fiscal Year 2007

      Non-Marketable Market-Based           $ 815,967,809        Effective Yield     $ (1,643,505)      $ 814,324,304    $ 815,902,463

      Accrued Interest                         4,036,718                                        0           4,036,718        4,036,718

      Total Intragovernmental Investments   $ 820,004,527                           $ (1,643,505)       $ 818,361,022    $ 819,939,181




62                                                          Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
Note 3—Property and Equipment, Net                                      or amortized, as applicable, on a straight-line basis
                                                                        over their estimated useful lives.
   Property and equipment purchased at a cost
                                                                           For fiscal year 2008, per SFFAS No. 6,
greater than or equal to the noted thresholds
                                                                        “Accounting for Property, Plant and Equipment,”
below with useful lives of three years or more are
                                                                        the OCC reported $4.9 million of fully depreciated
capitalized at cost and depreciated or amortized, as
                                                                        assets removed from service and recognized a loss
applicable. Leasehold improvements are amortized
                                                                        of $54,057 on the disposal of other assets.
on a straight-line basis over the lesser of the terms
                                                                           The following figure summarizes property and
of the related leases or their estimated useful lives.
                                                                        equipment balances as of September 30, 2008, and
All other property and equipment are depreciated
                                                                        2007.
Property and Equipment, Net
                                    Capitalization Threshold/                                   Accumulated
 Class of Assets                           Useful Life                          Cost            Depreciation       Net Book Value

                                                        Fiscal Year 2008

 Leasehold Improvements               $ 50,000                   5-20          $ 44,585,541       $ (24,255,659)      $ 20,329,882

 Equipment                            $ 50,000                   3-10            25,896,127         (17,731,089)         8,165,038

 Internal Use Software                $500,000                     5             57,707,853         (36,410,965)        21,296,888

 Internal Use Software-Dev            $500,000                    N/A            13,570,654                    –        13,570,654

 Leasehold Improvements-Dev           $ 50,000                    N/A              7,727,429                   –         7,727,429

 Total                                                                         $ 149,487,604      $ (78,397,713)       $ 71,089,891



                                                         Fiscal Year 2007

 Leasehold Improvements               $ 50,000                   5-20          $ 28,480,815       $ (21,989,589)       $ 6,491,226

 Equipment                            $ 50,000                   3-10            26,941,592         (18,213,271)         8,728,321

 Internal Use Software                $500,000                     5             39,922,748         (27,290,315)        12,632,433

 Internal Use Software-Dev            $500,000                    N/A            22,583,709                    –        22,583,709

 Leasehold Improvements-Dev           $ 50,000                    N/A              4,447,258                   –         4,447,258

 Total                                                                         $ 122,376,122      $ (67,493,175)       $ 54,882,947




December 2008                                                   Section Four Financial Management Discussion and Analysis             63
     Note 4—Leases
        The OCC leases office space for headquarters                           as current leases expired. These leases are treated
     operations in Washington, D.C., and for district                          as operating leases. All annual lease costs under the
     and field operations. The lease agreements expire                         operating leases are included in the Statements of
     at various dates. In fiscal year 2008, the OCC                            Net Cost.
     entered into five new lease occupancy agreements                             Under existing commitments, the minimum
     that ranged between 65 and 120 months in various                          yearly lease payments through fiscal year 2014 and
     locations throughout the continental United States                        thereafter are illustrated in the following figure:

                        Future Lease Payments
                                          Fiscal Year 2008                                    Fiscal Year 2007
                          Year                                    Amount       Year                                   Amount
                          2009                               $ 34,838,102      2008                              $ 29,064,300
                          2010                                  33,701,893     2009                                28,735,823
                          2011                                  27,858,269     2010                                27,189,128
                          2012                                  15,579,300     2011                                21,338,482
                          2013                                  12,480,836     2012                                 9,068,922
                          2014 and Beyond                       52,613,662     2013 and Beyond                     18,780,610
                          Total                              $177,072,062      Total                             $134,177,265


     Note 5—Other Actuarial Liabilities
        OCC’s other actuarial liabilities are reported on
     the Balance Sheets and include the components as
     shown in the following figure:

                  Actuarial Liabilities Category
                   Component                                                           Fiscal Year 2008          Fiscal Year 2007

                   Federal Employee’s Compensation Act (FECA)                             $ 2,380,482               $ 3,418,308

                   Postretirement Life Insurance Benefits                                   17,078,253                17,464,429

                   Total Actuarial Liabilities                                            $ 19,458,735              $ 20,882,737




64                                                                Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
Federal Employee’s Compensation Act
   The FECA provides income and medical cost                                  service cost. The weighted-average discount rate
protection to cover federal civilian employees                                used in determining the accumulated postretirement
injured on the job, employees who have incurred a                             benefit obligation was 6.5 percent. Gains or losses
work-related occupational disease, and beneficiaries                          owing to changes in actuarial assumptions are
of employees whose death is attributable to                                   amortized over the service life of the plan. Because
a job-related injury or occupational disease.                                 the OCC’s liability experience, including changes in
Claims incurred for benefits for OCC employees                                assumptions, has been favorable, the accumulated
covered under FECA are administered by the                                    SFAS 158 charge has dropped to $1.3 million,
U.S. Department of Labor and later billed to the                              resulting in a reduction of $1.8 million to the funded
OCC. The fiscal year 2008 present value of these                              status adjustment for fiscal year 2008. The actuarial
estimated outflows are calculated using a discount                            assumptions and methods used in calculating
rate of 4.4 percent in the first year and 4.8 percent in                      actuarial amounts comply with the requirements for
subsequent years.                                                             postretirement benefits other than pensions as set
                                                                              forth in SFAS No. 106, “Employers’ Accounting for
Postretirement Life Insurance Benefits                                        Postretirement Benefits Other Than Pensions,” and
   The OCC sponsors a life insurance benefit plan                             for health benefit plans as set forth in the American
for current and retired employees. This plan is a                             Institute of Certified Public Accountants (AICPA)
defined benefit plan. The following figure sets                               Statement of Position 92-6.
forth the plan’s funded status reconciled with the                               Net periodic postretirement benefit costs for
actuarial liability.                                                          life insurance provisions under the plan include
   The actuarial cost method used to determine costs                          the components as shown in the previous figure.
for the retirement plans is the Projected Unit Credit                         The OCC has modified the layout of the data in
method, a benefit valuation method, according                                 the Figure from fiscal year 2007 to improve the
to SFAS No. 87, “Employers Accounting for                                     presentation of the OCC’s postretirement liabilities.
Pensions,” used to determine the actuarial present                            The total benefit expenses are recognized as
value of the benefit obligation and the related                               program costs in the Statements of Net Cost.

  Accrued Postretirement Benefit Liability and Net Periodic Postretirement Benefit Cost
    Liability Component                                                                         Fiscal Year 2008    Fiscal Year 2007

    Accumulated Postretirement Benefit Obligation, Beginning of Period                             $ 17,464,429        $ 12,839,288

    Net Periodic Benefit Cost                                                                           1,844,994           1,888,028

    Expected Benefit Distribution                                                                       (402,964)           (406,190)

    SFAS 158 Funded Status Adjustment                                                                (1,828,206)            3,143,303

    Total Postretirement Benefit Liability                                                         $ 17,078,253        $ 17,464,429



    Cost Component                                                                              Fiscal Year 2008    Fiscal Year 2007

    Service Cost                                                                                    $    607,651        $    598,961

    Interest Cost                                                                                       1,027,797            967,799

    Amortization of Transition Obligation                                                                172,837             172,837

    Amortization of Unrecognized Loss                                                                     36,709             148,431

    Total Postretirement Benefit Cost                                                               $ 1,844,994         $ 1,888,028




December 2008                                                            Section Four Financial Management Discussion and Analysis      65
     Note 6—Net Position                                                       fiscal year 2008, the OCC incorporated into the
                                                                               contingency reserve the funds from the special
        Net Position represents the net result of
                                                                               reserve, which had originally been established
     operations since inception, and includes cumulative
                                                                               to reduce the impact on the OCC’s operations
     amounts related to investments in capitalized assets.
                                                                               of revenue shortfalls or new requirements and
     The OCC sets aside a portion of the net position as
                                                                               opportunities.
     contingency and asset replacement reserves for use
                                                                                  The asset replacement reserve funds the
     at the Comptroller’s discretion. In addition, funds
                                                                               replacement of information technology equipment,
     are set aside to cover the cost of ongoing operations.
                                                                               leasehold improvements, and furniture replacements
        The contingency reserve supports the OCC’s
                                                                               for future years. The target level for the replacement
     ability to accomplish the mission in the case of
                                                                               reserve is established annually based on the gross
     foreseeable but rare events. Foreseeable but rare
                                                                               value of existing property and equipment plus a
     events are beyond the control of the OCC, such as
                                                                               growth rate factor and a margin for market cost
     a major change in the national banking system or,
                                                                               adjustments.
     for instance, a fire, flood, or significant impairment
                                                                                  The figure below reflects changes for fiscal years
     of the information technology systems. During
                                                                               2008 and 2007:
               Net Position Availability
                Components                                                                  Fiscal Year 2008        Fiscal Year 2007

                Contingency Reserve                                                           $ 409,061,610            $ 355,256,659

                Asset Replacement Reserve                                                       116,800,000             111,200,000

                Set Aside for Ongoing Operations:

                 Undelivered Orders                                                              52,742,606               50,972,975

                 Consumption of Assets                                                           81,606,510               60,742,789

                 Capital Investments                                                             25,844,519               25,421,815

                Net Position                                                                  $ 686,055,245            $ 603,594,238



     Note 7—Net Cost of Operations                                             the full cost of the program to arrive at net cost. The
                                                                               imputed financing sources for net cost of operations
        The Net Cost of Operations represents OCC’s
                                                                               are reported on the Statements of Changes in Net
     operating costs deducted from assessments and
                                                                               Position and in Note 9, Reconciliation of Net Cost
     fees paid by national banks and investment
                                                                               of Operations to Budget.
     interest income earned. The revenue earned from
                                                                                  The figure below illustrates the OCC’s operating
     reimbursable services is shown as an offset against
                                                                               expenses categories for fiscal years 2008 and 2007:
               Operating Expenses
                Expense Category                                                      Fiscal Year 2008         Fiscal Year 2007

                Personnel Compensation and Benefits                                     $ 452,936,124            $ 423,596,167

                Contractual Services                                                       79,694,100               77,945,521

                Travel and Transportation of Persons and Things                            43,650,692               41,099,328

                Rent, Communication, and Utilities                                         43,945,774               36,486,810

                Imputed Costs                                                              25,772,479               26,418,951

                Depreciation                                                               15,899,671               12,112,108

                Other                                                                      17,554,723               18,965,549

                Total                                                                   $ 679,453,563            $ 636,624,434




66                                                                Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
Note 8—Imputed Costs and Financing Sources                     Note 9—Reconciliation of Net Cost of
   In accordance with SFFAS No. 5, “Liabilities                Operations to Budget
of the Federal Government,” federal agencies must                 The reconciliation of Net Cost of Operations
recognize the portion of employees’ pension and                to Budget demonstrates the relationship between
other retirement benefits to be paid by the OPM                OCC’s proprietary (net cost of operations) and
trust funds. These amounts are recorded as imputed             budgetary accounting (net obligations) information.
costs and imputed financing for other agencies.                For fiscal year 2008, the following reconciliation
OPM provides federal agencies with cost factors                shows $40.9 million in excess resources available
for the computation of current year imputed costs.             to finance activities, a net decrease of $2.6 million
These cost factors are multiplied by the current year          over September 30, 2007. This net decrease resulted
salary or number of employees, as applicable, to               from a $32.1 million increase in resources available
provide an estimate of the imputed financing that the          netted against the increase of $35.3 million in
OPM trust funds will provide for each agency.                  resources used (obligations incurred) and the $0.6
   The imputed costs categories for fiscal years 2008          million decrease in imputed financing. The increase
and 2007 are listed in the following figure. These             in net resources available is primarily because
imputed costs are included on the Statements of                of increased assessments, while the increase in
Net Cost. The financing sources absorbed by OPM                resources used results from various office space and
are reflected on the Statements of Changes in Net              information technology investments as well as salary
Position and in Note 9, Reconciliation of Net Cost             and employee benefits.
of Operations to Budget.

                Imputed Costs Absorbed by OPM
                 Component                                        Fiscal Year 2008    Fiscal Year 2007

                 Retirement                                          $ 10,848,000        $ 10,971,155

                 Federal Employees Health Benefits                     14,892,660          15,417,724

                 Federal Employees Group Life Insurance                    31,819              30,072

                 Total Imputed Costs Covered by OPM                  $ 25,772,479        $ 26,418,951




December 2008                                             Section Four Financial Management Discussion and Analysis    67
                              Reconciliation of Net Cost of Operations to Budget

                                                                            Fiscal Year              Fiscal Year
                                                                                2008                     2007
     Resources Used to Finance Activities:
     Budgetary Resources Obligated
     Obligations incurred                                                  $ 673,715,700           $ 638,433,261
     Less: Spending authority from offsetting collections                   (740,411,913)           (708,321,923)
     Net obligations                                                          (66,696,213)            (69,888,662)
     Other Resources
     Imputed financing sources (Note 8)                                         25,772,479              26,418,951

     Total resources used to finance activities                               (40,923,734)            (43,469,711)

     Resources Used to Finance Items Not Part of the Net Cost of Operations
      Change in budgetary resources obligated for goods, services,
       and benefits ordered but not yet provided                       (3,835,648)                    (16,455,629)
      Resources that finance the acquisition of assets               (32,106,616)                     (24,244,583)
      Other resources or adjustments to net obligated resources
       that do not affect net cost of operations                           91,867                         (107,415)
     Total resources used to finance items not part of the net
       cost of operations                                            (35,850,397)                     (40,807,627)
     Total resources used to finance the net cost of operations    $ (76,774,131)                   $ (84,277,338)

     Components of the Net Cost of Operations that Will Not Require or
       Generate Resources in the Current Period:
     Components Requiring or Generating Resources in Future Periods:
      Change in deferred revenue                                     8,903,747                          11,958,547
      Total components that will require or generate resources in
       future periods                                                8,903,747                          11,958,547

      Components Not Requiring or Generating Resources:
      Depreciation and amortization                                             15,845,615              12,112,109
      Net (increase) decrease in bond premium                                   (4,717,816)                973,181
      Other                                                                         54,057                 414,672
      Total components that will not require or generate resources              11,181,856              13,499,962
     Total components of net cost of operations that will not
       require or generate resources in the current period                      20,085,603              25,458,509

     Net Cost of Operations                                                 $ (56,688,528)          $ (58,818,829)




68                                            Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
Independent Auditor’s Report




 gka, P.C.                                                  Certified Public Accountants | Management Consultants



  1015 18th Street, NW                 Independent Auditor’s Report on Financial Statements
        Suite 200
    Washington, DC
          20036              Inspector General, Department of the Treasury, and
                             the Comptroller of the Currency:
     Phone: 202-857-1777
      Fax: 202-857-1778
   Website: www.gkacpa.com   We have audited the accompanying balance sheets of the Office of the
                             Comptroller of the Currency (OCC) as of September 30, 2008 and 2007, and the
                             related statements of net cost, changes in net position and budgetary resources
                             for the years then ended. These financial statements are the responsibility of
                             the management of OCC. Our responsibility is to express an opinion on these
                             financial statements based on our audits.

                             We conducted our audits in accordance with auditing standards generally
                             accepted in the United States of America; the standards applicable to financial
                             audits contained in Government Auditing Standards, issued by the Comptroller
                             General of the United States; and applicable provisions of Office of Management
                             and Budget Bulletin No. 07-04, Audit Requirements for Federal Financial
                             Statements. Those standards require that we plan and perform the audits to obtain
                             reasonable assurance about whether the financial statements are free of material
                             misstatement. An audit includes examining, on a test basis, evidence supporting
                             the amounts and disclosures in the financial statements. An audit also includes
                             assessing the accounting principles used and significant estimates made by
                             management, as well as evaluating the overall financial statement presentation.
                             We believe that our audits provide a reasonable basis for our opinion.

                             In our opinion, the financial statements referred to above present fairly, in all
                             material respects, the financial position of the OCC as of September 30, 2008
                             and 2007, and its net costs, changes in net position, and budgetary resources
                             for the years then ended in conformity with accounting principles generally
                             accepted in the United States of America.

                             The information in Section Four, pages 45 through 53 of OCC’s fiscal year
                             2008 Annual Report is not a required part of the financial statements but is
                             supplementary information required by accounting principles generally accepted
                             in the United States of America. We have applied certain limited procedures,
                             which consisted principally of inquiries of management regarding the methods
                             of measurement and presentation of this information. However, we did not audit
                             this information, and we express no opinion on it.



                                                              Member of the American Institute of Certified Public Accountants


December 2008                                     Section Four Financial Management Discussion and Analysis                      69
     Independent Auditor’s Report




     gka, P.C.                                                 Certified Public Accountants | Management Consultants



      1015 18th Street, NW       Our audits were conducted for the purpose of forming an opinion on the
            Suite 200            financial statements taken as a whole. The information included in Sections
        Washington, DC           One, Two, and Three of OCC’s fiscal year 2008 Annual Report is presented
              20036              for purposes of additional analysis and is not a required part of the financial
         Phone: 202-857-1777
                                 statements. We did not audit this information, and we express no opinion on it.
          Fax: 202-857-1778
       Website: www.gkacpa.com
                                 In accordance with Government Auditing Standards, we have also issued
                                 reports dated October 31, 2008, on our consideration of the OCC’s internal
                                 control over financial reporting, and on our tests of its compliance with certain
                                 provisions of applicable laws, regulations, and contracts. These reports are an
                                 integral part of an audit performed in accordance with Government Auditing
                                 Standards, and should be read in conjunction with this report in considering
                                 the results of our audits.




                                 October 31, 2008




                                                                 Member of the American Institute of Certified Public Accountants


70                                                                                             Fiscal Year 2008 Annual Report
Independent Auditor’s Report




 gka, P.C.                                                 Certified Public Accountants | Management Consultants



  1015 18th Street, NW                   Independent Auditor’s Report on Internal Control
        Suite 200                                   over Financial Reporting
    Washington, DC
          20036              Inspector General, Department of the Treasury, and
     Phone: 202-857-1777     the Comptroller of the Currency:
      Fax: 202-857-1778
   Website: www.gkacpa.com
                             We have audited the balance sheet and the related statements of net cost,
                             changes in net position, and budgetary resources, hereinafter referred to
                             as “financial statements” of the Office of the Comptroller of the Currency
                             (OCC) as of and for the year ended September 30, 2008, and have issued our
                             report thereon dated October 31, 2008. We conducted our audit in accordance
                             with auditing standards generally accepted in the United States of America;
                             the standards applicable to financial audits contained in Government Auditing
                             Standards, issued by the Comptroller General of the United States; and the
                             applicable provisions of Office of Management and Budget (OMB) Bulletin
                             No. 07-04, Audit Requirements for Federal Financial Statements.

                             In planning and performing our audit, we considered the OCC’s internal
                             control over financial reporting by obtaining an understanding of the design
                             effectiveness of OCC’s internal control, determined whether these internal
                             controls had been placed in operation, assessed control risk, and performed
                             tests of controls in order to determine our auditing procedures for the purpose
                             of expressing our opinion on the financial statements. We limited our internal
                             control testing to those controls necessary to achieve the objectives described
                             in OMB Bulletin No. 07-04 and Government Auditing Standards. We did not
                             test all internal controls relevant to operating objectives as broadly defined by
                             the Federal Managers’ Financial Integrity Act of 1982, such as those controls
                             relevant to ensuring efficient operations. The objective of our audit was not to
                             provide an opinion on internal control over financial reporting. Consequently,
                             we do not provide an opinion on internal control over financial reporting.

                             Our consideration of the internal control over financial reporting was for
                             the limited purpose described in the preceding paragraph and would not
                             necessarily disclose all deficiencies in internal control over financial reporting
                             that might be significant deficiencies and, accordingly, would not necessarily
                             disclose all significant deficiencies that are also considered to be material
                             weaknesses. Under standards issued by the American Institute of Certified
                             Public Accountants, a control deficiency exists when the design or operation
                             of a control does not allow management or employees, in the normal course


                                                             Member of the American Institute of Certified Public Accountants


December 2008                                   Section Four Financial Management Discussion and Analysis                       71
     Independent Auditor’s Report




     gka, P.C.                                                   Certified Public Accountants | Management Consultants



      1015 18th Street, NW       of performing their assigned functions, to prevent or detect misstatements on
            Suite 200            a timely basis. A significant deficiency is a control deficiency, or combination
        Washington, DC           of control deficiencies, that adversely affects the OCC’s ability to initiate,
              20036
                                 authorize, record, process, or report financial data reliably in accordance with
         Phone: 202-857-1777     generally accepted accounting principles, such that there is more than a remote
          Fax: 202-857-1778
       Website: www.gkacpa.com
                                 likelihood that a misstatement of the OCC’s financial statements that is more than
                                 inconsequential will not be prevented or detected by the OCC’s internal control.

                                 A material weakness is a significant deficiency, or combination of significant
                                 deficiencies, that results in more than a remote likelihood that a material
                                 misstatement of the financial statements will not be prevented or detected by the
                                 OCC’s internal control. We did not identify any deficiencies in internal control
                                 over financial reporting that we consider to be material weaknesses, as defined
                                 above.

                                 We noted certain matters involving internal control and its operation that we
                                 reported to management of OCC in a separate letter dated October 31, 2008.

                                 This report is intended solely for the information and use of the Management
                                 of the OCC, the Department of the Treasury Office of Inspector General, the
                                 Government Accountability Office, OMB, and the U.S. Congress, and is not
                                 intended to be, and should not be used by anyone other than these specified
                                 parties. However, this report is a matter of public record and its distribution is
                                 not limited.




                                 October 31, 2008




                                                                   Member of the American Institute of Certified Public Accountants


72                                                                                               Fiscal Year 2008 Annual Report
Independent Auditor’s Report





 gka, P.C.                                                     Certified Public Accountants | Management Consultants

                                          Independent Auditor’s Report on Compliance with

  1015 18th Street, NW                                 Laws and Regulations

        Suite 200
    Washington, DC           The Inspector General, Department of the Treasury, and
          20036              the Comptroller of the Currency:
     Phone: 202-857-1777
      Fax: 202-857-1778      We have audited the balance sheets and the related statements of net cost, changes
   Website: www.gkacpa.com
                             in net position, and budgetary resources, hereinafter referred to as “financial
                             statements” of the Office of the Comptroller of the Currency (OCC) as of and for
                             the years ended September 30, 2008 and 2007, and have issued our report thereon
                             dated October 31, 2008. We conducted our audits in accordance with auditing
                             standards generally accepted in the United States of America; the standards
                             applicable to financial audits contained in Government Auditing Standards, issued
                             by the Comptroller General of the United States; and, the applicable provisions of
                             Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements
                             for Federal Financial Statements.

                             The management of the OCC is responsible for complying with laws and
                             regulations applicable to the OCC. As part of obtaining reasonable assurance about
                             whether the OCC’s financial statements are free of material misstatement, we
                             performed tests of its compliance with certain provisions of laws and regulations
                             and contracts, noncompliance with which could have a direct and material effect
                             on the determination of financial statement amounts, and certain provisions of
                             other laws and regulations specified in OMB Bulletin No. 07-04, including certain
                             requirements referred to in the Federal Financial Management Improvement Act
                             (FFMIA) of 1996. We limited our tests of compliance to the provisions described
                             in the preceding sentence, and we did not test compliance with all laws, regulations
                             and contracts applicable to the OCC. However, our objective was not to provide an
                             opinion on overall compliance with laws, regulations and contracts. Accordingly,
                             we do not express such an opinion.

                             The results of our tests of compliance with laws, regulations and contracts
                             described in the preceding paragraph, exclusive of FFMIA, disclosed no instances
                             of noncompliance that are required to be reported under Government Auditing
                             Standards or OMB Bulletin No. 07-04.

                             Under FFMIA, we are required to report whether the OCC’s financial management
                             systems substantially comply with (1) federal financial management systems
                             requirements, (2) applicable federal accounting standards, and (3) the United
                             States Government Standard General Ledger at the transaction level. To meet
                             this requirement, we performed tests of compliance with FFMIA section 803(a)
                             requirements.
                                                                 Member of the American Institute of Certified Public Accountants


December 2008                                       Section Four Financial Management Discussion and Analysis                       73
     Independent Auditor’s Report





     gka, P.C.                                                Certified Public Accountants | Management Consultants



     1015 18th Street, NW       The results of our tests disclosed no instances in which the OCC’s financial
           Suite 200            management systems did not substantially comply with the three requirements
       Washington, DC           discussed in the preceding paragraph.
             20036
        Phone: 202-857-1777
                                This report is intended solely for the information and use of the Management
         Fax: 202-857-1778      of the OCC, the Department of the Treasury Office of Inspector General,
      Website: www.gkacpa.com
                                the Government Accountability Office, OMB, and U.S. Congress and is not
                                intended to be, and should not be used by anyone other than these specified
                                parties. However, this report is a matter of public record and its distribution is
                                not limited.




                                October 31, 2008




                                                               Member of the American Institute of Certified Public Accountants


74                                                                                             Fiscal Year 2008 Annual Report
Other Accompanying Information
Performance Measures and Results
   The OCC’s fiscal year 2008 performance measures, workload indicators, customer service standards, and results
are presented in Figure 23.

               Figure 23: Performance Measures, Workload Indicators, Customer Service Standards, and Results

                                                                                                                                                  Fiscal Year 2008
                  Performance Measure
 Strategic        Workload Indicator                                                            Fiscal          Fiscal          Fiscal
                                                                                                                                               Target       Actual 1
 Goal             Customer Service Standard                                                   Year 2005       Year 2006       Year 2007

 I. A safe and sound national banking system

                  Percentage of national banks with composite CAMELS rating of 1
                                                                                                    94%             95%             96%          90%             92%
                  or 2

                  Rehabilitated problem national banks as a percentage of the problem
                                                                                                    44%             46%             52%          40%             47%
                  national banks one year ago (CAMELS 3, 4 or 5)

                  Percentage of national banks that are categorized as well capitalized             99%             99%             99%          95%             99%

                  Percentage of critically undercapitalized banks on which responsible
                  action is taken within 90 calendar days after they become critically              N/A 2           N/A 2          100%         100%            100%
                  undercapitalized

                  Average survey response that the report of examination clearly
                  communicated examination findings, significant issues and the                     1.28            1.30            1.32       < 1.75                1.28
                  corrective actions management needed to take 3

 II. Fair access to financial services and fair treatment of bank customers

                  Percentage of national banks with consumer compliance rating of
                                                                                                    94%             94%             97%          94%             97%
                  1 or 2

                  Percentage of qualified intermediate small banks to which the OCC
                  offers to provide consultation on the Community Reinvestment Act                 100%            100%            100%         100%            100%
                  and community development opportunities

                  Percentage of consumer complaints closed within 60 calendar days
                                                                                                     N/A            36%             18%          80%                 12%
                  of receipt 4

                  Number of consumer complaints opened/closed during the fiscal                      N/A          31,827         33,655        38,000          41,656
                  year 4                                                                             N/A          32,925         26,245        36,000          30,986

 III. A flexible legal and regulatory framework that enables the national banking system to provide a full, competitive array of financial services

                  Percentage of external legal opinions issued within established time
                                                                                                    86%             89%             96%          86%                 92%
                  frames

                  Number of external legal opinions issued during the fiscal year 5                  119              70              81          120                 73

                  Percentage of licensing applications and notices filed electronically
                                                                                                    38%             36%             38%          40%                 46%
                  during the fiscal year

                  Number of licensing applications and notices filed electronically
                                                                                                   1,256           1,367           1,261        1,520           1,525
                  during the fiscal year

                  Percentage of licensing applications and notices completed within
                                                                                                    96%             94%             96%          95%                 95%
                  established time frames

                  Number of licensing applications and notices completed during the
                                                                                                   2,128           2,425           2,278        2,000           1,843
                  fiscal year 6

                  Average survey rating of the overall licensing services provided by
                                                                                                    1.19            1.20            1.20       < 1.50                1.22
                  OCC 7




December 2008                                                                   Section Four Financial Management Discussion and Analysis                                   75
                                                                                                                                              Fiscal Year 2008
                          Performance Measure
         Strategic        Workload Indicator                                                           Fiscal       Fiscal      Fiscal
                                                                                                                                            Target      Actual 1
         Goal             Customer Service Standard                                                  Year 2005    Year 2006   Year 2007

         IV. An expert, highly motivated, and diverse workforce that makes effective use of OCC resources

                          Total OCC costs relative to every $100,000 in bank assets regulated               N/A      $ 8.57        $ 8.89    $ 9.55         $ 8.39

     Source: OCC data for fiscal years 2008 and 2007.

     1
      Fiscal year 2008 performance numbers shown in bold italics are estimates. Some performance data is obtained from quarterly call reports from banks. The
     September 30, 2008, call reports are not due until 30 or 45 days after the end of the period. Additionally, examinations concluded late in the fiscal year are
     not finalized for another 30 to 60 days. As a result, complete fiscal year data is not yet available; therefore, estimates have been reported.
     2
         There were no critically undercapitalized national banks in fiscal years 2005 and 2006.
     3
         The examination survey is based on a five-point scale, in which 1 indicates complete agreement and 5 indicates complete disagreement.
     4
       In fiscal year 2006, the OCC revised reporting on the consumer complaints measure and related workload indicators to exclude inquiries and appeals at
     the recommendation of the Government Accountability Office. As such, prior year reporting is no longer presented because the data is not comparable and
     fiscal year 2006 is shown as the baseline year.
     5
       For fiscal year 2008, the number of external legal opinions issued is below target because legal opinions are initiated externally by banks requesting
     interpretations from the OCC, and the OCC can only base projections on past history and anticipated activity.
     6
      The number of total licensing filings has declined from the previous fiscal year because the number is based on actual applications received that also
     declined. However, the number of applications filed electronically increased for the fiscal year.
     7
         The licensing survey is based on a five-point scale, in which 1 indicates outstanding and 5 indicates significantly deficient.




     Improper Payments Information Act
        The Improper Payments Information Act of 2002, as implemented by the OMB, requires federal agencies to
     review all program and activities annually and identify those that may be susceptible to significant erroneous
     payments. The OCC analyzed payments (excluding payroll) made during fiscal year 2008 and identified 38
     erroneous payments requiring adjustments totaling $31,895. Erroneous payments are identified and monitored
     daily to ensure prompt recovery. The underlying causes and contributing factors are identified quickly,
     and control measures are implemented to prevent additional erroneous payments. The OCC corrected and
     recovered all erroneous payments made during the year. Figure 24 summarizes the OCC’s erroneous payments
     for fiscal years 2008 and 2007.

                           Figure 24: Erroneous Payments

                                                               Fiscal Year        Fiscal Year
                                                                  2008               2007

         Number of payments                                               38                    78

         Dollar value of adjustments                               $ 31,895           $ 272,570

     Source: OCC data for fiscal years 2008 and 2007.




76                                                                                                                                  Fiscal Year 2008 Annual Report
Methodology for Identifying Improper Payments
   The OCC conducts both pre-payment reviews and post-payment audits to identify improper or erroneous
payments. The OCC conducts a 100 percent pre-payment review of all supplier invoices and payment files
prior to transmission to Treasury. As part of its sensitive payments program, the OCC conducts a 100 percent
pre-payment review of executive and international travel vouchers and relocation payments, thereby helping
to prevent erroneous payments. The OCC uses a sampling approach to audit travel vouchers and data-mining
techniques to detect potential erroneous payments for post-payment audit activities. Immediately upon their
identification, the OCC initiates collection activity to ensure recovery of funds. Also, the OCC is conducting a
business process improvement review of the non-payroll process to bring about efficiencies and to determine
the need for additional controls.
   Based on the analyses, the OCC has concluded that erroneous payments do not exceed the Treasury
threshold, which is both 2.5 percent of non-payroll payments and $10 million. The OCC is compliant with the
Erroneous Payments and Recovery Act of 2001 and the Improper Payments Information Act of 2002.




December 2008                                        Section Four Financial Management Discussion and Analysis     77
     Assurance Statement
       The Office of the Comptroller of the Currency (OCC) has made a conscientious effort during fiscal
     year (FY) 2008 to meet the internal control requirements of the Federal Managers’ Financial Integrity Act
     (FMFIA), the Federal Financial Management Improvement Act (FFMIA), and Office of Management and
     Budget (OMB) Circular A-123.
       OCC systems of management control are designed to ensure that:
     a)	Programs achieve their intended results;
     b)	Resources are used in accordance with the agency’s mission;
     c)	Programs and resources are protected from waste, fraud, and mismanagement;
     d)	Laws and regulations are followed;
     e)	Controls are sufficient to minimize improper or erroneous payments;
     f)	 Performance information is reliable;
     g)	Systems security is in substantial compliance with relevant requirements;
     h)	Continuity of operations planning in critical areas is sufficient to reduce risk to reasonable levels; and
     i)	 Financial management systems are in compliance with federal financial systems standards, i.e., FMFIA
         Section 4 and FFMIA.
       I am providing reasonable assurance that the above-listed management control objectives were achieved
     by the OCC without material weakness during FY 2008. Specifically, this assurance is provided relative to
     Sections 2 and 4 of the Federal Managers’ Financial Integrity Act (FMFIA).
       I am also reporting substantial compliance with the requirements imposed by the Federal Financial
     Management Improvement Act (FFMIA).
       The OCC also conducted its assessment of the effectiveness of internal control over financial reporting,
     which includes the safeguarding of assets and compliance with applicable laws and regulations, in accordance
     with the requirements of Appendix A of OMB Circular A-123. Based on the results of this evaluation, the
     OCC can provide reasonable assurance that its internal control over financial reporting as of June 30, 2008,
     was operating effectively, and no material weaknesses were found in the design or operation of the internal
     control over financial reporting.

     Other Control Deficiency
        The OCC presented results of performance measures, workload indicators, and customer service standards
     in the FY 2007 Annual Report. We reported that only 18 percent of the targeted 80 percent of FY 2007
     consumer complaints were closed within 60 calendar days of receipt. Our management team conducted a
     process improvement project during FY 2008, and changes are being initiated. The OCC Customer Assistance
     Group expects substantial improvement during FY 2009 as a result of these process improvement initiatives.

     Analytical Basis of Assurance Statement
       OCC evaluated its management controls in accordance with the FY 2008 Secretary’s Assurance Statement
     Guidance of July 10, 2008, and also considered the following guidance:

     •	 OMB Circular A-123, Management’s Responsibility for Internal Control;
     •	 OMB Circular A-127, Financial Management Systems;



78                                                   Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
•		 OMB Circular A-130, Management of Federal Information Resources; and
•		 Treasury Directive 40-04, Treasury Internal (Management) Control Program.
  Information considered in our control assessment included the following:
•		 FMFIA and FFMIA certifications submitted by each Executive Committee member;
•		 OCC’s Strategic Risk Management Plan;
•		 Results of internal control testing under OMB Circular A-123, Appendix A;
•		 Executive Committee descriptions of business unit quality management programs;
•		 Results of internal reviews, including quality management program testing by the Enterprise Governance
    unit;
•		 Results of control self-assessments completed by OCC managers in FY 2008;
•		 Audit reports and evaluations issued by the Government Accountability Office and the Office of the
    Inspector General;
•		 Completion of risk assessment materials related to the Improper Payments Information Act by our Deputy
    Chief Financial Officer, which was submitted to the Department in May 2008;
•		 Completion of GAO’s Core Financial System Requirements Checklist;
•		 Unqualified and timely audit opinion on FY 2007 financial statements; and
•		 GKA, P.C.’s status report of October 17, 2008, on the FY 2008 financial statement audit.




John C. Dugan
Comptroller of the Currency
November 3, 2008




December 2008                                        Section Four Financial Management Discussion and Analysis   79
     List of Acronymns
     ACH: Automated clearinghouse                             FinCEN: Financial Crimes Enforcement Network
     AICPA: American Institute of Certified Public            FISMA: Federal Information Security Management
        Accountants                                              Act
     BIT: Bank Information Technology                         FM: Financial Management Department
     BSA/AML: Bank Secrecy Act/Anti-Money                     FMFIA: Federal Managers’ Financial Integrity Act
        Laundering                                            GAAP: Generally Accepted Accounting Principles
     CAG: Customer Assistance Group                           GAO: Government Accountability Office
     CDO: Collateralized Debt Obligations                     HSPD: Homeland Security Presidential Directive
     CPA: Certified Public Accountant                         IT: Information Security
     CDFI: Community development financial institution        ITS: Information Technology Services
     CFR: Code of Federal Regulations                         OCC: Office of the Comptroller of the Currency
     CMP: Civil money penalty                                 OMB: Office of Management and Budget
     CRA: Community Reinvestment Act                          UNICEF: United Nations Children’s Fund
     CRE: Commercial Real Estate                              OPM: Office of Personnel Management
     FASAB: Federal Accounting Standards Advisory             OTS: Office of Thrift Supervision
        Board
                                                              SFAS: Statement of Financial Accounting Standards
     FDIC: Federal Deposit Insurance Corporation
                                                              SIV: Structured Investment Vehicle
     FECA: Federal Employees Compensation Act
                                                              SFFAS: Statement of Federal Financial Accounting
     FFMIA: Federal Financial Management                         Standards
       Improvement Act
                                                              USC: United States Code




80                                               Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
                                                        change in bank control, 33, 36-37

Index	                                                  Chief Financial Officer, letter from, 45-46

                                                        Chief National Bank Examiner, Office of, 43

                                                        Chief of Staff and Public Affairs, 29, 44

A
                                                        Circular A-123, OMB, 45-46, 78

accounting principles, generally accepted in U.S. 

                                                        civil money penalties, 34-35, 49, 59-60

     (GAAP), 49, 58, 69, 72

                                                        Civil Service Retirement System (CSRS), 52, 60-61

Activities Permissible for a National Bank: 2007, 33

                                                        collateralized debt obligations (CDOs), 2-3, 14, 17-18

AIG (American International Group), timeline
                                                        compliance policy, 11-12, 22-23, 26-27, 38, 75

Alt-A mortgages, 2, 14 

                                                        commercial and retail lending, 22-23

Ameribank, timeline
                                                        commercial real estate (CRE) concentrations, 1-3, 11
-
American Institute of Certified Public Accountants 

                                                             12, 14-15, 25

     (AICPA), 65, 71 

                                                        Commonwealth National Bank, 30

American Securitization Forum, 18, 24

                                                        community banking, 1, 5, 11-12, 15

Annual Report, FY 2008, 5, 45

                                                        Committee on Bank Supervision, 39

anti-money laundering, 26, 34

                                                        Community Affairs, 5, 26-27, 38

asset-backed commercial paper, 1, 14

                                                        Community bank directors workshop program, 44

assessments, 46, 49-53, 59-60, 66-67, 79

                                                        Computer Incident Response Center, 41 

asset management, 17, 22, 49, 51

                                                        community development, 26-27, 38

assets, national banks, ii, 7, 9, 14, 20, 52

                                                        Community Reinvestment Act (CRA), 19, 26, 38, 75

assets, OCC, 45, 49-50, 54, 58-60, 63, 66, 69

                                                        Complaint Referral Express, 29

Assistant Deputy Comptrollers (ADC), 11-12, 30

                                                        consumer complaints, 5, 11, 20, 27-29, 42-43, 75, 79

assurance statement, 43, 45, 78

                                                        consumer protection, 2, 5, 20, 23, 26, 28 38

Archivists’s Achievement Award, 41

                                                        contingency plan, banks, 14

automated clearinghouse, 28

                                                        contingency plan, OCC, 50-51, 53, 66

                                                        Continuity of Operations Plan (COOP), 41-42, 78

B                                                       conversions, 35-37

balance sheets, banks, 7, 9, 15
                        Cook, Johanna, 23

balance sheets, OCC, 49, 50, 54, 59-60, 64
             corporate reorganizations, 35

balanced scorecard, 46, 48-49
                          Countrywide Financial, 1, timeline,

Bank Activities and Structure Division, 27
             credit card lending, 2

Bank of America, 1, timeline, 13 
                      credit card disclosures, 27

bank failures, 1, 4, 8-9, 35
                           “credit crunch,” 1, 3, 7, 19, 24, 48

Banking Relations Division, 26, 44
                     Customer Assistance Group, 28-29, 38-39, 78

bank note, inside back cover
Bank Secrecy Act (BSA), 26, 34

bank supervision school, 22

bank technology, 5, 22

                                                        D
                                                        “dashboards,” 25

Basel Committee on Banking Supervision, 2, 18, 20-21

                                                        De novo bank charter, 30, 35

Basel II, 18, 21, 25, 33

                                                        derivative transactions, 33

Bear Stearns, 1, timeline
                                                        Dugan, John C., photos, 1-2, 20, 26

Bloom, Thomas R., 2, 45-46

Blueprint for a Modernized Financial Regulatory 

    Structure, 33
                                      E
Blysma, Michael, 23
                                    Economic and Financial Analysis, 11, 23

bonds, U.S. Treasury, 51-52, 59-61
                     Economics Department, 27, 43

Bureau of Engraving and Printing, 40
                   electronic payment systems, 19

                                                        Emergency Economic Stabilization Act (EESA), 

                                                            timeline
C
                                                        Emergency Management Program, 42

Calhoun, James, 12 

                                                        enforcement actions, 17, 34-35

CAMELS rating, 75

                                                        Enterprise Governance (EG) unit, 42-43, 79

Capital One Financial Corp., 13

                                                        equal employment opportunity, 40

capital markets, 5, 9, 19, 22

                                                        equity, bank, 7-8 

cease and desist orders, 34, 35

                                                        erroneous payments, 76-77

Change in Bank Control Act (CBCA), 37



December 2008                                                                                                     81
     Erroneous Payments and Recovery Act of 2001, 77, 79
           formal agreements, 35 

     Examiners-in-Charge (EIC), 11, 13
                             fraud, 22, 27, 38, 78

     External Outreach and Minority Affairs, 30, 44
                Freedom of Information Act requests, 44

     executive committee, 2-3
                                      funds transfer activities, 27

                                                                    furniture replacement, 51, 66

     F
     Fair and Accurate Credit Transactions Act of 2003 
            G
          (FACT), 19, 33
                                           Gallup Q12 employee engagement survey, 47-48

     fair lending, 5, 11, 18, 25-27
                                General Fund of the U.S. Treasury, 49-50, 60

     Fannie Mae, 1, timeline                                        General Services Administration, 42

     Fast Track Enforcement Program, 35
                            Greenway, Tim, 13

     fees, application, 30
                                         gift cards, 29, 44

     Freddie Mac, 1, timeline                                       global banking, 23

     Federal Accounting Standards Advisory Board 
                  “golden parachute” payments, 27

          (FASAB), 59, 61
                                          Government Accountability Office (GAO), 43, 72, 74, 

     Federal Branches and Agencies Program, 21
                          79

     Federal Deposit Insurance Act, 17

     Federal Deposit Insurance Corporation (FDIC), 4, 9, 31
        H
     Federal Employees’ Compensation Act (FECA), 65
                Hattix, Larry, 38

     Federal Employees Group Life Insurance (FEGLI), 61, 
          HelpWithMyBank.gov, 29, 39, 44

          67
                                                       home equity lending, 1, 11, 16, 38

     Federal Employees Health Benefits (FEHB), 61, 67
              Homeland Security, Department of, 20, 42

     Federal Employees Retirement System (FERS), 52, 61
            Home Mortgage Disclosure Act, 25-26

     Federal Financial Institutions Examination Council 
           “Hope for Homeowners,” 16

          (FFIEC), 29
                                              Hope Now Alliance, 18, 24

     Federal Financial Management Improvement Act 
                 horizontal reviews, 1, 11, 25

          (FFMIA), 73, 78
                                          Housing and Economic Recovery Act, 16, 18-19 

     Federal Home Loan Bank, timeline,
     Federal Housing Administration, 16

     Federal Information Security Management Act, 41
               I

     Federal Managers’ Financial Integrity Act (FMFIA), 
           identity theft, 18-19

          71, 78
                                                   Improper Payments Information Act of 2002 (IPIA), 

     Federal Reserve notes, inside back cover                            76-77, 79

     Federal Reserve System (FRB), timeline, 19
                    Independent Auditor’s Report, 45, 49, 69-74

     Federal Thrift Savings Plan (TSP), 61
                         IndyMac Bank, 1, timeline

     Federal Trade Commission (FTC), 18-20, 34
                      “Information Security Concept of Operations,” 41

     fidelity insurance, 31
                                        information technology, 5, 22, 31, 33, 38-41, 51, 66

     fiduciary powers, 33, 36-37
                                   Information Technology Services, 40-41

     Financial Action Task Force (FATF), 20
                        insider transactions, 27, 34

     Financial and Banking Information Infrastructure 
             Interagency Minority Depository Institutions National 

          Committee, 20, 42
                                             Conference, 30

     Financial Crimes Enforcement Network (FinCEN), 34
             Internal Revenue Service, 61

     Financial Institutions Reform, Recovery, and 
                 International Banking Supervision Department, 21-22

          Enforcement Act of 1989, 40

     Financial Management, 45-79
                                   J
     Financial Stability Forum, 17 
                                Jaedicke, Ann, 26

     financial literacy, 18, 38, 44
                                Jee, Delora Ng, 21

     financial statements, 31, 33, 45, 49, 54, 58-59, 61, 69, 
     Johnson, Rayburn, 28

          70-73, 79
                                                Joint Forum, 20-21

     financial statements, notes to, 45, 58
                        JPMorgan Chase, 1, timeline

     Fink, Jonathan, 27-28

     First National Bank of Davenport, inside back cover
           K
     First National Bank of Philadelphia, inside back cover
        Kelly, Jennifer C., 2

     foreclosures, 1, 9, 11,16, 19, 24, 38 

     foreclosure counseling, 18, 29, 44



82                                                     Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
L                                                         nontraditional mortgage products, 11
Labor Department (DOL), 65

Large Bank Supervision, 11-15, 18, 21, 40-41
             O
Law Department, 27
                                       OCC 401(K) plan, 61

Lehman Brothers, 1, timeline
                             OCC and OTS Mortgage Metrics Report, 11, 14, 24

lean six sigma, 43, 46-47, 49
                            OCC Highlights, i, 30

leasehold improvements, 51, 63, 66
                       OCC Policy Statement on Minority-Owned National 

leases, 46, 63-64
                                            Banks, 29

leave account, 60
                                        Office of Inspector General, 43, 72, 74

lending limits, 27, 31
                                   Office of Management and Budget (OMB), 41-43, 45, 

leveraged loans, 1, 3, 15-16
                                 58, 69, 71-74, 76, 78-79

Levonian, Mark, 2
                                        Office of Personnel Management (OPM), 52, 61, 67

liabilities, OCC, 45, 50, 54, 58-60, 64-65, 67
           Office of the Chief Counsel, 26, 28, 33, 43

Lincoln, Abraham, inside back cover
                      Office of Thrift Supervision (OTS), 19, 24

liquidity, 1-2, 4, 7-9, 14, 17-18, 35
                    Office of the Inspector General (OIG), 41, 43, 69, 71
-
loans, bank, 1, 3, 7-9, 11
                                   74, 79

London office, 20
                                        Ombudsman’s Office, 27, 30, 33, 38-39, 40, 43

Long, Timothy W., 2
                                      “on-boarding,” 40

loss provisions, 9, 17
                                   operational risk, 5, 21


M                                                         P
Market Disruption Timeline, 5
                            Paul, Bajinder N., 2 

McCulloch, Hugh, inside back cover
                       Paulson, Henry, timeline
“Meet the Comptroller” sessions, 44
                      payments system, 27-28

mega-bank, 13
                                            Payments System Working Group, 27

memoranda of understanding, 28, 35
                       performance measures, 36, 48, 75-76, 78

mergers, 35-37
                                           Pierce, Michael, 30 

Merrill Lynch, timeline,
                                 Pitkin, Howard, 20

Messick, Carter, 22
                                      postretirement life insurance plan, 61, 65

Midsize/Community Bank Supervision, 21, 30 
              Powell, Stephanie, 29

minority banks, 11, 29-30
                                preemption, 34 

Morgan Stanley, timeline
                                 President’s Working Group on Financial Markets 

mortgage banking, 5, 7, 11, 14, 16, 24-25, 39
                (PWG), 17

Mortgage Metrics program, 2, 11, 14, 24
                  problem banks, 12, 17, 27, 35

Mortgage Reform and Anti-Predatory Lending Act, 
         problem loans, 8

   timeline                                               Prompt Payment Act, 60

                                                          process improvement, 42-43, 47-48, 77-78

N                                                         Public Accounting Oversight Board, 20

National Archives and Records Administration 
            Public Affairs Department, 29-30, 43

     Conference, 41
                                      public welfare investment authority,16, 19, 38

National Association of Affordable Lenders, 16

National Association of Consumer Agency 
                 Q
     Administrators, 29, 44
                              “Quick Wins” program, 42

National Bank Act of 1864, inside back cover, 58

national bank appeals process, 38-39

national bank charter, 11, 30-31, 35-36, 75

                                                          R
                                                          retail banking, 25

National Credit Union Administration (NCUA), 19

                                                          Risk Analysis Unit, 11, 25

National Currency Act of February 25, 1863, inside 

                                                          risk-based supervision, 5, 25, 27-28

     back cover, 58

                                                          recruitment, 46, 48

National Institute of Standards and Technology, 41, 43

                                                          revenues, 45, 50-51, 53, 55, 58-59

National Interagency Community Reinvestment 

                                                          Risk Transfer—Developments from 2005 to 2007, 21

     Conference, 38

                                                          Roeder, Douglas W., 3

net income, 8

                                                          Russell, Kevin, 23

NeighborWorks America, 38



December 2008                                                                                              Index    83

     S                                                              U
     Scherer, Kim, 13
                                              underwriting standards, 1, 3, 11, 14

     Securities Exchange Act, 31
                                   unfair and deceptive acts or practices, 18, 26, 34

     Securities and Exchange Commission (SEC), 20
                  uniform commercial code, 27

     security, 41-42, 78
                                           Uniform Commission Examination, 40

     Senior Supervisors Group, 17
                                  uniform national currency, inside back cover

     Shared National Credit (SNC) Review, 14, 20
                   UnionBanCal Corporation, 13

     Significant Legal, Licensing, Community Development            Utterback, Paul, 23

          Precedents for a National
      Bank, 33
                                                     V

     Small Business Administration, 38
                             vision statement, inside front cover

     Smartcard ID, 42
                                              visitorial authority, 34

     Special Supervision Division, 12 

     Specialty Skills Assessment Program, 39

     Stabilization and Homeownership Retention Act of 
             W
          2008, 16
                                                 Wachovia, 1, 38

     statements of budgetary resources, 49, 53, 57-59
              Walsh, John G., 3, 28

     statements of changes in net position, 49-50, 52, 56, 58, 
    Wall Street, 3

          66-67
                                                    WaMu (Washington Mutual), 1, timeline

     Statements of Federal Financial Accounting Standards 
         Wells Fargo, 1

          (SFFAS), 58-61, 63, 65, 67
                               Wentzler, Nancy, 25

     statements of net cost, 49, 52, 55-56, 58, 64-65, 67, 69, 
    Wides, Barry, 18

          71, 73
                                                   Williams, Julie L., 3

     Strategies and Resources (STARS), 41
                          Wilson, Scott J., 13

     structured investment vehicles (SIV), 1, 14
                   WISDM document management system, 41

     subprime lending, 1-3, 7, 11, 14, 16
                          workplace fairness, 40

     System Development Lifecycle (SDLC), 41


     T
     tax credits, 38

     telephone seminars for bankers, 26

     terrorists, 34

     Thornton, Troy, 12 

     timeline, market disruption, 5

     Troubled Asset Relief Program (TARP), timeline

     Treasury, Department of, inside back cover, timeline, 

          24, 33, 40-41, 52, 58-60, 69, 72-74

     Treasury Learning Management System, 41

     Tucker, Karen, 23





84                                                     Off ice of the Comptroller of the Currency Fiscal Year 2008 Annual Report
                                                                             R OF THE
                                                                           LE         C




                                                                       L




                                                                                       UR
                                                                COMPTRO




                                                                                         RENCY
                                                                              18 6 3



                                                                                          OCC History and Traditions
                                                                             I

             OCC VISION

T
        he Office of the Comptroller of the Currency (OCC)
        seeks to assure a banking system in which national
        banks soundly manage their risks, comply with
applicable laws, compete effectively with other providers of
financial services, offer products and services that meet the
needs of customers, and provide fair access to financial
services and fair treatment of their customers.
                                                                                                                        Comptroller of the Currency
                                                                                                                        Administrator of National Banks




                                                                            Office of the Comptroller of the Currency
                                                                                                                        US Department of the Treasury




                                                                            ANNUAL REPORT FY 2008
                                                                                                                         Office of the Comptroller of the Currency
                                                                                                                                                          ANNUAL REPORT
The seal depicted on the front cover dates to 1863. It was designed under                                                                                    Fiscal Year 2008
 the direction of the first Comptroller of the Currency, Hugh McCulloch,
  chosen by President Abraham Lincoln and Secretary of the Treasury
    Salmon P. Chase. The OCC marked its 145th anniversary in 2008.
